APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Decision in the Supreme Court of Iowa
(May 31, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Ruling on Judicial Review in the Iowa
District Court for Polk County
(February 15, 2017) . . . . . . . . . . App. 59
Appendix C Final Decision and Order of the State
of Iowa Department of Commerce
Utilities Board
(March 10, 2016) . . . . . . . . . . . . App. 108

App. 1

APPENDIX A
IN THE SUPREME COURT OF IOWA
No. 17–0423
[Filed May 31, 2019]
[Amended July 30, 2019]
_________________________________________
KEITH PUNTENNEY; LAVERNE I.
JOHNSON; RICHARD R. LAMB, Trustee
of the Richard R. Lamb Revocable Trust;
MARIAN D. JOHNSON by her Agent
VERDELL JOHNSON, NORTHWEST
IOWA LANDOWNERS ASSOCIATION;
IOWA FARMLAND OWNERS
ASSOCIATION, INC.; and the SIERRA
CLUB IOWA CHAPTER,
Appellants,
and
HICKENBOTTOM EXPERIMENTAL
FARMS, INC. and PRENDERGAST
ENTERPRISES, INC,
Petitioners,
vs.
IOWA UTILITIES BOARD, A Division

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 2
of the Department of Commerce,
State of Iowa,

)
)
)
Appellee,
)
)
and
)
)
OFFICE OF CONSUMER ADVOCATE
)
and THE MAIN COALITION,
)
)
Intervenors-Appellees,
)
)
and
)
)
DAKOTA ACCESS, LLC,
)
)
Appellee.
)
_________________________________________ )
Appeal from the Iowa District Court for Polk
County, Jeffrey D. Farrell, Judge.
Landowners appeal a district court decision denying
a petition for judicial review of a decision by the Iowa
Utilities Board authorizing a company to use eminent
domain to build a crude oil pipeline. AFFIRMED.
William E. Hanigan and Jason R. Lawrence of
Davis, Brown, Koehn, Shors & Roberts, P.C., Des
Moines, for appellants Richard R. Lamb; Marian D.
Johnson by Agent, Verdell Johnson; Northwest Iowa
Landowners Association; and Iowa Farmland Owners
Association, Inc.

App. 3
Wallace L. Taylor of Law Offices of Wallace L.
Taylor, Cedar Rapids, for appellants Keith Puntenney,
LaVerne I. Johnson, and Sierra Club Iowa Chapter.
Bret A. Dublinske and Brant M. Leonard of
Fredrikson & Byron, P.A., Des Moines, for appellee
Dakota Access, LLC.
David J. Lynch (until withdrawal), Cecil I. Wright
II, and Benjamin J. Flickinger, Des Moines, for
appellee Iowa Utilities Board.
Mark R. Schuling and John S. Long, Des Moines, for
intervenor-appellee Office of Consumer Advocate.
Matthew C. McDermott and Espnola F. Cartmill of
Belin McCormick, P.C., Des Moines, for intervenorappellee The Main Coalition.
David Bookbinder, Washington, D.C., and Scott L.
Long of Long & Gilliam, Des Moines, for amicus curiae
Niskanen Center.
MANSFIELD, Justice.
The Bakken Oil Field has made North Dakota the
second leading oil-producing state in our country.
Almost all of America’s oil-refining capacity, however,
is located elsewhere in the nation. For this reason, an
underground crude oil pipeline was proposed that
would run from western North Dakota across South
Dakota and Iowa to an oil transportation hub in
southern Illinois. Following a lengthy administrative
proceeding, the Iowa Utilities Board (IUB) approved
the construction of this pipeline in Iowa and approved

App. 4
the use of eminent domain where necessary to condemn
easements along the pipeline route.
Several landowners and an environmental
organization sought judicial review. They contended
the pipeline did not serve the “public convenience and
necessity” as required by law, see Iowa Code § 479B.9
(2016); did not meet the statutory standard required
for a taking of agricultural land, see id.
§§ 6A.21(1)(c), .22(1); and did not meet the
constitutional definition of “public use” set forth in
article I, section 18 of the Iowa Constitution and the
Fifth Amendment to the United States Constitution.
Two of the landowners also raised claims personal to
them. The district court denied the petitions for judicial
review, and the petitioners have appealed.
On appeal, we conclude that the IUB’s weighing of
benefits and costs supports its determination that the
pipeline serves the public convenience and necessity.
We also conclude that the pipeline is both a company
“under the jurisdiction of the [IUB]” and a “common
carrier,” and therefore is not barred by Iowa Code
sections 6A.21 and 6A.22 from utilizing eminent
domain. See id. §§ 6A.21(2), .22(2)(a)(2). In addition, we
conclude that the use of eminent domain for a
traditional public use such as an oil pipeline does not
violate the Iowa Constitution or the United States
Constitution simply because the pipeline passes
through the state without taking on or letting off oil.
Lastly, we determine that the IUB’s resolution of the
two individual landowner claims was supported by the
law and substantial evidence. For these reasons, we
affirm the district court’s judgment.

App. 5
I.

Background Facts and Proceedings.

In October 2014, Dakota Access, LLC (Dakota
Access) filed documents with the IUB disclosing its
intent to construct an underground crude oil pipeline
from western North Dakota to Patoka, Illinois, an oil
transportation hub. The pipeline would traverse Iowa
from the northwest corner to the southeast corner of
the state, passing through eighteen counties over a
distance of approximately 343 miles.
In December 2014, as required by law, Dakota
Access held informational meetings, attended by IUB
representatives, in each of the eighteen counties. See
id. § 479B.4. The following month, Dakota Access filed
a petition with the IUB for authority to construct the
pipeline. See id. §§ 479B.4–.5. In the petition, Dakota
Access sought “the use of the right of eminent domain
for securing right of way for the proposed pipeline
project.” See id. § 479B.16. Various parties requested
and were granted permission to intervene, including
landowners, trade unions, business associations, and
environmental groups.
On June 8, the IUB filed a procedural schedule for
the case in which it identified three issues for
consideration:
(a) whether the proposed pipeline will promote
the public convenience and necessity,
(b) whether the location and route of the
proposed pipeline should be approved, and
(c) whether and to what extent the power of
eminent domain should be granted . . . .

App. 6
The hearing on Dakota Access’s application took
place in November and December 2015. On the first
day, the IUB received public comments from over 200
people both in support of and against the pipeline. An
eleven-day evidentiary hearing followed. During that
hearing, sixty-nine witnesses testified. After the
conclusion of the hearing, the IUB received posthearing
briefs.
On March 10, 2016, the IUB issued a 159-page final
decision and order. First, it addressed whether the
pipeline would promote the public convenience and
necessity. The IUB concluded that the public
convenience and necessity test should be treated “as a
balancing test, weighing the public benefits of the
proposed project against the public and private costs or
other deteriments as established by the evidence in the
record.” It also concluded that it could consider “public
benefits outside of Iowa” for an interstate oil pipeline.
In addition, the IUB noted that climate change is “a
very important issue,” but that the pipeline
“represents, at most, a change in the method of crude
oil deliveries that are already taking place and that
will continue to take place regardless of whether this
pipeline is built.” The IUB further found that “the
increased safety associated with pipeline transport of
crude oil is significant” as compared to existing rail
transportation of that oil.
Continuing, the IUB also found overall economic
benefits to Iowa from the construction and operation of
the pipeline. And while it observed that it would be
impossible to build and operate a pipeline without any
environmental impact, it found that the route was

App. 7
“selected in a manner intended to minimize adverse
environmental impacts” and specifically “to minimize
the possibility of leaks.” It added that “Dakota Access
has taken reasonable steps to reduce the safety risks
associated with the proposed pipeline.”
The IUB required that the parent companies of
Dakota Access provide unconditional financial
guarantees of the pipeline’s liabilities and made a
series of modifications to the agricultural impact
mitigation plan. Among other things, the IUB required
that the pipeline be installed at a minimum depth of
forty-eight inches where reasonably possible, that all
tiling be repaired and restored, and that Dakota Access
provide a GPS map to the landowner of any tiling
found during construction.
Ultimately, the IUB found that the pipeline would
promote the public convenience and necessity. It did so
primarily for two reasons:
First, the proposed pipeline represents a
significantly safer way to move crude oil from
the field to the refinery when compared to the
primary alternative, rail transport. The most
credible evidence in this record, based on data
from the U.S. Department of Transportation,
shows that the spill incident rate for transport of
crude oil by rail transport is three to four times
higher than the incident rate for pipeline
transport on a ton-mile basis. The oil is going to
be produced and shipped as long as the market
demands it; given that reality, shipping by the
safest available method makes sense.

App. 8
Second, in the IUB’s view, there would be considerable
economic benefits “associated with the construction,
operation, and maintenance of the proposed pipeline.”
On the other side of the ledger, the IUB noted that
there were potential adverse environmental and
agricultural impacts from the pipeline as well as effects
on the landowners whose land would be trenched. Yet,
with certain precautionary measures in place, it found
that the benefits outweighed the costs associated with
the project.
Regarding the pipeline’s route through Iowa, the
IUB observed that Dakota Access had used a software
program that evaluated alternative routes and
“developed a route that would avoid those land areas
where the pipeline could impact critical structures or
habitat.” It found that a zigzag route that contained
right angles and followed division lines (as proposed by
some landowners) would create additional safety
issues.
The IUB then turned to the eminent domain issues.
It found that sections 6A.21 and 6A.22 gave authority
to a pipeline company under the IUB’s jurisdiction to
condemn an easement for “public use.” It concluded
that this statutory public-use requirement had been
met. In addition, it determined that constitutional
objections to the exercise of eminent domain were
resolved by the statutory public-use determination.
The IUB also considered a series of objections by
landowners to the exercise of eminent domain over
their specific properties. In several instances, it
sustained the objections in whole or in part. Thus, in

App. 9
one case, it required that the route be relocated to
avoid additional buildings that were being constructed
for a turkey farm. In response to another landowner’s
plea, the IUB directed the preservation of certain fruit
trees that were roosting places for several species of
bats. The IUB also refused, on legal grounds, to allow
the condemnation of property that was owned by
governmental entities such as counties.
The IUB was not persuaded, however, by landowner
Keith Puntenney’s objection. Puntenney requested that
the pipeline’s path be diverted because he wanted to
install three wind turbines on his property in the area
of the proposed route. But the IUB concluded that
there was no “firm plan” to install wind turbines and
“it has not been shown that the pipeline would
necessarily interfere with the possible future
installation of wind-driven turbine generators.” As to
landowner LaVerne Johnson, the IUB did not agree
that the pipeline could not cross his tiling system,
although it did require that the pipeline be bored under
his tiling system including the main concrete drainage
line.
Following the IUB’s final decision and order, several
motions for clarification and rehearing were filed. On
April 28, the IUB issued an order denying these
motions.
On May 26 and May 27, several petitions for judicial
review were filed in the Polk County District Court.
The petitioners included Puntenney, Johnson, the
Sierra Club, and a group of landowners known as the
Lamb petitioners. The petitions were later consolidated
for hearing.

App. 10
Meanwhile, in June, Dakota Access began
construction of the pipeline in Iowa. On August 9, the
Lamb petitioners asked the district court to stay any
construction activity on their property. The stays would
have been limited to construction on the fifteen parcels
of land owned by the Lamb petitioners and would not
have extended statewide. In their expedited relief
request, the Lamb petitioners argued, “Until the
pipeline trench is actually dug, petitioners’ claims are
not moot,” and added that “if they do not receive a stay
before [Dakota Access’s] pipeline trench is dug, any
remedy will be inadequate.”
On August 21, the district court denied the request
for stay because the Lamb petitioners had failed to
seek relief first from the IUB. See id. § 17A.19(5)(c).
The Lamb petitioners returned to the IUB, which
denied the stay. On August 29, the district court denied
the Lamb petitioners’ renewed request for a stay. No
request was made to this court for interlocutory review
of the denial of the stay.
On February 15, 2017, following briefing and
argument, the district court denied the petitions for
judicial review. Regarding the question of public
convenience and necessity, the court concluded that the
IUB had “balanced the pros and cons of the project and
entered a reasonable decision based on the evidence
presented.” It added that the decision was “supported
by substantial evidence.”
On the eminent domain question, the district court
reasoned that Iowa Code sections 6A.21 and 6A.22
conferred condemnation authority on common-carrier
pipelines under the jurisdiction of the IUB. It also

App. 11
found that the condemnations were for a public use,
thus meeting the requirements of the Fifth and
Fourteenth Amendments and article I, section 18 of the
Iowa Constitution. Finally, it overruled the specific
claims advanced by Puntenney and Johnson as to the
exercise of eminent domain over their properties.
Puntenney, Johnson, the Sierra Club, and the Lamb
petitioners appealed. We retained the appeal.
II.

Standard of Review.

When an administrative review proceeding is before
us, we “apply the standards set forth in section
17A.19(10) and determine whether our application of
those standards produce[s] the same result as reached
by the district court.” Hawkeye Land Co. v. Iowa Utils.
Bd., 847 N.W.2d 199, 207 (Iowa 2014) (alteration in
original) (quoting Auen v. Alcoholic Beverages Div., 679
N.W.2d 586, 589 (Iowa 2004)).
Accordingly, “we review constitutional issues in
agency proceedings de novo.” Id. at 208 (quoting
NextEra Energy Res. LLC v. Iowa Utils. Bd., 815
N.W.2d 30, 44 (Iowa 2012)); see also Iowa Code
§ 17A.19(10)(a).
Regarding an agency’s interpretation of a statute:
If the legislature clearly vested the agency with
the authority to interpret specific terms of a
statute, then we defer to the agency’s
interpretation of the statute and may only
reverse if the interpretation is “irrational,
illogical, or wholly unjustifiable.” If, however,
the legislature did not clearly vest the agency

App. 12
with the authority to interpret the statute, then
our review is for correction of errors at law.
NextEra, 815 N.W.2d at 37 (citations omitted) (quoting
Doe v. Iowa Dep’t of Human Servs., 786 N.W.2d 853,
857 (Iowa 2010)); see also Iowa Code § 17A.19(10)(c),
(l).
Here, we think the legislature clearly vested the
IUB with the authority to interpret “public convenience
and necessity” as used in Iowa Code section 479B.9. We
reach this conclusion for several reasons.
First, we believe “public convenience and necessity”
is a term of art within the expertise of the IUB. See
Renda v. Iowa Civil Rights Comm’n, 784 N.W.2d 8, 14
(Iowa 2010) (referring to “a substantive term within the
special expertise of the agency”).
In addition, the Iowa Code itself indicates that the
legislature wanted the IUB to have leeway in
determining public convenience and necessity. Section
479B.9 states,
The board may grant a permit in whole or in
part upon terms, conditions, and restrictions as
to location and route as it determines to be just
and proper. A permit shall not be granted to a
pipeline company unless the board determines
that the proposed services will promote the
public convenience and necessity.
(Emphasis added.) The phrase “unless the board
determines” seemingly affords the IUB deference.
Otherwise, if the matter were to be left to judicial
determination, the statute would say something like,

App. 13
“unless the proposed services will promote the public
convenience and necessity.”
Additionally, we have previously held that it is not
a judicial function to determine whether a service will
promote the public convenience and necessity. See
Application of Nat’l Freight Lines, 241 Iowa 179, 186,
40 N.W.2d 612, 616 (1950) (“We have held several
times that the determination whether the service
proposed will promote the public convenience and
necessity is a legislative, not a judicial, function. . . . It
is not for the district court or this court to determine
whether the commission has acted wisely nor to
substitute its judgement for that of the commission.”)
On the other hand, we do not defer to the IUB’s
interpretation of Iowa Code sections 6A.21 and 6A.22.
Chapter 6A is a general eminent domain law that
applies to all state agencies, and the term “public use”
is not “uniquely within the subject matter expertise of
the agency”—here the IUB. Renda, 784 N.W.2d at 14.
Lastly, we review the IUB’s factual findings under
a substantial evidence standard. See Iowa Code
§ 17A.19(10)(f). “The agency’s decision does not lack
substantial evidence merely because the interpretation
of the evidence is open to a fair difference of opinion.”
NextEra, 815 N.W.2d at 42 (quoting ABC Disposal Sys.,
Inc. v. Dep’t of Nat. Res., 681 N.W.2d 596, 603 (Iowa
2004)).
III.

Standing of the Sierra Club.

We must first consider two threshold matters—
standing and mootness. Dakota Access challenges the
standing of the Sierra Club. The Sierra Club is a

App. 14
nonprofit environmental organization. The Sierra Club
is asserting the interests of two of its members—Mark
Edwards and Carolyn Raffensperger. Edwards lives in
Boone and worked for the Iowa Department of Natural
Resources as a trail coordinator for thirty years. He
submitted an affidavit expressing concern that the
pipeline will damage Iowa’s waterways, contribute to
climate change, and destroy Native American burial
grounds and cultural sites.
Raffensperger lives in Ames. Her home sits about
one mile from the pipeline. She submitted an affidavit
voicing concern for her own safety and the immediate
environment around her property as well as her belief
that the pipeline will contribute to climate change,
damage Native American cultural sites, and pollute
Iowa waterways.
Dakota Access does not dispute that the Sierra Club
can assert the interests of its members for standing
purposes. See Citizens for Wash. Square v. City of
Davenport, 277 N.W.2d 882, 886 (Iowa 1979). However,
Dakota Access points out that Sierra Club has not
shown that any of its members owns property on the
pipeline route. Accordingly, Dakota Access maintains
that the Sierra Club lacks standing.
We disagree. In Bushby v. Washington County
Conservation Board, we adopted the United States
Supreme Court’s standard for standing in
environmental disputes. 654 N.W.2d 494, 496–97 (Iowa
2002) (“The United States Supreme Court has held
that plaintiffs in cases involving environmental
concerns establish standing if ‘they aver that they use
the affected area and are persons “for whom the

App. 15
aesthetic and recreational values of the area will be
lessened” by the challenged activity.’ ” (quoting Friends
of the Earth, Inc. v. Laidlaw Envtl. Servs., 528 U.S.
167, 183, 120 S. Ct. 693, 705 (2000))).
Here, Sierra Club met the Bushby standard. Sierra
Club members Raffensperger and Edwards submitted
affidavits describing their use and enjoyment of the
rivers, streams, soil, and other natural areas and
aesthetics. They described their concerns that the
construction and operation of the pipeline would have
adverse environmental impacts on those areas that
they use and enjoy.
Raffensperger’s and Edwards’s concerns are not
entirely speculative, remote, and in the uncertain
future as Dakota Access suggests. Sierra Club
presented the IUB with actual evidence of pipeline
accidents that have resulted in millions of dollars in
cleanup and damages.
Nothing in the Iowa Code limits standing in
pipeline proceedings to individuals whose property is in
the direct path of the pipeline. Section 479B.7 allows
any person “whose rights or interests may be affected
by the proposed pipeline” to file objections. Iowa Code
§ 479B.7. Section 17A.19 authorizes any “person or
party whose is aggrieved or adversely affected by
agency action” to seek judicial review. Id. § 17A.19. The
Sierra Club has standing.
IV.

Mootness.

Dakota Access next argues that the appeal is moot.
This presents a closer issue. The pipeline was actually
completed two years ago in May 2017 at a cost of

App. 16
approximately $4 billion. Since then it has been
regularly carrying crude oil from North Dakota to
Illinois. Its capacity is 450,000 barrels of oil per day.
The record does not indicate how much Dakota Access
actually paid for easements to bury the pipeline
underground in Iowa, but the projected cost was $85
million. Where the pipeline was buried during
construction, land restoration has already taken place.
Iowa Code section 17A.19 states in part, “The filing
of the petition for review does not itself stay execution
or enforcement of any agency action.” Id.
§ 17A.19(5)(a). In short, it places the burden on the
party contesting agency action to obtain a stay. As
noted above, the Lamb petitioners’ application for a
stay from the district court was denied nearly three
years ago. They did not seek a stay from this court, nor
did they ask to expedite this appeal when it was filed
over two years ago.1
Ninety years ago, this court ruled that an eminent
domain appeal challenging the taking of the plaintiff’s
twenty-tree apple orchard was moot once the road in
question had been built. Welton v. Iowa State Highway
Comm’n, 208 Iowa 1401, 1401, 227 N.W. 332, 333
(1929). We explained,
It is substantiated by uncontroverted affidavit
that, subsequent to the decision of the district
court in this case, and in the absence of an order
staying appellees’ actions, the road in controversy
was established, and the land in question,
1

Filing an appeal does not result in an automatic stay of a trial
court ruling. See Iowa R. App. P. 6.601(1).

App. 17
including the claimed orchard, was taken and
used by the appellees for primary road purposes,
and that the road has been fully constructed and
paved through the premises involved in this
action; that the appellant has perfected an
appeal to the district court of Mahaska county,
from the award of the condemnation
commissioners, as to the amount of his damages,
by reason of the taking of the identical property
involved in this action, and which cause was
assigned for trial in the district court of
Mahaska county, to begin on the very day of the
submission of this cause to this court. It will
thus be observed that, during the pendency of
the appeal, the defendant did not obtain a
restraining order from this court, as was done in
the Hoover Case, supra. This court has the
power, upon application being made, to grant a
restraining order to maintain the status quo of
the parties during the pendency of an appeal,
and, when no other means of protection is
afforded by the law, there is no hesitancy in
granting the order.
It is apparent from the uncontroverted affidavit
that the orchard has been taken for highway
purposes and the paving laid. No order which we
can now make can preserve to appellant his
orchard.
Id. (emphasis added) (citations omitted).
Welton arguably should control here. As in Welton,
the petitioners lost on the merits and then did not try

App. 18
to obtain a stay from this court while a substantial
construction project went forward. See id.
Similarly, in Porter v. Board of Supervisors, we held
it was too late for us to enjoin condemnation
proceedings once a drainage ditch had been installed:
We call attention also to the fact that it was
stated in oral argument, and not denied, that
the construction had already taken place and
that the canal or ditch was in operation. There
was no stay of proceedings nor application in
this court for an order to stay construction.
Under these circumstances the construction of
the ditch became an established fact before the
case was submitted to us for decision.
238 Iowa 1399, 1404, 28 N.W.2d 841, 844 (1947).
On the other hand, in Lewis Investments, Inc. v.
City of Iowa City, we held that an appeal from an order
condemning a property as a nuisance so the city could
rehabilitate it was not moot, because the only thing
that had happened was that the city had paid its
deposit and taken possession of the property.
703 N.W.2d 180, 184 (Iowa 2005). We observed that
the city’s ultimate goal—transfer of the property
to a private individual for rehabilitation or
demolition—has not become an accomplished
fact like the road in Welton. There is nothing in
the record to show that the property has been
transferred or that substantial improvements
have been made to the property that would place
it beyond the power of this court to restore the

App. 19
parties to their former positions. Therefore, we
hold the appeal is not moot.
Id. In short, Lewis Investments was distinguishable
from Welton because no work had been performed on
the property.
The petitioners counter that the case is not moot
because the courts could order relief other than a tearout of the entire pipeline. For example, the pipeline
could be partially removed and rerouted around the
petitioners’ properties. Another possibility is that the
petitioners could obtain trespass damages. It is
noteworthy that most property owners along the route
chose to make voluntary easement agreements with
Dakota Access to allow the pipeline to go underneath
their farmland; hence, their rights and status might
not be affected by a decision in this case. The
petitioners also counter that a lawsuit of these
constitutional and practical dimensions should not
become moot simply because Dakota Access chose to
proceed with construction while the petitioners’ judicial
review proceeding was still pending.
One case worth considering is Grandview Baptist
Church v. Zoning Board of Adjustment, 301 N.W.2d
704 (Iowa 1981). In Grandview Baptist, a church
obtained a permit from the building commissioner to
build a steel storage building. Id. at 706. Within days,
a contractor built the building and several neighboring
property owners appealed the granting of the permit to
the zoning board of adjustment. Id. The board ruled
that the structure was not proper and had to be
removed. Id. Both the district court and our court
upheld the board’s action. Id. at 708–09.

App. 20
In our decision, we rejected the church’s argument
that it was too late for our court to do anything about
the building. Id. at 709. We elaborated,
The objectors timely appealed to the board, but
before their appeal was heard the building had
been constructed. The Church claims the
objectors are estopped because the Church has
vested rights in the building.
Under such circumstances the Church cannot
successfully invoke the doctrine of vested rights
so as to deprive the objectors of the fruits of
their appeal. Otherwise the right of appeal
would be meaningless.
Id.
We are not persuaded that Grandview Baptist
controls here. There the contractor put up the storage
building based on an administrator’s go-ahead before
any hearing could occur. Id. at 706. The church then
lost at the board of adjustment and at every
subsequent stage of the proceedings. Id. The “right of
appeal” referred to in Grandview Baptist Church was
the right to appeal an individual’s granting of a permit
to the board of adjustment, not the right to appeal an
agency action to the district court or a district court
ruling to the Iowa Supreme Court. See id. at 709.
Iowa Code section 414.11 governs city board of
adjustment appeals and states that an appeal from the
city administrative officer to the board of adjustment
stays all proceedings in furtherance of the action
appealed from, unless the officer from whom the

App. 21
appeal is taken certifies to the board of
adjustment after the notice of appeal shall have
been filed with the officer that by reason of facts
stated in the certificate a stay would in the
officer’s opinion cause imminent peril to life or
property.
This is different from section 17A.19(5)(a), which
provides that an appeal does not stay administrative
action.
Nonetheless, after careful consideration, we do not
believe the present appeal is moot. “The key in
assessing whether an appeal is moot is determining
whether the opinion would be of force or effect in the
underlying controversy.” Perkins v. Bd. of Supervisors,
636 N.W.2d 58, 64 (Iowa 2001). We are not persuaded
that a decision in this case would lack force or effect.
Although dismantling of the pipeline would not be
feasible, the IUB still has authority to impose other
“terms, conditions, and restrictions” to implement a
ruling favorable to the petitioners. Iowa Code § 479B.9;
see also Standing Rock Sioux Tribe v. U.S. Army Corps
of Eng’rs, 301 F. Supp. 3d 50, 61–64 (D.D.C. 2018)
(dismissing National Historic Preservation Act claims
as mooted by the construction of the Dakota Access
pipeline, but proceeding to determine other claims on
the merits).
V.

Public Convenience and Necessity.

Section 479B.9 gives the IUB authority to issue a
permit for a pipeline that “will promote the public
convenience and necessity.” Iowa Code § 479B.9.
Chapter 479B begins,

App. 22
It is the purpose of the general assembly in
enacting this law to grant the utilities board the
authority to implement certain controls over
hazardous liquid pipelines to protect landowners
and tenants from environmental or economic
damages which may result from the
construction, operation, or maintenance of a
hazardous liquid pipeline or underground
storage facility within the state, to approve the
location and route of hazardous liquid pipelines,
and to grant rights of eminent domain where
necessary.
Id. § 479B.1.
Regarding the meaning of “public convenience and
necessity,” our court has held,
The words are not synonymous, and effect
must be given both. The word “convenience” is
much broader and more inclusive than the word
“necessity.” Most things that are necessities are
also conveniences, but not all conveniences are
necessities. . . . The word “necessity” has been
used in a variety of statutes . . . . It has been
generally held to mean something more nearly
akin to convenience than the definition found in
standard dictionaries would indicate. So it is
said the word will be construed to mean not
absolute, but reasonable, necessity.
Thomson v. Iowa State Commerce Comm’n, 235 Iowa
469, 475, 15 N.W.2d 603, 606 (1944) (quoting Wis. Tel.
Co. v. R.R. Comm’n, 156 N.W. 614, 617 (Wis. 1916)). In
its order, the IUB looked to Thomson for guidance as

App. 23
well as an Illinois case construing the same phrase,
which held,
The word connotes different degrees of necessity.
It sometimes means indispensable; at others,
needful, requisite, or conducive. It is relative
rather than absolute. No definition can be given
that would fit all statutes. The meaning must be
ascertained by reference to the context, and to
the objects and purposes of the statute in which
it is found.
Wabash, Chester & W. Ry. v. Commerce Comm’n ex rel.
Jefferson Sw. R.R., 141 N.E. 212, 215 (Ill. 1923). The
IUB also relied on our decision in S.E. Iowa
Cooperative Electric Association v. Iowa Utilities Board,
which approved the IUB’s use of a balancing test in a
related context and its determination that “the
substantial benefits [of the project] outweighed the
costs.” 633 N.W.2d 814, 821 (Iowa 2001).
In our view, the IUB’s balancing approach to public
convenience and necessity should be upheld because it
is not “irrational, illogical, or wholly unjustifiable.”
Iowa Code § 17A.19(10)(l). The approach is consistent
with our prior caselaw and is supported by legal
authority elsewhere. See Fed. Power Comm’n v.
Transcon. Gas Pipe Line Corp., 365 U.S. 1, 23, 81 S. Ct.
435, 447 (1961) (indicating that “ ‘public convenience
and necessity’ connotes a flexible balancing process, in
the course of which all the factors are weighed prior to
final determination”).
Puntenney, Johnson, and the Sierra Club challenge
the IUB’s determination of public convenience and

App. 24
necessity on several grounds. First, they urge that the
pipeline does not serve the public because shippers
wanted it. But shippers wanted it as a way of reducing
transportation costs. Given that petroleum products
are commodities sold in a competitive market, lower
costs for crude oil transportation tend to keep prices of
crude oil derivatives lower than they otherwise would
be.
Iowa is a heavy user of petroleum products. Iowa
consumes the equivalent of 85.2 million barrels of oil
per year but produces no oil itself. Iowa is fifth in the
country in per capita energy use. Iowa ranks eighth in
the country in per capita gasoline consumption. Iowa’s
percentage of gross domestic product from
manufacturing ranks near the top in this country, and
Iowa ranks sixth highest nationally in energy
consumption per capita in its industrial sector. The
record indicates that the Dakota Access pipeline will
lead to “longer-term, reduced prices on refined products
and goods and service dependent on crude oil and
refined products.” We agree with the IUB that these
are public benefits, even though the pipeline also
provides benefits to the shippers of crude oil. See S.E.
Iowa Coop. Elec., 633 N.W.2d at 820 (stating that “cost
savings are a legitimate consideration”).2

2

The Sierra Club makes a forceful environmental argument
against the Dakota Access pipeline. But this environmental
argument against the pipeline to a degree bolsters the economic
argument for the pipeline. That is, the Sierra Club criticizes the
pipeline for making it “easier” to bring Bakken Oil Field oil to the
market. Another way of saying “easier” is “cheaper” or “more
economical.”

App. 25
Next, Puntenney, Johnson, and the Sierra Club
contend that drilling in the Bakken Oil Field has
declined, demonstrating a reduced need for pipeline
transportation. But according to the evidence before
the IUB, actual crude oil production from the Bakken
Oil Field has only declined about 10%, from
approximately 1.2 million barrels per day to
approximately 1.1 million barrels per day. At the time
of the hearing, the demand for the pipeline was still
there. As the IUB pointed out, shippers had executed
long-term “take or pay” contracts, committing to pay
for pipeline use whether they shipped oil or not.
Additionally, Puntenney, Johnson, and the Sierra
Club maintain that rail transportation is safer than the
pipeline transportation that would replace it. Various
data were presented to the IUB on this issue. However,
the IUB found, and the data support, that on a volumedistance basis (i.e., per barrel-mile), pipeline
transportation of oil is safer than rail transportation of
oil.
Lastly, Puntenney, Johnson, and the Sierra Club
challenge the IUB’s reliance on secondary economic
benefits resulting from the construction and operation
of the pipeline in Iowa. For example, the IUB observed
that the pipeline would result in at least 3100
construction jobs in Iowa, at least twelve long-term jobs
for Iowans, and more than $27 million annually in
property tax revenue. As the Puntenney petitioners
point out, Dakota Access, the IUB, and the district
court cited no authority that these types of benefits can
be taken into account in making a public-convenienceand-necessity determination. Yet the Puntenney

App. 26
petitioners cited no authority that these benefits
cannot be considered. See N. Plains Res. Council v.
Surface Transp. Bd., 668 F.3d 1067, 1094–95 (9th Cir.
2011) (noting that the Surface Transportation Board
considered “new jobs created by the construction and
operation of the new rail line”); Pliura Intervenors v.
Ill. Commerce Comm’n, 942 N.E.2d 576, 585 (Ill. App.
Ct. 2010) (considering, among other things, “increased
revenues for local economies” resulting from a pipeline
extension); Accokeek, Mattawoman, Piscataway Creeks
Cmtys. Council, Inc. v. Md. Pub. Serv. Comm’n,
133 A.3d 1228, 1240 (Md. Ct. Spec. App. 2016) (treating
“monetary benefits from construction employment and
longer-term tax payments” as benefits relevant to the
public-convenience-and-necessity determination). We
are not persuaded that the IUB acted improperly in
factoring these benefits into the public-convenience-and
necessity determination.
For the foregoing reasons, upon our review of the
record, we conclude the IUB’s legal determinations
with respect to public convenience and necessity were
not “[b]ased upon an irrational, illogical, or wholly
unjustifiable application of law” and its factual
determinations were supported by “substantial
evidence.” Iowa Code § 17A.19(10)(f), (l).
VI.

Statutory Limits on the Exercise of
Eminent Domain.

The Lamb petitioners argue that Dakota Access’s
exercise of eminent domain over farmland would
violate Iowa Code sections 6A.21 and 6A.22. Section
6A.21(1)(c) limits the authority to condemn agricultural
lands by defining “public use,” “public purpose,” or

App. 27
“public improvement” in a way that requires landowner
consent. Id. § 6A.21(1)(c). Hence, section 6A.21(1)(c)
reads, “ ‘Public use’ or ‘public purpose’ or ‘public
improvement’ does not include the authority to
condemn agricultural land for private development
purposes unless the owner of the agricultural land
consents to the condemnation.” Id.
But section 6A.21 also carves out exceptions. See id.
§ 6A.21(2). One of them is that “[t]his limitation also
does not apply to utilities, persons, companies, or
corporations under the jurisdiction of the Iowa utilities
board.” Id.
The Lamb petitioners argue vigorously that Dakota
Access is not a “utility.” That, however, is not the full
wording of the exception. We agree with the IUB and
the district court that Dakota Access is a “compan[y]
. . . under the jurisdiction of the [IUB],” id., via the
permit process laid out in chapter 479B. Therefore,
landowner consent is not required by section 6A.21
prior to condemnation.
The Lamb petitioners urge us to apply the canon of
ejusdem generis to section 6A.21(2). Hence, they ask us
to interpret “persons, companies, or corporations” as
related to the immediately preceding word, “utilities.”
Their argument is difficult to follow. If the Lamb
petitioners are saying that the phrase “persons,
companies, or corporations” refers to kinds of utilities,
then the word “utilities” would be sufficient by itself
and the remaining language would become
unnecessary. That would contravene an established
principle of statutory construction. See id. § 4.4(2)
(setting forth the presumption that “[t]he entire statute

App. 28
is intended to be effective”). On the other hand, if the
Lamb petitioners are saying that the phrase “persons,
companies, or corporations” refers to entities other than
utilities that are nonetheless under the jurisdiction of
the IUB, then Dakota Access seemingly falls in that
category.
The IUB also advances an alternative ground for
rejecting the Lamb petitioners’ argument. It notes that
section 6A.22(2) authorizes “[t]he acquisition of any
interest in property necessary to the function of . . . a
common carrier.” Id. § 6A.22(2)(a)(2). In the IUB’s
view, Dakota Access qualifies as a common carrier.
There is no dispute that most of the pipeline
capacity has been contracted to shippers in advance;
however, 10% is required to be made available for
walk-up business. That is all the Federal Energy
Regulatory Commission requires of a common carrier.
See, e.g., Navigator BSG Transp. & Storage, 152
F.E.R.C. ¶ 61,026, at 61,127 (July 10, 2015); Shell
Pipeline Co., 146 F.E.R.C. ¶ 61,051, at 61,238 (Jan. 29,
2014). The IUB maintains it is enough here.
Based on the record before us, and our own
common-carrier precedents, we agree with the IUB. It
would be unrealistic to require a $4 billion pipeline to
depend entirely on walk-up business, just as it would
be unrealistic to require an airline to refuse all advance
bookings for a flight. The key is whether spot shippers
have access, and the federal agency with expertise in
the matter has concluded that 10% is sufficient. We
have said that “a common carrier need not serve all the
public all the time.” Wright v. Midwest Old Settlers &
Threshers Ass’n, 556 N.W.2d 808, 810 (Iowa 1996) (per

App. 29
curiam). A common carrier may combine “other
vocations” and still be considered a common carrier. Id.
at 811. Long ago we held that a trucker who
transported films and advertising for members who
had signed an alleged association agreement was still
a common carrier where he also transported films and
advertising for theaters that had not signed the
agreement. State ex rel. Bd. of R.R. Comm’rs v.
Rosenstein, 217 Iowa 985, 989–93, 252 N.W. 251,
254–55 (1934). Significantly, Dakota Access does not
involve a situation where service “has been limited to
those under contract.” State ex rel. Bd. of R.R. Comm’rs
v. Carlson, 217 Iowa 854, 857, 251 N.W. 160, 161
(1933) (emphasis added).3
The Lamb petitioners insist that the Dakota Access
pipeline is not a common carrier because it does not
serve “the Iowa public.” Yet adding the modifier “Iowa”
would be a gloss on the statute for which there is no
basis in the statute itself. For these reasons, we find no
violation of sections 6A.21 and 6A.22.
3

In Mid-American Pipeline Company v. Iowa State Commerce
Commission, we said that a grant of eminent domain authority to
a private company to construct a pipeline exclusively for its own
use was “for a strictly private purpose” and “beyond legislative
authority.” 253 Iowa 1143, 1146–47, 114 N.W.2d 622, 624 (1962)
(noting that “Northern intends to handle only its own products by
pipe line and is not a common carrier of such products”). Those are
not the facts here. Again, Dakota Access serves a variety of
customers and 10% of pipeline capacity is available on a walk-up
basis. See also Crawford Family Farm P’ship v. TransCanada
Keystone Pipeline, L.P., 409 S.W.3d 908, 922–24 (Tex. App. 2013)
(determining that a pipeline would be a common carrier because
there was a “reasonable probability” it would ship crude petroleum
for one or more customers who would retain ownership of the oil).

App. 30
VII.

Constitutional Authority for
Exercise of Eminent Domain.

the

This brings us to the most significant issue in the
case, whether the use of eminent domain for the
Dakota Access pipeline as authorized by Iowa Code
section 479B.16 violates article I, section 18 of the Iowa
Constitution or the Fifth and Fourteenth Amendments
to the United States Constitution.
Section 479B.16 addresses the use of eminent
domain for pipelines. It provides in part,
A pipeline company granted a pipeline permit
shall be vested with the right of eminent
domain, to the extent necessary and as
prescribed and approved by the board, not
exceeding seventy-five feet in width for right-ofway and not exceeding one acre in any one
location in addition to right-of-way for the
location of pumps, pressure apparatus, or other
stations or equipment necessary to the proper
operation of its pipeline.
Iowa Code § 479B.16.
Article I, section 18, the takings clause in the Iowa
Constitution, states in part,
Private property shall not be taken for public
use without just compensation first being made,
or secured to be made to the owner thereof, as
soon as the damages shall be assessed by a jury,
who shall not take into consideration any
advantages that may result to said owner on

App. 31
account of the improvement for which it is
taken.
Iowa Const. art. I, § 18. The Fifth Amendment to the
United States Constitution similarly provides that
“private property [shall not] be taken for public use,
without just compensation.” U.S. Const. amend. V.
We have said that we consider federal cases
interpreting the Federal Takings Clause “persuasive in
our interpretation of the state provision,” but “not
binding.” Kingsway Cathedral v. Iowa Dep’t of Transp.,
711 N.W.2d 6, 9 (Iowa 2006); see also Harms v. City of
Sibley, 702 N.W.2d 91, 97 (Iowa 2005).
The Lamb petitioners deny that the Dakota Access
pipeline furthers a constitutionally valid public use.
They contend that the indirect economic benefits of an
infrastructure project, such as jobs created or tax
revenues generated, cannot be considered in
determining public use. They also contend that an oil
pipeline that crosses Iowa but does not pick up or drop
off oil within the state does not constitute a public use.
We will address these arguments in order.
We begin by considering the United States Supreme
Court’s interpretation of the Fifth Amendment in Kelo
v. City of New London, 545 U.S. 469, 125 S. Ct. 2655
(2005). In Kelo, the Court addressed the question of
“whether a city’s decision to take property for the
purpose of economic development satisfies the ‘public
use’ requirement of the Fifth Amendment.” Id. at 477,
125 S. Ct. at 2661. There, an economic development
plan was intended to remedy decades of economic
decline that led to the City of New London being

App. 32
designated a “distressed municipality.” Id. at 473–75,
125 S. Ct. at 2658–60. A majority of the Court found
that the City of New London could compel private
homeowners to turn over their homes to a private
developer because the city’s plan served a “public
purpose.” Id. at 484, 125 S. Ct. at 2665. The Court
noted, “For more than a century, our public use
jurisprudence has wisely eschewed rigid formulas and
intrusive scrutiny in favor of affording legislatures
broad latitude in determining what public needs justify
the use of the takings power.” Id. at 483, 125 S. Ct. at
2664.
Justice O’Connor filed a dissenting opinion in which
Chief Justice Rehnquist and Justices Scalia and
Thomas joined. Id. at 494, 125 S. Ct. at 2671
(O’Connor, J., dissenting). She characterized the
majority as holding
that the sovereign may take private property
currently put to ordinary private use, and give it
over for new, ordinary private use, so long as the
new use is predicted to generate some secondary
benefit for the public—such as increased tax
revenue, more jobs, maybe even esthetic
pleasure.
Id. at 501, 125 S. Ct. at 2675. In her view, a secondary
benefit alone was not enough for a governmental
transfer of property from one private entity to another
to qualify as a taking for a public purpose. Id. She
reasoned that almost any lawful use of private property
will generate some secondary benefit and, thus, if
“positive side effects” are sufficient to classify a
transfer from one private party to another as “for

App. 33
public use,” those constitutional words would not
“realistically exclude any takings.” Id.
Although she did not agree that economic
development alone could justify a taking, Justice
O’Connor did acknowledge there were three categories
of legitimate public use:
Our cases have generally identified three
categories of takings that comply with the public
use requirement, though it is in the nature of
things that the boundaries between these
categories are not always firm. Two are
relatively straightforward and uncontroversial.
First, the sovereign may transfer private
property to public ownership—such as for a
road, a hospital, or a military base. Second, the
sovereign may transfer private property to
private parties, often common carriers, who
make the property available for the public’s
use—such as with a railroad, a public utility, or
a stadium. But “public ownership” and “use-bythe-public” are sometimes too constricting and
impractical ways to define the scope of the
Public Use Clause. Thus we have allowed that,
in certain circumstances and to meet certain
exigencies, takings that serve a public purpose
also satisfy the Constitution even if the property
is destined for subsequent private use.
Id. at 497–98, 125 S. Ct. at 2673 (citations omitted).
The Kelo decision has proved controversial, not least
because the development that justified the taking of
Ms. Kelo’s home never occurred. See Alberto B. Lopez,

App. 34
Kelo-Style Failings, 72 Ohio St. L.J. 777, 779–80
(2011). Several state supreme courts have held that
public use must mean something more than indirect
economic benefits. See, e.g., Sw. Ill. Dev. Auth. v. Nat’l
City Envtl., L.L.C., 768 N.E.2d 1, 10–11 (Ill. 2002);
County of Wayne v. Hathcock, 684 N.W.2d 765, 783
(Mich. 2004); City of Norwood v. Horney, 853 N.E.2d
1115, 1123 (Ohio 2006); Bd. of Cty. Comm’rs of
Muskogee Cty. v. Lowery, 136 P.3d 639, 647 (Okla.
2006).
Thus, in Southwestern Illinois, the Illinois Supreme
Court held that a regional development authority could
not exercise eminent domain to take a recycling
facility’s property and convey it to a private racetrack
for a parking lot. 768 N.E.2d at 4, 11. The court
concluded the purported benefit of positive economic
growth in the region was not enough to satisfy public
use as required under the Illinois Constitution. Id. at
10–11. The court also found shorter lines to enter
parking lots and the fact that pedestrians might be
able to cross from parking areas to event areas in a
safer manner unpersuasive as sufficient factors to
satisfy the public use requirement. Id. at 9.
In Southwestern Illinois, the racetrack estimated
the condemned land, which was to be used for openfield parking, would lead to an increase of $13 to $14
million in revenue per year. Id. at 10. The Illinois court
recognized that such profit could trickle down and
bring revenue increases to the region. Id. Yet it
reasoned, “[R]evenue expansion alone does not justify
an improper and unacceptable expansion of the

App. 35
eminent domain power of the government.” Id. at
10–11.
Similarly, in Hathcock, the Michigan Supreme
Court held a private entity was not entitled to exercise
eminent domain to build a business and technology
park. 684 N.W.2d at 783–84. The Michigan court
determined that something beyond economic benefits
was required to show public use under the Michigan
Constitution. Id. at 783. The court there relied on its
own jurisprudence and its interpretation of the
Michigan constitutional founders’ intent. Id. at 785–87.
The court, tracking O’Connor’s dissent in Kelo,
concluded,
[T]he transfer of condemned property to a
private entity, seen through the eyes of an
individual sophisticated in the law at the time of
ratification of our 1963 Constitution, would be
appropriate in one of three contexts: (1) where
“public necessity of the extreme sort” requires
collective action; (2) where the property remains
subject to public oversight after transfer to a
private entity; and (3) where the property is
selected because of “facts of independent public
significance,” rather than the interests of the
private entity to which the property is
eventually transferred.
Id. at 783. While the Michigan Constitution’s takings
clause is not identical to ours, it resembles ours in
prohibiting takings of private property “for public use
without just compensation therefore being first made.”
Mich. Const. art. X, § 2 (1963) (amended in 2006, after
Hathcock, to define “public use” as more than “for the

App. 36
purpose of economic development or enhancement of
tax revenues”).
Adopting Hathcock’s reasoning, the Ohio Supreme
Court held that economic factors could be considered in
determining whether property may be appropriated but
could not alone satisfy the public-use requirement of
the Ohio Constitution. Norwood, 853 N.E.2d at 1123.
In Norwood, a struggling city (much like New London
in Kelo) entered into a contract with a private
developer to redevelop a neighborhood. Id. at 1124. The
plans called for over 200 apartments and
condominiums, over 500,000 square feet of office and
retail space, and two large public-parking facilities. Id.
at 1124. The city estimated the redeveloped area would
bring in $2 million in annual revenue to the city. Id.
Several property owners, however, refused to sell
for the planned development, and the city therefore
tried to exercise eminent domain to take the properties.
Id. at 1124–26. The Ohio Supreme Court declined to
follow the majority opinion in Kelo, stating that the
Hathcock opinion and the dissenting opinions in Kelo
were better models for interpreting the Ohio
Constitution. Id. at 1140–41.
Though the Ohio Constitution may bestow on
the sovereign a magnificent power to take
private property against the will of the
individual who owns it, it also confers an
“inviolable” right of property on the people.
When the state elects to take private property
without the owner’s consent, simple justice

App. 37
requires that the state proceed with due concern
for the venerable rights it is preempting.
Id. at 1137–38.
Along the same lines, the Oklahoma Supreme Court
determined that economic development alone was not
a public purpose to justify the exercise of eminent
domain under the Oklahoma Constitution. See Bd. of
Cty. Comm’rs of Muskogee Cty., 136 P.3d at 647. In
Board of County Commissioners, the city wanted to
install three water pipelines, two of which would serve
only a proposed privately-owned electric generation
plant and which would improve and expand existing
public service. Id. at 642–43. The private energy
company had agreed to build the third public pipeline
only if the company first obtained all rights-of-way to
construct the energy plant and the accompanying first
two water pipelines. Id. at 643.
The court reasoned that although one pipeline
would serve the public, the purpose of the takings was
for the construction and operation of the privately
owned energy company. Id. at 649. Further, the court
said that although the construction of the energy plant
would enhance economic development through taxes,
jobs, and investment, those economic benefits alone
would not suffice to satisfy the public use requirement.
Id.
These state constitutional decisions would not
necessarily have disappointed the Kelo majority. The
Kelo majority themselves noted that “nothing in our
opinion precludes any State from placing further
restrictions on its exercise of the takings power.” Kelo,

App. 38
545 U.S. at 489, 125 S. Ct. at 2668 (majority opinion).
It added that “many States already impose ‘public use’
requirements that are stricter than the federal
baseline,” and “[s]ome of these requirements have been
established as a matter of state constitutional law.” Id.
Since Kelo was decided, we have twice quoted from
Justice O’Connor’s dissent. In Clarke County Reservoir
Commission v. Robins, we noted,
Justice O’Connor underscored the constitutional
necessity that any taking be for a “public use”
with “just compensation”:
These two limitations serve to protect the
security of Property, which Alexander
Hamilton described to the Philadelphia
Convention as one of the great obj[ects] of
Gov[ernment]. Together they ensure
stable property ownership by providing
safeguards against excessive,
unpredictable, or unfair use of the
government’s eminent domain power—
particularly against those owners who, for
whatever reasons, may be unable to
protect themselves in the political process
against the majority’s will.
862 N.W.2d 166, 171–72 (Iowa 2015) (alteration in
original) (quoting Kelo, 545 U.S. at 496, 124 S. Ct. at
2672 (O’Connor, J., dissenting)). We went on to state,
“The public-use requirement is to prevent abuse of the
power for the benefit of private parties.” Id. And in Star
Equipment, Ltd. v. State, we observed,

App. 39
Four dissenters noted in the context of the
Federal Takings Clause: “We give considerable
deference to legislatures’ determinations about
what governmental activities will advantage the
public. But were the political branches the sole
arbiters of the public-private distinction, the
Public Use Clause would amount to little more
than hortatory fluff.”
843 N.W.2d 446, 459 n.11 (Iowa 2014) (quoting Kelo,
545 U.S. at 497, 125 S. Ct. at 2673).
Like our colleagues in Illinois, Michigan, Ohio, and
Oklahoma, we find that Justice O’Connor’s dissent
provides a more sound interpretation of the public-use
requirement. If economic development alone were a
valid public use, then instead of building a pipeline,
Dakota Access could constitutionally condemn Iowa
farmland to build a palatial mansion, which could be
defended as a valid public use so long as 3100 workers
were needed to build it, it employed twelve servants,
and it accounted for $27 million in property taxes.4

4

In fairness to the Kelo majority, they did not say that any
economic development benefit would meet the public-use test. If
the economic benefits of merely building a project qualified as a
public use, then the legislature could empower A to take B’s house
just because A planned to erect something new on the lot. Even the
Kelo majority did not go that far. See Kelo, 545 U.S. at 487, 125
S. Ct. at 2667 (“Such a one-to-one transfer of property, executed
outside the confines of an integrated development plan, is not
presented in this case.”). But as Justice O’Connor noted in dissent,
it is problematic to have a fact-based public-use test that allows
economic development benefits to suffice in some cases, depending
on whether the economic development benefit derives from “a

App. 40
Having said that, this case is not that one. Instead,
this case falls into the second category of traditionally
valid public uses cited by Justice O’Connor: a common
carrier akin to a railroad or a public utility. See Kelo,
545 U.S. at 498, 125 S. Ct. at 2673. This kind of taking
has long been recognized in Iowa as a valid public use,
even when the operator is a private entity and the
primary benefit is a reduction in operational costs.
Back in 1870, when our constitution was only
thirteen years old, this court held that a taking for a
private railroad was a taking for a public use within
the meaning of article I, section 18. Stewart v. Bd. of
Supervisors, 30 Iowa 9, 19–21 (1870). We said this
proposition was “elementary and unquestionable.”
Id. at 21. We quoted with approval “the leading
American case,” where it was written:
The right of eminent domain does not, however,
imply a right in the sovereign power to take the
property of one citizen and transfer it to another,
even for a full compensation, where the public
interest will be in no way promoted by such
transfer. But if the public interest can be in any
way promoted by the taking of private property,
it must rest in the wisdom of the legislature, to
determine whether the benefit to the public will
be of sufficient importance to render it expedient
for them to exercise the right of eminent domain
and to interfere with the private rights of
individuals for that purpose. . . . In all such

multipart, integrated plan rather than . . . an isolated property
transfer.” Id. at 503–04, 125 S. Ct. at 2676.

App. 41
cases the object of the legislative power is the
public benefit derived from the contemplated
improvement, whether such improvement is to
be effected directly by the agents of the
government, or through the medium of corporate
bodies, or of individual enterprise.
Id. (quoting Beekman v. Saratoga & Schenectady R.R.,
3 Paige Ch. 45, 73 (N.Y. Ch. 1831)). More recently, in
S.E. Iowa Cooperative Electric Association, we held
that cost savings alone were a sufficient statutory
“public use” to justify the construction of a new
electrical transmission line. 633 N.W.2d at 820. We
explained that “the public is served” when they can
“obtain service at a lower cost.” Id.5
In sum, because we do not follow the Kelo majority
under the Iowa Constitution, we find that trickle-down
benefits of economic development are not enough to
constitute a public use. To the extent that Dakota
Access is relying on the alleged economic development

5

The 1857 Constitutional Convention turned down language that
would have expressly allowed the use of eminent domain for
“private roads.” 1 The Debates of the Constitutional Convention of
the State of Iowa 207 (W. Blair Lord rep., 1857),
www.statelibraryofiowa.org/services/collections/law-library/iaconst.
A private road, though, was defined by a member of the convention
as “a way leading from a public highway to a person’s dwelling for
his convenience merely.” Id. That is not analogous to the Dakota
Access pipeline. Notably, our legislature has long given private
property owners the ability to use eminent domain to connect their
land-locked lands to existing public roads so long as the resulting
road is open to the public, see Iowa Code § 6A.4(2), and we have
upheld the constitutionality of that legislation. See In re Luloff,
512 N.W.2d 267, 273–74 (Iowa 1994).

App. 42
benefits of building and operating the pipeline, we are
unmoved. But here there is more. While the pipeline is
undeniably intended to return profits to its owners, the
record indicates that it also provides public benefits in
the form of cheaper and safer transportation of oil,
which in a competitive marketplace results in lower
prices for petroleum products. As already discussed,
the pipeline is a common carrier with the potential to
benefit all consumers of petroleum products, including
three million Iowans.
The Lamb petitioners assert that even these
benefits are not enough, because no Iowa business or
consumer will actually use the pipeline to deliver or
receive crude oil. This approach is too formalistic. Iowa
has some of the most advanced and productive farming
in the world. But our economy, including our
agricultural economy, depends on other states to
produce crude oil and refine that crude oil into
petroleum products. If our consideration of public use
were limited as the Lamb petitioners propose, it would
be very difficult ever to build a pipeline across Iowa
carrying any product that isn’t produced in Iowa. Yet
Iowa is crisscrossed with pipelines.6
In Enbridge Energy (Illinois), L.L.C. v. Kuerth, the
Illinois Appellate Court took a more nuanced view,
which we find persuasive. 99 N.E.3d 210, 218 (Ill. App.
Ct. 2018). There the court rejected an appeal by certain

6

As we have previously noted, the Dakota Access pipeline is
intended to replace transportation of crude oil through Iowa by
rail. If those railroads are a valid public use, then why would a
pipeline not be a public use when it serves the same function?

App. 43
landowners and upheld a grant of eminent domain
authority for an oil pipeline project. Id. at 213–14, 218.
The court reasoned, “The fundamental flaw of
landowners’ argument is that they focus entirely upon
who uses the pipeline rather than who benefits from it.”
Id. at 218. The court added,
Oil, natural gas, and other energy sources are
essential to modern American life and must be
transported from production facilities to
refineries and ultimately to consumers.
Pipelines are necessary for this transportation
and are often safer and more efficient than
transportation by train or truck.
Id. Further, the court noted, “[T]he public use
requirement can still be met even if the public does not
have the right to enter or use the condemned property.”
Id. The court went on,
In this case, despite landowners’ arguments
to the contrary, the trial court was not required
to examine who would be using the pipeline, the
extent of any particular company’s use of the
pipeline, whether those companies were part of
the public, or who would financially benefit from
the proposed pipeline. This is because the
legislature has determined that pipelines are in
the public interest and that it is efficient for
private companies, rather than the government,
to construct and maintain these pipelines. . . .
....
[T]he only evidence landowners presented
was evidence showing that private companies

App. 44
would own and benefit from a proposed pipeline.
However, as we emphasize again, who owns or
benefits from a proposed pipeline is not relevant
evidence to rebut the applicable presumptions.
Because landowners did not introduce any
relevant evidence to show that the public, in the
aggregate, would not be the primary beneficiary
of the pipeline, they utterly failed to meet their
burden to rebut the presumptions of public use
and necessity.
Id. at 220–21 (citations omitted).
This reasoning applies here. The record indicates
that the Dakota Access pipeline will lead to “longerterm, reduced prices on refined products and goods and
service dependent on crude oil and refined products.”
In a similar vein, the Ohio Court of Appeals
confronted and then ultimately rejected the following
argument from a landowner:
She claims the pipeline has no “off ramps” in
Ohio, which means 100% of the product will be
shipped and consumed outside of Ohio. Ohio will
only get an economic benefit, which is
insufficient to satisfy public use. Furthermore,
there is no indication the propane or butane
shipped to Marcus Hook will come back to Ohio
for heating or gasoline use. Appellant asserts the
benefit to Appellee, a private company, is certain
while the benefit to Ohio is speculative.
Appellant also argues the intended purpose of
allowing private companies to appropriate land
when they are a common carrier was to build

App. 45
intrastate energy infrastructure, not to
authorize the building of interstate
infrastructure or interstate transportation of
Ohio’s resources.
Sunoco Pipeline L.P. v. Teter, 63 N.E.3d 160, 171–72
(Ohio Ct. App. 2016). Notwithstanding Norwood, the
court found this argument unpersuasive. Id. at 172–73.
It reasoned,
Appellee is a common carrier, not a megastore or
a private enterprise that would only be
providing economic benefit to Ohio. The reason
the General Assembly gave common carriers a
rebuttable presumption is because common
carriers, as defined by statute, provide our
citizens with necessities such as electricity and
water. The products, propane and butane, being
transported are used to heat homes and as an
additive to gasoline. Propane and butane are
also used in the production of many products our
society uses every day. Thus, the transportation
of propane and butane provides more than
economic benefit to Ohio, it provides some of the
necessities of life.
Id. at 173–74. Oil is, if anything, more of a necessity
than the hydrocarbons that were involved in Sunoco
Pipeline.
The Lamb petitioners rely on Mountain Valley
Pipeline, LLC v. McCurdy, 793 S.E.2d 850 (W. Va.
2016). There a company sought to build a natural gas
pipeline to carry almost exclusively natural gas
produced by its own affiliates from West Virginia to a

App. 46
terminus in Virginia. Id. at 852. The West Virginia
Supreme Court found that this was not a public use
within the meaning of a West Virginia statute. Id. at
855, 862–63. The court explained,
MVP has been unable to identify even a single
West Virginia consumer, or a West Virginia
natural gas producer who is not affiliated with
MVP, who will derive a benefit from MVP’s
pipeline. . . . MVP is a private company seeking
to survey property for the ultimate purpose of
exercising the right of eminent domain. . . . In
fact, the only benefit to West Virginia that has
been asserted by MVP in this appeal is the
benefit to producers and shippers of the natural
gas that is located in West Virginia.
Significantly, however, the owners of that
natural gas are affiliates of MVP.
Id. at 860–61 (footnotes omitted).
The Mountain Valley Pipeline court cited Bluegrass
Pipeline Company, LLC v. Kentuckians United to
Restrain Eminent Domain, Inc. 478 S.W.3d 386 (Ky. Ct.
App. 2015). 793 S.E.2d at 862. In Bluegrass Pipeline,
the Kentucky Court of Appeals concluded that a
pipeline transporting natural gas liquids through
Kentucky on the way to the Gulf of Mexico was not in
“public service” and could not exercise eminent domain.
478 S.W.3d at 388, 391–92. Among other things, the
court took note that
the NGLs in Bluegrass’s pipeline are being
transported to a facility in the Gulf of Mexico. If
these NGLs are not reaching Kentucky

App. 47
consumers, then Bluegrass and its pipeline
cannot be said to be in the public service of
Kentucky.
Id. at 392.
These cases can be distinguished. The West Virginia
case involved a private pipeline, not a common carrier.
See Mountain Valley Pipeline, 793 S.E.2d at 860–61.
The Kentucky case turned in part on the court’s view
that “the legislature only intended to delegate the
state’s power of eminent domain to those pipeline
companies that are, or will be, regulated by the
[Kentucky Public Service Commission].” Bluegrass
Pipeline Co., 478 S.W.3d at 392. But more importantly,
we have a different view of “public use” under the Iowa
Constitution. We do not believe a common carrier of a
raw material that is essential to Iowa’s economy but
isn’t produced or processed in Iowa is prohibited from
exercising eminent domain when so authorized by the
general assembly. The public use concept is not that
restrictive. See Transcon. Gas Pipe Line Corp. v. Calco
Enters., 511 S.E.2d 671, 676 (N.C. Ct. App. 1999) (“The
concept is flexible and adaptable to changes in society
and governmental duty.”). The Iowa Constitution does
not hang on the presence of spigots and on-ramps.
Accordingly, we hold that there was no violation of
article I, section 18 of the Iowa Constitution. For the
reasons already stated, we also find no Fifth
Amendment violation. We recognize that a serious and
warranted concern about climate change underlies
some of the opposition to the Dakota Access pipeline.
Maybe, as a matter of policy, a broad-based carbon tax
that forced all players in the marketplace to bear the

App. 48
true cost of their carbon emissions should be imposed.
The revenues from this broad-based tax could be used
to offset other taxes. But policy making is not our
function, and as a legal matter we are satisfied that the
Dakota Access pipeline meets the characteristics of a
public use under the Iowa and United States
Constitutions.
VIII. Puntenney’s and Johnson’s Individual
Claims.
Puntenney lives in Boone and owns farmland in
Webster County, which is used for growing soybeans
and corn. Before the IUB, Puntenney submitted a map
showing that the pipeline route was going to cut
through the very southwest corner of his property and
that it could be rerouted, without becoming any less
“straight,” so as not to go through his property.
Puntenney contends the pipeline should have been
rerouted around his property, especially in light of his
plans to install wind turbines.
The record shows that the pipeline generally runs
on a straight line from northwest Iowa to southeast
Iowa but is not entirely straight because of the
software employed by Dakota Access to account for
environmental features (such as critical habitat, fault
lines, state parks, national forests, and historic sites),
engineering considerations (such as existing pipelines
and power lines), and land use considerations (such as
homes, other buildings, dams, airports, cemeteries, and
schools).
Puntenney contends that by not requiring Dakota
Access to go around his property, the IUB violated Iowa

App. 49
Code section 479B.1, which only confers “rights of
eminent domain where necessary.” (Emphasis added).
According to Puntenney, it was not necessary for the
pipeline to traverse his property.
We do not read the statute that way. Obviously,
with a pipeline that bisects the entire state, it is never
going to be strictly “necessary” for that pipeline to cut
across any particular landowner’s property. Diversions
will always be possible. In our view, the demands of
this statute are met if the pipeline company
demonstrates that the pipeline requires the exercise of
eminent domain and demonstrates why the particular
route it has proposed is superior. Both criteria were
met here. See Green v. Wilderness Ridge, L.L.C., 777
N.W.2d 699, 704 (Iowa 2010) (deciding in a private
condemnation action that the legislature intended a
flexible approach and that “it is unlikely that the
legislature intended to mandate that the land to be
condemned must always be the shortest route”).
Puntenney also contends the IUB acted arbitrarily
in not relocating the proposed pipeline to accommodate
his plans to install wind turbines, even as it directed a
rerouting for the benefit of a turkey farmer. But the
IUB explained why. The turkey farmer was further
along. He was talking turkey about putting up new
buildings. Puntenney, on the other hand, had merely
conceived the idea of installing wind turbines and had
no specific plan. Moreover, the record did not show that
the pipeline would interfere with any later plans to

App. 50
erect wind turbines, especially when it only ran under
the very southwest corner of Puntenney’s property.7
Lastly, Puntenney contends that he was not allowed
to testify to his concerns about the impact of the
pipeline on his drainage tile. However, Puntenney was
allowed to file written objections that detailed his tiling
concerns. He was also asked specifically about tiling in
his live testimony. And he was asked open-ended
questions in his live testimony. For example, the
chairperson of the IUB asked Puntenney, “Can you tell
the Board exactly what you’re looking for in terms of
relief beyond moving the pipeline off of your property?”
Puntenney did not request the chance to testify further.
Johnson is a corn and soybean farmer in Boone
County, who like Puntenney sought the rerouting of
the pipeline to avoid his property. Johnson said he
feared the pipeline would destroy the drainage tile and
concrete pipe he had installed on his land. The IUB did
not order rerouting, but it did grant relief to Johnson:
it directed Dakota Access to install the pipeline below
Johnson’s entire drainage system, including the
twenty-four-inch concrete main that was already
buried up to twenty-two feet deep. A Dakota Access
witness explained that it would not be feasible to divert
the line as Johnson had requested because in the area
of proposed diversion there were a forest, a creek, and
7

Puntenney also compares his situation to that of another
landowner who was granted relief. But that landowner was only
granted partial relief. Dakota Access was directed to negotiate
with that landowner to avoid one parcel that it had conceded it
could avoid and to relocate the route over three other parcels
(without avoiding them entirely).

App. 51
a county drain line. Dakota Access would have to cut
out trees, cross a creek, and encumber another drain
line. The IUB concluded, “[T]here appears to be no
reasonable alternative to granting eminent domain
along the route proposed by Dakota Access and boring
under the 24-inch main appears to be the least
intrusive alternative.” This finding is supported by
substantial evidence.
IX.

Conclusion.

For the foregoing reasons, we affirm the judgment of
the district court.
AFFIRMED.
All justices concur except Wiggins, J., who concurs
in part and dissents in part, joined by Appel, J., and
McDonald, J., who dissents.

App. 52
#17–0423, Puntenney v. IUB
WIGGINS, Justice (concurring in part and
dissenting in part).
I dissent from the majority’s conclusion that the use
of eminent domain does not violate the Iowa
Constitution. I agree with the majority that incidental
economic benefits alone are not enough for a taking to
qualify as “for public use” under article I, section 18.
However, I disagree that the Dakota Access pipeline
fits within the “common carrier exception” for purposes
of the Iowa Constitution. I also find fault in Dakota
Access’s use of eminent domain because it is unrelated
to the purpose of the applicable eminent-domainauthorizing statute.
One way a taking complies with article I, section
18’s public use requirement is where “the sovereign . . .
transfer[s] private property to private parties, often
common carries, who make the property available for
the public’s use.” Kelo v. City of New London, 545 U.S.
469, 497–98, 125 S. Ct. 2655, 2673 (2005) (O’Connor, J.,
dissenting). Inherent in this “use-by-the-public” method
of compliance is that the condemning sovereign’s public
be able to use the taken property. Various courts have
recognized that
[t]he sovereign’s power of eminent domain,
whether exercised by it or delegated to another,
is limited to the sphere of its control and within
the jurisdiction of the sovereign. A state’s power
exists only within its territorial limits for the
use and benefit of the people within the state.
Thus, property in one state cannot be

App. 53
condemned for the sole purpose of serving a
public use in another state.
Mountain Valley Pipeline, LLC v. McCurdy, 793 S.E.2d
850, 862 (W. Va. 2016) (quoting Clark v. Gulf Power
Co., 198 So. 2d 368, 371 (Fla. Dist. Ct. App. 1967));
accord, e.g., Adams v. Greenwich Water Co., 83 A.2d
177, 182 (Conn. 1951) (noting “no state is permitted to
exercise or authorize the exercise of the power of
eminent domain except for a public use within its own
borders” and collecting cases); Square Butte Elec. Coop.
v. Hilken, 244 N.W.2d 519, 525 (N.D. 1976)
(“[A]lthough other states may also be benefited, the
public in the state which authorizes the taking must
derive a substantial and direct benefit . . . , something
greater than an indirect advantage . . . .”); see Gralapp
v. Miss. Power Co., 194 So. 2d 527, 531 (Ala. 1967).
Recently, other states have relied on that principle
when considering whether a pipeline running across
the state constituted a public use. See Mountain Valley
Pipeline, 793 S.E.2d at 860–62 (West Virginia high
court finding a natural gas pipeline was not for a public
use because West Virginians could not use and did not
directly benefit from the pipeline or the natural gas it
was to transport); see also Bluegrass Pipeline Co. v.
Kentuckians United to Restrain Eminent Domain, Inc.,
478 S.W.3d 386, 392 (Ky. Ct. App. 2015) (finding
pipeline was not “in the public service of Kentucky”
because the product in the pipeline was being
transported to a facility in the Gulf of Mexico and not
reaching Kentucky consumers); cf. In re Condemnation
by Sunoco Pipeline, L.P., 143 A.3d 1000, 1019 (Pa.
Commw. Ct. 2016) (upholding finding of public benefit

App. 54
of pipeline because the intrastate pipeline would
enhance delivery options for natural gas and liquids in
Pennsylvania).
Additionally, I would find Dakota Access’s takings
do not qualify as “for public use” because the primary
purposes of the takings and their incidental economic
and public safety benefits are unrelated to the purpose
of the statute authorizing the use of eminent domain.
In this case, the statute authorizing the use of
eminent domain is not Iowa Code chapter 6A but
rather chapter 479B. The purpose of chapter 479B is
“to protect landowners and tenants from environmental
or economic damages which may result from the
construction, operation, or maintenance of a hazardous
liquid pipeline.” Iowa Code § 479B.1 (2016).
The primary purported purposes of Dakota Access’s
pipeline are (1) so a private business can build a
private pipeline to “transport crude oil from sources in
North Dakota to a hub in Illinois” and (2) to answer the
oil industry’s desire for a pipeline. However, the
purpose of chapter 479B is neither to facilitate private
transportation of crude oil (or other hazardous liquids)
nor to acquiesce to a particular industry’s desire for a
particular method of transporting its product. Thus,
the primary purported purposes of the pipeline are
unrelated to the purpose of exercising eminent domain
as contemplated in chapter 479B.
Likewise, the Iowa Utility Board’s (IUB) finding
that the pipeline promotes public safety does not
correspond with the purpose of chapter 479B. The IUB
found the pipeline promotes public safety because the

App. 55
risk of an oil spill is lower when the oil is transported
by pipeline than when it is transported by rail. But the
public safety purpose of chapter 479B is not to lower
the risk of damages resulting from the transportation
of oil generally. It is to protect against damages
resulting “from the construction, operation, or
maintenance” of an oil pipeline. Id.
In sum, I conclude the Dakota Access pipeline does
not fit within the common carrier exception for
purposes of the Iowa Constitution because the Iowa
public cannot use and does not derive a direct benefit
from it. Further, even taking into account the
purported incidental and secondary benefits to Iowans,
the use of eminent domain in this case does not accord
with the purpose for which eminent domain may be
exercised as stated in the pertinent statute authorizing
the use of eminent domain. I would hold the Dakota
Access’s takings violate article I, section 18 of the Iowa
Constitution.
Appel, J., joins this concurrence in part and dissent
in part.

App. 56
#17–0423, Puntenney v. IUB
McDONALD, Justice (dissenting).
The Iowa Utilities Board (IUB) approved
construction of the pipeline. The IUB authorized
Dakota Access to use the eminent domain power to
condemn easements. Dakota Access exercised the
eminent domain power as granted. The appellants
accepted the condemnation awards. Dakota Access
built the pipeline. Oil is flowing through the pipeline.
No further relief is available. What’s done, is done. The
case is moot.
The leading case is Welton v. Iowa State Highway
Commission, 208 Iowa 1401, 227 N.W. 332 (1929). In
Welton, we concluded a challenge to the construction of
a highway was moot when construction was completed:
[S]ubsequent to the decision of the district court
in this case, and in the absence of an order
staying appellees’ actions, the road in
controversy was established . . . [. T]he appellant
has perfected an appeal to the district court of
Mahaska county, from the award of the
condemnation commissioners, as to the amount
of his damages . . . . [D]uring the pendency of the
appeal, the defendant did not obtain a
restraining order from this court . . . .
It is apparent from the uncontroverted
affidavit that the orchard has been taken for
highway purposes and the paving laid. No order

App. 57
which we can now make can preserve to
appellant his orchard.
Id. at 1402–03, 227 N.W. at 333.
Similarly, in Porter v. Board of Supervisors, we
concluded the completion of a drainage ditch was an
established fact that precluded relief:
We call attention also to the fact . . . that the
construction ha[s] already taken place and that
the canal or ditch [i]s in operation. There was no
stay of proceedings nor application in this court
for an order to stay construction. Under these
circumstances the construction of the ditch
became an established fact before the case was
submitted to us for decision.
238 Iowa 1399, 1404, 28 N.W.2d 841, 844 (1947).
As in Welton and Porter, the construction and
operation of the pipeline is an established fact—what’s
done cannot be undone. The appellants previously
conceded their claims were moot once the pipeline was
completed and placed into service. In the district court,
the appellants sought a stay. In support of their
application for stay, the appellants conceded “if they
d[id] not receive a stay before [Dakota Access’s]
pipeline trench [wa]s dug, any remedy w[ould] be
inadequate.” The district court denied the application
for stay. The appellants did not seek interlocutory
appeal, did not seek a stay from this court, and did not
seek to expedite the appeal. In the meantime, the
“trench [was] actually dug.”

App. 58
The completion of the pipeline and the appellants’
acceptance of the condemnation awards are established
facts that render their claim moot. See CampbellEwald Co. v. Gomez, 577 U.S. ___, ___, 136 S. Ct. 663,
669 (2016) (“If an intervening circumstance deprives
the plaintiff of a ‘personal stake in the outcome of the
lawsuit,’ at any point during litigation, the action can
no longer proceed and must be dismissed as moot.”
(quoting Genesis Healthcare Corp. v. Symczyk, 569 U.S.
66, 72, 133 S. Ct. 1523, 1528 (2013))); Standing Rock
Sioux Tribe v. U.S. Army Corps of Eng’rs, 301 F. Supp.
3d 50, 63 (D.D.C. 2018) (“The specter of mootness
raised in Standing Rock’s earlier filings has now come
to pass—construction is complete and oil is flowing
through the pipeline.”); Gunnar v. Town of Montezuma,
228 Iowa 581, 584, 293 N.W. 1, 3 (1940) (stating a case
is moot if “the threatened action has become an
accomplished fact”). For these reasons, I would dismiss
the appeal.
[SEAL]
State of Iowa Courts
Case Number
17-0423

Case Title
Puntenney v. Iowa Utilities Board

Electronically signed on 2019-07-30 09:09:19

App. 59

APPENDIX B
IN THE IOWA DISTRICT COURT
FOR POLK COUNTY
[Filed February 15, 2017]
LAW NO. CVCV051987
_____________________________
KEITH PUNTENNEY,
)
)
Petitioner,
)
)
vs.
)
)
IOWA UTILITIES BOARD and )
DAKOTA ACCESS LLC,
)
)
Respondents.
)
_____________________________ )
LAW NO. CVCV051990
_____________________________
LAVERNE JOHNSON,
)
)
Petitioner,
)
)
vs.
)
)
IOWA UTILITIES BOARD and )
DAKOTA ACCESS LLC,
)
)
Respondents.
)
_____________________________ )

App. 60
LAW NO. CVCV051997
_____________________________
RICHARD R. LAMB, ET AL., )
)
Petitioners,
)
)
vs.
)
)
IOWA UTILITIES BOARD,
)
ET AL.,
)
)
Respondents
)
_____________________________ )
LAW NO. CVCV051999
_____________________________
SIERRA CLUB IOWA
)
CHAPTER,
)
)
Petitioner,
)
)
vs.
)
)
IOWA UTILITIES BOARD
)
and DAKOTA ACCESS LLC,
)
)
Respondents.
)
_____________________________ )
RULING ON JUDICIAL REVIEW
STATEMENT OF THE CASE
The Iowa Utilities Board (the board) is a state
agency created pursuant to Iowa Code section 474.1.
One of the board’s responsibilities is to implement

App. 61
controls over hazardous liquid pipelines.1 Iowa Code
§ 479B.1. The board’s charge under the statute is to
protect landowners and tenants from environmental or
economic damages, to approve the location and route of
such pipelines, and to grant rights of eminent domain
where necessary. Iowa Code § 479B.1. The statute
provides standards that the board must use when
considering an application for permit to build a
pipeline. The board has adopted administrative rules
that also set standards and govern the application
process. See 199 IAC chapter 13.
Prior to constructing a pipeline in Iowa, the pipeline
company must hold informational meetings in each
county in which real property or property rights will be
effected. Iowa Code § 479B.4; 199 IAC 13.3. The
informational meetings shall be held not less than 30
days nor more than two years prior to the filing of a
petition for pipeline permit. 199 IAC 13.3. A member of
the board or designee shall preside over each
informational meeting. Iowa Code § 479B.4. The
pipeline company shall provide notice of the
informational meeting to each landowner affected by
the proposed project. Id.
On October 29, 2014, Dakota Access, LLC (Dakota),
a pipeline company, filed documents with the board
expressing its intent to start the application process by
conducting informational meetings in compliance with
section 479B.4. The proposed notices expressed
Dakota’s intent to construct a pipeline from North

1

Any reference in this decision to a “pipeline” shall mean a
“hazardous liquid pipeline” unless otherwise stated.

App. 62
Dakota to Patoka, Illinois. The notices stated that the
proposed pipeline would cover approximately 343 miles
in eighteen Iowa counties. The informational meetings
were scheduled in each of the eighteen counties during
the month of December, 2014. Designees from the
board attended each meeting.
On January 20, 2015, Dakota filed a petition for
hazardous liquid pipeline permit. The petition
identified the length of the pipeline, the proposed route,
the impacted counties, and other information as
required by the statute. The petition requested the
right to use eminent domain to secure rights of way for
the project, to the extent eminent domain was needed.
On June 8, 2015, the board issued an order setting
a procedural schedule. That order established three
issues that would be considered by the board
a) whether the proposed pipeline will “promote the
public convenience and necessity,” b) whether the
location and route of the propose pipeline should be
approved , and c) whether and to what extent the
power of eminent domain should be granted.
The June 8, 2015, order established a deadline for
parties to intervene into the action. The board set July
27, 2015, as the deadline for intervention. Thirty-eight
parties filed timely motions to intervene. The board
granted intervention to five additional parties even
though their motions were filed after the board’s
deadline.
The June 8, 2015, order informed the parties of the
board’s intent to take evidence via pre-filed testimony
and submission of exhibits. The order required Dakota

App. 63
and the parties who supported the application for
permit to file prepared direct testimony and exhibits by
September 8, 2015. The Office of Consumer Advocate
(OCA)2 and parties who opposed the application for
permit were required to file prepared direct testimony
and exhibits by October 12, 2015. The order required
the parties to file any rebuttal testimony and exhibits
by October 26, 2015. The board expressed its
expectation that this schedule would allow the case to
proceed to hearing in the month of November, 2015.
The board filed an additional order on
September 16, 2015, to set rules regarding the
presentation of evidence. The order informed the
parties that the board would not hear direct testimony
beyond the pre-filed direct testimony. The board stated
it would allow cross-examination of witnesses who
provided pre-filed written testimony, but “succeeding
cross-examiners shall not engage in repetitive crossexamination[.]” (citing Iowa Code §17A.14(1)). The
order prohibited “[f]riendly cross-examination,” which
was defined as the examination of a witness on the
same side of the party conducting the crossexamination. The order allowed a party to petition the
board for relief if the procedures would result in
injustice.
On November 2, 2015, the Sierra Club Iowa
Chapter (Sierra Club) filed a motion for clarification of
cross-examination of witnesses. Sierra Club claimed

2

OCA is a state agency charged with representing the interests of
consumers in actions that come before the board. See Iowa Code
§ 475A.2.

App. 64
that the prohibition of friendly cross-examination
violated due process. Sierra Club argued that an
attorney from one party has not control over the
written testimony filed by a second party. Two
intervening parties joined Sierra Club’s motion. Dakota
resisted. Dakota claimed that Sierra Club’s motion was
not supported by legal authority, that due process does
not always require cross-examination, and the number
of parties and witnesses in the case justified limits on
examination of witnesses.
On November 9, 2015, the board issued an order
denying Sierra’s motion. The board noted that it had
received pre-filed testimony from more than 80
witnesses as of the date of the order. If determined that
limiting friendly cross-examination was an
“administrative necessity” to completing the hearing in
the scheduled ten day timeframe. The order allowed
any party to make a motion to allow friendly crossexamination of a witness if needed during the course of
that witnesses’ testimony during the hearing.
On November 12, 2015, the board received public
comments on the proposed pipeline; over 200 public
comments were received on both sides of the
application. The evidentiary hearing began on
November 16, 2015. Sixty-nine witnesses testified over
the course of eleven days. On December 18, 2015, the
board established a briefing schedule allowing the
parties to file initial briefs by January 19, 2016, and
reply briefs by February 2, 2016. The order provided an
outline of issues to be addressed in briefs, although it
did not require all parties to address all issues.

App. 65
On March 10, 2016, the board issued a 159 page
final decision and order. The board found that the
proposed pipeline would promote the public
convenience and necessity, subject to terms and
conditions that were set forth in the order. Two factors
weighed heavily in the decision: 1) the pipeline
represents a “significantly safer way to move crude oil”
than the primary alternative of rail transport, and
2) there were considerable economic benefits associated
with the construction, operation and maintenance of
the pipeline. The board noted the potential
environmental impact as the primary factor weighing
against the application, but found that the risk of harm
was minimized by the terms and conditions imposed by
the board in its decision, voluntary safety measures
offered by Dakota, and regulatory review by other state
and federal agencies. The board made clear that the
terms and conditions in the order were important, as
the evidence would not support approval of the permit
without the terms and conditions imposed.
The board also reviewed the proposed route of the
pipeline and considered disputes between Dakota and
landowners regarding the right to take land by eminent
domain pursuant to Iowa Code section 479B.16. The
board found the route to be reasonable. Most of the
objections to eminent domain were rejected, but the
board granted Dakota eminent domain over some of the
parcels subject to conditions set forth in the order,
granted eminent domain subject to modifications over
some parcels, and denied Dakota’s request as to others.
Following post-hearing motions before the board,
several parties filed petitions for judicial review on

App. 66
May 26 and 27, 2016. Four of the petitions were
consolidated and set for hearing.3 Richard Lamb is the
lead petitioner in case number CVCV051997. The
petitioners in the Lamb case are landowners who claim
they are impacted by the proposed pipeline. Keith
Puntenney and Lavern Johnson are landowners who
filed separate actions (case numbers CVCV051987 and
51990 respectively). Sierra Club filed a petition for
judicial review in case number CVCV051999. Sierra
Club claimed its interest in the proceedings was as a
grassroots environmental organization. It sought
protection of wildlife and natural areas, protection of
water resources, and to prevent the impact of climate
change caused by the use of fossil fuels. All of the
petitioners were granted intervention in the action
before the board.
On August 9, 2016, petitioners in the Lamb case
filed an emergency motion to stay enforcement of the
board’s order. At that point, Dakota had put
considerable work into construction of the pipeline.
Petitioners sought to stay any work impacting their
parcels pending resolution of this appeal. On August
22, 2016, the court denied the stay because petitioners
failed to first file the motion with the agency.
Petitioners returned the board, who denied the motion
for stay. The court then considered a renewed request
for stay. On August 29, 2016, the court denied
petitioners’ motion for stay on its merit.

3

A fifth case, Gannon v. Iowa Utilities Board, Polk County
No. CVCV051882, was voluntarily dismissed prior to briefing.

App. 67
On August 23, 2016, the court established a briefing
schedule and set oral argument. The parties filed
extensive briefs. Mr. Lamb filed an opening brief that
was eighty-one pages and a reply brief that was thirtyone pages. Sierra Club filed an opening brief that was
forty-six pages and a reply brief that was fifty-two
pages. Dakota’s brief was one hundred and thirty-four
pages. The board’s brief was a concise thirty-eight
pages. Other parties filed briefs as well.4 Oral
argument was held as scheduled on December 15, 2016.
Rather than providing a factual summary, the court
will discuss facts as necessary and pertinent to the
relevant claims raised by the parties.
CONCLUSIONS OF LAW
I. Preliminary issues
A. Friendly cross-examination
At the hearing before the board, the chair limited
parties from cross-examining witnesses of other parties
who were nominally on the “same side” of the case and
restricted parties from questioning adverse witnesses
more than once. This has been characterized as a
limitation on “friendly cross-examination” or “friendly
cross.” Petitioners argued that limiting friendly crossexamination was a violation of due process.
Respondents argued that due process does not require
the opportunity for cross-examination of adverse
persons in some cases and that the board is allowed to
exclude repetitious evidence.

4

OCA filed a brief opposing the petitions for judicial review.

App. 68
The board reasoned that, with over eighty witnesses
scheduled to testify over the course of ten days, the
restriction on friendly cross-examination was an
administrative necessity. While Sierra Club argued
that the board’s restriction was a ban, it was not a total
ban. The board issued an order clarifying that the
restriction on cross-examination was not absolute:
[i]f the witness has offered testimony that is
truly adverse to the party’s interests, then crossexamination of that witness by counsel for the
party will be allowed. If this situation should
occur, the [b]oard expects counsel for the party
desiring to engage in cross-examination to make
an appropriate motion, explaining why it should
be allowed to cross-examine the witness in a
particular situation, how the witness’s testimony
is adverse to the party’s interests and what
beneficial purpose cross-examination may serve.
(Clarification Order, pp. 5-6).
The first issue concerns waiver. Parties can waive
objections to evidentiary issues in administrative
proceedings in the same way they can in district court
proceedings. See Christiansen v. Iowa Board of
Educational Examiners, 831 N.W.2d 179, 192 (Iowa
2013) (failure to object to hearsay); Bonds v. State,
447 N.W.2d 135, 136 (Iowa 1989) (failure to present
evidence on issue raised on appeal). Sierra Club
contested the board’s decision to limit friendly crossexamination prior to the hearing, but it did not petition
the board to cross-examine a friendly witness during
the hearing itself. If Sierra Club had made such a
request, it would have allowed the board the

App. 69
opportunity to allow the proposed examination based
on the context of the evidence presented at the hearing.
Sierra Club did not make any such requests during the
hearing. This argument has been waived.
Nonetheless, the court will also consider the issue
on the merits. A contested case proceeding before an
administrative agency is an adversarial hearing with
the presentation of evidence and cross-examination of
witnesses. Lunde v. Iowa Bd. of Regents, 487 N.W.2d
357, 359 (Iowa App. 1992). Iowa Code section 17A.12(4)
grants all parties to a contested case proceeding, the
right to present evidence on all issues involved in the
proceeding.
The statute also allows an agency to control the
presentation of evidence. For example, “when a hearing
will be expedited and the interests of the parties will
not be prejudiced substantially, any part of the
evidence may be required to be submitted in verified
written form.” Iowa Code § 17A.14(1). “Witnesses at the
hearing, or persons whose testimony has been
submitted in written form if available, shall be subject
to cross-examination by any party as necessary for a
full and true disclosure of the facts. Iowa Code
§ 17A.14(3) (emphasis added). When evaluating the
evidence, the agency’s experience, technical
competence, and specialized knowledge may be utilized
in determining which evidence is irrelevant,
immaterial, or unduly repetitious. Iowa Code
§ 17A.14(5). This section conforms with the general
rule that administrative agencies are not bound by
technical rules of evidence. Hamer v. Iowa Civil Rights
Comm’n, 472 N.W.2d 259, 262 (Iowa 1991) (ruling in an

App. 70
employment discrimination case before the Iowa Civil
Rights Commission).
Moreover, even under the stricter evidentiary
standards of a civil case, the trial courts have
considerable discretion in directing the course of a trial.
Spitz v. Iowa Dist. Court for Mitchell Cty., 881 N.W.2d
456, 467 (Iowa 2016). In Spitz, the court found no due
process violation when the court limited a contempt
case to one hour and refused to allow a parent to call
her minor children as witnesses. In United States v.
Runge, the court found no due process violation when
the trial court in a criminal case involving multiple
defendants prevented an attorney from crossexamining two witnesses who had already been crossexamined by multiple attorneys. United States v.
Runge, 593 F.2d 66, 72 (8th Cir. 1979).
The board had valid grounds to limit friendly crossexamination. The case included forty-three intervening
parties, not including Dakota and OCA. The board
received pre-filed written direct testimony from more
than eighty witnesses. The board set aside ten days to
conduct the hearing. The administrative record
contains nine boxes of documents. It was critical for the
board to maintain control over the proceeding to
prevent repetition and cumulative testimony. The limit
on cross-examination only applied to parties who were
on the same side of the permit application. Those
parties had the opportunity to consult with each other
to ensure that any needed testimony would be included
in the pre-filed direct testimony or supplements to the
direct testimony. The board agreed to entertain
motions during the hearing to allow friendly cross-

App. 71
examination if needed. This was a reasonable and
pragmatic approach to managing an unusually large
and complicated case. The board did not violate the due
process rights of Sierra Club or any other party by
limiting friendly cross-examination.
B. Standing
Dakota claimed that Sierra Club cannot show
standing to bring its petition for judicial review. In the
context of judicial review, standing is defined as the
right of a person to seek judicial relief from an alleged
injury. Clark v. Iowa State Commerce Comm’n, 286
N.W.2d 208, 210 (Iowa 1979). If an objection is raised
to standing, the burden is on the plaintiff “to show (1) a
specific, personal, and legal interest in the litigation,
and (2) injury.” Rieff v. Evans, 630 N.W.2d 278, 284
(Iowa 2001); see also Bushby v. Washington Co.
Conservation Board, 654 N.W.2d 494, 496 (Iowa 2002).
In Bushby, the Iowa Supreme Court adopted the
United States Supreme Court’s application of standing
in regards to cases involving “environmental concerns.”
The court held that cases involving environmental
concerns establish standing if “they aver that they use
the affected area and are persons for whom the
aesthetic and recreational values of the area will be
lessened by the challenged activity.” Id. (citing Friends
of the Earth, Inc. v. Laidlaw Envtl. Servs., 528 U.S.
167, 183, (2000); (Sierra Club v. Morton, 405 U.S. 727,
735, (1972)) (internal citations omitted).
Sierra Club has alleged sufficient facts to confer
standing under the Bushby standard. Sierra Club pled
that its members use and enjoy the rivers and streams,
natural areas, and other environmental amenities.

App. 72
They asserted concerns that construction and operation
of the proposed pipeline may cause environmental
harm to those areas. In Bushby, several citizens filed
an action against a local conservation board to prevent
a tree-clearing project in a county park. Bushby, 654
N.W.2d at 495. The petitioners’ interests in Bushby are
not distinguishable from the petitioners’ interests in
this case. Sierra Club has standing.
Moreover, Sierra Club was a party to the contested
case hearing before the board. Any party who is
aggrieved or adversely affected by any final agency
action is entitled to judicial review. Iowa Code
§ 17A.19(1); See also Pub. Employment Relations Bd. v.
Stohr, 279 N.W.2d 286, 291 (Iowa 1979). Sierra Club
fully participated in the hearing and in pre-hearing and
post-hearing activities. The board ruled against the
arguments Sierra Club made during the hearing.
Sierra Club filed its petition for judicial review in
response to the adverse ruling. Sierra Club is a party
who is aggrieved and adversely affected by the board’s
decision. Sierra Club has standing to proceed under
judicial review.
C. Mootness
Dakota also claimed that the petitions are now moot
because the vast majority of the pipeline has been
completed. The courts typically do not entertain cases
unless there is a live dispute. See Rhiner v. State, 703
N.W.2d 174, 176 (Iowa 2005). A case is moot if it no
longer presents a justiciable controversy because the
underlying issue is no longer existent. In the Matter of
M.T., 625 N.W.2d 702, 704 (Iowa 2001). If an opinion
rendered by the court would be of no force or effect in

App. 73
the underlying controversy, the issue is considered
moot. Id.
The Iowa Supreme Court has also delineated a
“public interest” exception to the mootness doctrine,
allowing consideration if certain conditions are present.
Rush v. Ray, 332 N.W.2d 325, 326 (Iowa 1983). The
factors the court considers to determine whether a
moot action will be reviewed are: (1) the private or
public nature of the issue; (2) the desirability of an
authoritative adjudication to guide public officials in
their future conduct; (3) the likelihood of the recurrence
of the issue; and (4) the likelihood the issue will recur
yet evade appellate review. In the Matter of T.S., 705
N.W.2d 498, 502 (Iowa 2005) (citing State v.
Hernandez–Lopez, 639 N.W.2d 226, 234 (Iowa 2002)).
There is no need to consider the public interest
exception because this issue can be decided under the
primary standard. The parties objected to the proposed
pipeline not just based on the construction of the
pipeline, but also based on its operation. The pipeline
may be fully constructed, or close to it, but it has yet to
transport any oil. Petitioners have claimed a harm
caused by the potential for an oil spill by the
transportation of oil through the pipeline. Even if oil
was being transported, the case would not be moot
because there is an ongoing risk of an oil spill. The case
is not moot.
II. Public Convenience and Necessity
A. Standard of Review
Petitioners first argue that the board’s
interpretation of law should not to be granted deference

App. 74
by the court. The courts apply the standards in Iowa
Code section 17A.19(10) when reviewing agency action.
When the legislature has clearly vested an agency with
authority to interpret an act, the court reviews the
agency’s findings by using the “irrational, illogical, or
wholly unjustifiable interpretation of a provision of
law” standard in section 17A.19(10)(c). Renda v. Iowa
Civil Rights Comm’n, 784 N.W.2d 8, 10 (Iowa 2010).
When the legislature has not clearly vested an agency
with authority to interpret the act, the courts are free
to substitute their own judgment by using the
“erroneous interpretation of a provision of law”
standard in section 17A.19(10)(l). Id. The legislature
need not expressly vest discretion with the agency.
Rather, the court shall consider the following:
[T]he reviewing court, using its own
independent judgment and without any
required deference to the agency’s view,
must have a firm conviction from
reviewing the precise language of the
statute, its context, the purpose of the
statute, and the practical considerations
involved, that the legislature actually
intended (or would have intended had it
thought about the question) to delegate to
the agency interpretive power with the
binding force of law over the elaboration
of the provision in question.
Id. at 11 (quoting Arthur E. Bonfield, Amendments to
Iowa Administrative Procedure Act, Report on Selected
Provisions to Iowa State Bar Association and Iowa
State Government 62 (1998)).

App. 75
In a recent decision, the Iowa Supreme Court, held
that the legislature did not clearly vest the board with
deference to interpret the terms “public utility” and
“electric utility” as used in Iowa Code chapter 476. See
SZ Enterprises, LLC v. Iowa Utilities Board, 850
N.W.2d 441, 451-52 (Iowa 2014). The court first noted
that those terms had already been defined by the
legislature in the statute, which the court considered to
be “significant factor weighting against requiring
deference.” Id. at 451. Second, the court found that the
terms in question are not complex and are used
elsewhere in the code, so they were not uniquely within
the subject matter expertise of the agency. Id. at 452.
The court found it notable that the term “public utility”
is used in some statutes that the board has no role
enforcing. Id.
However, even as the court denied giving the
board’s interpretations of law discretion in SZ
Enterprises, it held open that it may in other cases:
We do not conclude that these principles
mean that the [board] will never be
granted deference. We focus on the
particular statutory provision at issue in
a given case. Even where definitions have
been supplied by the legislature and the
terms are not terms of art, we leave open
the possibility that the structure or
subject matter of the legislation is of
sufficient complexity to require that this
court defer to agency legal
interpretations. We do believe, however,
that parties seeking to require this court

App. 76
to defer to legal determinations of the
[board] face an uphill battle where, as in
this case, the legislature has provided
definitions of terms that do not on their
face appear to be technical in nature.
(cites omitted).
Id. at 451. The question whether an agency should be
granted deference is not always an easy question –
even the supreme court has noted that the standards
are “not conducive to the development of bright-line
rules.” Hawkeye Land Co. v. Iowa Utilities Bd., 847
N.W.2d 199, 208 (Iowa 2014) (cite omitted).
Based on a review of the statutory language in
chapter 479B, the court finds that the board’s
interpretation of “public convenience and necessity”
should be given deference for several reasons. First, the
legislature did not define the term “public convenience
and necessity” in chapter 479B, nor did it borrow a
definition from another statute. Therefore, the most
critical factor in SZ Enterprises does not apply here.
Second, the legislature has stated that the purpose
of chapter 479B was to give the board authority to
implement controls over pipelines to protect
landowners or tenants from damages that might result
from the construction, operation, or maintenance of a
pipeline. Iowa Code § 479B.1. This is a broad grant of
authority to the board. The statute further gives the
board authority to grant a permit, “in whole or in part,”
and authorizes the board to condition the grant of a
permit to terms, conditions, and restrictions as to
location and route that it determines are just and
proper. Iowa Code § 479B.9. This likewise is a broad

App. 77
grant of authority. The structure of the statute as a
whole shows an intent to defer to the board’s
interpretation of “public convenience and necessity” as
part of the determination whether to grant a permit
and, if so, what terms and conditions to place on the
permit.
Third, the terms “convenience” and “necessity” may
appear common, but the combined term “public
convenience and necessity” is somewhat archaic and
has historically been used by the legislature when
granting discretion to agencies dealing in complex
decision-making. See e.g. Appeal of Beasley Bros., 206
Iowa 229, 220 N.W. 306, 308 (1928) (reviewing a
decision by the State Railroad Commission whether a
bus line promoted the public convenience and
necessity). The legislature has used the same standard
when granting the board authority to grant permits in
other contexts, so it has expertise in evaluating that
term. See e.g. Iowa Code § 476.29 (telephone utilities);
Iowa Code § 479.12 (gas pipelines).
Finally, the courts have held on a number of
occasions that a determination whether a service will
“promote the public convenience and necessity” is a
legislative, not a judicial, function to which the agency
should be given greater discretion. Application of Nat’l
Freight Lines, 241 Iowa 179, 186, 40 N.W.2d 612, 616
(1950); Beasley Bros., 220 N.W.2d at 310. The board
made its decision in this case following a contested case
hearing, which is a judicial proceeding. However, there
is some logic in harmonizing the prior case law to
allowing the board discretion under section
17A.19(10)(c) to interpret the same term, even though

App. 78
the board made its decision as part of a contested case
rather a quasi-legislative process.
Judicial review of the finding of “public convenience
and necessity” also involves a review of factual findings
made by the board. Factual findings must be accepted
if supported by substantial evidence. Burton v. Hilltop
Care Cntr., 813 N.W.2d 250, 256 (Iowa 2012) (quoting
Iowa Code § 17A.19(10)(f)). A district court’s review “is
limited to the findings that were actually made by the
agency and not other findings that the agency could
have made.” Id. “‘Substantial evidence’ means the
quantity and quality of evidence that would be deemed
sufficient by a neutral, detached, and reasonable
person, to establish the fact at issue when the
consequences resulting from the establishment of that
fact are understood to be serious and of great
importance.” Iowa Code § 17A.19(10)(f )(1).
Evidence is not insubstantial merely because
different conclusions may be drawn from the
evidence. To that end, evidence may be
substantial even though we may have drawn a
different conclusion as fact finder. Our task,
therefore, is not to determine whether the
evidence supports a different finding; rather, our
task is to determine whether substantial
evidence, viewing the record as a whole,
supports the findings actually made.
Cedar Rapids Cmty. Sch. Dist. v. Pease, 807 N.W.2d
839, 845 (Iowa 2011) (internal citations and quotation
marks omitted).

App. 79
B. Legal Analysis
The board may only approve a permit to a pipeline
company after it determines that “the proposed
services will promote the public convenience and
necessity.” Iowa Code § 479B.9. The board may grant
a permit in whole or in part, and it may impose terms,
conditions, and restrictions as to location and route as
it determines is “just and proper.” In this case, the
board found that Dakota’s proposed pipeline will
promote the public convenience and necessity. It
imposed several terms and conditions and required
some adjustments as to the route.
The term “public convenience and necessity” is not
defined in chapter 479B. The board determined that
the term “necessity” does not have its ordinary
dictionary meaning of “indispensable.” (Board order,
p. 15 (citing Wabash, C. & W. Ry. Co. v. Commerce
Comm’n, 309 Ill. 412, 141 N.E. 212, 214 (1923)). The
board reasoned that if “necessity” was given its
ordinary meaning, a permit would never be granted.
Rather, citing to Wabash, the board found that
“necessity” is more appropriately defined to mean
“needful, requisite, or conducive” to meet the intent of
section 479B.9. The board’s definition is supported by
Thomson v. Iowa State Commerce Comm’n, 235 Iowa
469, 475, 15 N.W.2d 603, 606 (1944), which held:
The word “necessity” has been used in a
variety of statutes . . . . It has been
generally held to mean something more
nearly akin to convenience than the
definition found in standard dictionaries
would indicate. So it is said the word will

App. 80
be construed to mean not absolute, but
reasonable, necessity.
See also Weiss v. City of Denison, 491 N.W.2d 805, 807
(Iowa App. 1992) (interpreting “necessity” as a
“reasonable necessity” as opposed to an “absolute
necessity”); Mann v. City of Marshalltown, 265 N.W.2d
307, 314 (Iowa 1978) (same); Vittetoe v. Iowa Southern
Utilities, 255 Iowa 805, 123 N.W.2d 878, 881 (Iowa
1963) (same).
The board applied a test that balanced the various
public interests, including the public use, public
benefits, and public and private costs and detriments.
(Board order, p. 16 (citing to South East Iowa Co-pp
Elec. Ass’n v. Iowa Utilities Board, 633 N.W.2d 814,
821 (Iowa 2001)). In South East Iowa, the court
reviewed a decision by the board to approve
construction of an electric transmission line pursuant
to Iowa Code chapter 478. The test under chapter 478
is whether the proposed line is “necessary to serve a
public use and represents a reasonable relationship to
an overall plan of transmitting electricity in the public
interest.” The court focused its attention on the
question of “necessity.” See id. at 818-19 (citing Iowa
Code § 478.4). The court approved the board’s analysis,
which balanced the costs of the proposed line with the
expected benefits to utility customers, and found the
proposed lines necessary to serve the public use. Id. at
821.
Petitioners argued that economic impact should not
be a factor to decide whether a proposed pipeline will
promote the public necessity and convenience.
However, the supreme court held the opposite in South

App. 81
East Iowa, at least as applied to electric transmission
lines. Id. at 819. Moreover, in South East Iowa, the
court cited to the board’s consideration of economic
benefits in decisions to grant gas pipeline permits
under Iowa Code section 479.12 “as a sufficient basis”
to approve the permits. Id. The standard for granting
a gas pipeline under section 479.12 is the same
“promote the public convenience and necessity”
standard that the board is required to use in this case
under section 479B.9. There is no question that
economic impact may be considered as a factor.
Petitioners also argued that Dakota must show
“service to the public” in Iowa. In essence, petitioners
argue that the pipeline must provide a direct product
or service to Iowans. The proposed pipeline does not
ship oil from Iowa, nor does it ship oil into Iowa.
Rather, it ships from North Dakota to a refinery in
Illinois on a route that crosses Iowa. The board found
that it may consider the application notwithstanding
that the proposed pipeline does not have a beginning or
end point in Iowa.
The board’s determination is supported by the law
and evidence. While the board must consider the public
interest of Iowans as part of its balancing test, there is
no indication in the statute that the board cannot
approve the permit unless product is shipped to or from
the state. In fact, the statute defines a “pipeline” as “an
interstate pipe or pipeline[,]” so it is clear that the
legislature understood that the pipeline would be
crossing state lines. See Iowa Code § 479B.2(3)
(emphasis added). Moreover, the board made a finding
that Iowa does not produce any crude oil and there are

App. 82
no crude oil refineries doing business within the state.
(Board decision, p. 20). As a result, a pipeline used to
ship crude oil must necessarily start and stop in other
states without supplying product directly to the state
of Iowa. The board correctly found that the governing
legal standard does not require a finding that product
is shipped to or from the state.
C. Factual Analysis
The parties presented evidence regarding several
factors that they felt to be important to the board’s
consideration whether Dakota’s application for permit
will promote the public convenience and necessity. The
board found that some of the factors carried little
weight in its balancing test. The board ultimately
found the following to be significant factors to consider
when reviewing Dakota’s application for a permit:
1) the increased safety of transporting crude oil by
pipeline rather than rail, 2) economic benefits to the
state, 3) environmental issues, 4) safety risks, and
5) oil spill remediation. (Board decision, pp. 31-33, 4647, 51-54, 57-58, 62-63). The board found the first two
factors to weigh heavily in favor of granting a permit.
(Board decision, pp. 109-10). The board also found that
the proposed pipeline would serve a market with a
clear demand for oil. (Board decision, pp. 110). The
board found that the other three factors weighed
against granting the permit, but the risk of harm had
been reduced by safety measures. (Board decision,
pp. 110-12). The board also considered the burden that
the pipeline would place on private interests,
particularly those along the proposed route. (Board
decision, p. 113). The board ultimately concluded that

App. 83
the benefits outweighed the public and private costs,
particularly when considering the safety measures put
into place by Dakota and imposed by the board. (Board
decision, p. 114).
1. Increased Safety in Transporting Oil by Pipeline
The parties presented varying information
regarding the safety of shipping crude oil by pipeline
versus shipping crude oil by rail, which is the primary
alternative. The challenge was to find an apples-toapples comparison. For example, Sierra Club presented
evidence from 2013 to show that more than 800,000
gallons of oil spilled from railroad cars but 5,000,000
gallons of hazardous liquids spilled from pipelines. The
board discounted that evidence because the pipeline
numbers included hazardous liquids of all types and
not just oil. Additionally, Sierra Club’s numbers did not
consider the relative volume of oil transported by both
methods, nor did it consider the distance traveled.
(Board decision, pp. 29-31).
After considering the evidence presented, the board
found that data from the United States Department of
Transportation (USDOT) provided the most reliable
evidence to determine the relative safety of both
methods of transportation. (Id.; citing to Exhibit GC).
The USDOT data considered the volume of oil carried
and the distance transported when comparing the two
methods of transportation. Based on that data, the
board found that transportation of oil by pipeline has
one-third to one-fourth of the incident rate of
transportation of oil by railway. The same exhibit
reported that, by any measure, pipelines are the safest

App. 84
form of energy transportation.5 (Board decision, pp. 2829, 32).
The board’s finding is supported by substantial
evidence. It may be that there is other evidence in the
record that could support another conclusion. However,
the standard of review prevents the court from
substituting its judgment for that of the agency when
deciding fact questions. The board sat through the
lengthy hearing, listened to the witnesses, and
considered the evidence that was presented. The board
reasonably relied on data from an objective
governmental source as part of its decision-making as
to the safety aspects of the application.
2. Economic Benefits to the State
The board found that construction of the pipeline
would economically benefit the state by various means.
The economic benefits from the construction of the
pipeline were estimated to be between $787,000,000
and $1.11 billion. The board determined the project
would employ 3,100 to 4,000 workers. The board found
the economic benefits to the state to be significant,
even if the lower estimates were considered. The
pipeline was expected to result in approximately 25
long-term jobs by direct and indirect means. The board
also found that Dakota would pay approximately $27

5

Petitioners argued that USDOT has established new standards
that will improve the safety of transportation of oil by rail. The
new standards were not referenced during the contested case
hearing even though they had been promulgated at the time. The
court agrees with the board’s argument that the impact of the new
regulations is too speculative to be considered at this time.

App. 85
million in property taxes each year. The overall
economic benefit from the construction, operation, and
maintenance of the proposed pipeline weighed
significantly in favor of granting the permit. (Board
decision, pp. 41-47).
The board’s findings are supported by reliable
evidence in the record. There were disputes as to the
total number of constructions jobs and costs. There
were also some disputes as to the other figures relied
on by the board. However, there was no disagreement
that there would be a significant amount of money
spent on construction, that thousands of workers would
be employed, and that the state would benefit in the
future through property taxes and some long-term jobs.
There was unquestionably substantial evidence to
support the finding that the project would provide
economic benefit to the state.
The economic benefits cited by the board are
distinct from those considered in other cases involving
the board. For example, in South East Iowa, the board
considered the economic benefit that might be received
by consumers through lower energy costs over the longterm. South East Iowa, 633 N.W.2d at 820. The board
considered some evidence that the price of oil may drop
due to the decrease in costs of transportation after the
pipeline was built, but the board did not appear to use
that as part of its finding of economic benefits. (Board
decision, pp. 42, 46-47). Rather, the primary economic
benefit considered by the board was the short-term
benefits resulting during the construction phase of the
project.

App. 86
It may be reasonable to question whether these
short-term benefits should play a major role in the
analysis. Any pipeline project will include construction
costs, so any pipeline project will bring the resulting
economic benefits associated with construction jobs.
Still, there is no distinction in the case law between
short-term and long-term economic benefits. The court
cannot find as a matter of law that the board cannot
consider the significant amount of money spent during
a major construction project. There is no question that
this is a major project. There is likewise no question
that the pipeline brings some economic benefits that
will continue in the future. The board’s findings as to
the economic benefits of the project were supported by
substantial evidence and were not erroneously entered.
3. Environmental Issues, Safety Risks, and Oil
Spill Remediation (Safety Issues)
The board commenced its evaluation of the safety
issues by reiterating the legislative purpose to “protect
landowners and tenants from environmental or
economic damages which may result from the
construction, operation or maintenance of the proposed
pipeline.” (Board decision, p. 51 (citing Iowa Code
§ 479B.1)). The board noted that the environmental
considerations of the pipeline are “numerous,” but also
stated that “[i]t is impossible to build and operate a
pipeline without having any environmental impact at
all[.]” (Board decision, p. 52). The board ultimately
concluded that sufficient steps had been taken to
minimize the potential adverse impact of the pipeline.
(Board decision, p. 53).

App. 87
The board `cited to several rationales, as supported
by portions of the record, to support its conclusion. For
example, the board cited to the testimony of Jeff
Thommes, a witness called by OCA. Mr. Thommes has
worked for 17 years as a biologist for the oil and gas
industry helping clients comply with rules and laws
protecting threatened and endangered species.
(Thommes direct, p. 2). Mr. Thommes recommended a
number of conditions that Dakota should be required to
follow during the construction, operation, and
maintenance of its proposed pipeline. (Id., pp. 13-18).
Dakota voluntarily agreed to comply with many of
those recommendations, and the board made specified
rulings as to other recommendations that were in
dispute. (Board decision, pp. 91-100). The board
ordered many of the recommendations to be included
among the terms and conditions of the permit.
The board discussed at length the agricultural
impact mitigation plan (AIMP) required by Iowa Code
section 479B.20. (Board decision, pp. 47, 52, 74-83).
Dakota proposed an AIMP, which was modified by the
board to add a number of requirements suggested by
North Iowa Landowner’s Association (NILA). The
modifications to the AIMP provided landowners greater
protection from economic or environmental harm.
Other factors were considered as well. The board
found that Dakota picked a route that was near other
existing infrastructure and avoided problematic
environmental features. Dakota also agreed to designs
and testing that exceeded federal regulatory
requirements, including additional inspections of
mainline girth welds, additional hydrostatical testing,

App. 88
and implementation of a cathodic protection system.
This shows an intent to provide greater protections
than provided by the several regulatory schemes that
apply to Dakota’s pipeline. These findings by the board
are supported by evidence presented during the case.
(See e.g. Board decision, p. 48 (citing Howard exhibit
13)).
Petitioners argue that the board should have
ordered an environmental report to provide more
details regarding potential environmental concerns.
Sierra Club made a pretrial motion to that extent. On
October 5, 2015, the board issued an order denying the
request. The board stated that it has considered many
permits in the past without requiring an
environmental impact report. It found that it could
consider environmental issues by using its standard
hearing procedures. The board is not required by law to
order an environmental impact study as requested by
Sierra Club. The board provided sufficient opportunity
for the parties to present evidence as to their concerns
through exhibits, reports, the pre-filed testimony, and
the testimony offered during the hearing.
Petitioners also raised a concern about remediation
should a spill occur. Chapter 479B contains a financial
responsibility requirement, but only requires that the
pipeline owner hold property with a value of $250,000
that is subject to execution in Iowa. Iowa Code
§ 479B.13. The parties agreed that a major spill could
result in damages greatly exceeding that amount.
Dakota committed to maintaining a $25 million general
liability policy. (Transcript, pp. 2184-86). Further, the
board required Dakota to file parental corporate

App. 89
guarantees pledging resources to address emergencies.
(Transcript, pp. 2495-96). The market capitalization of
Dakota’s parent companies was over $60 billion as of
the date of the hearing.6 Petitioners argued that the
owners may change over time, but as pointed out by
the board, it retains jurisdiction to require updated
guarantees. The board found that the likelihood of a
spill is unlikely based on the remediation efforts
discussed in its decision, but there was evidence of
sufficient resources to respond to any spill. The
evidence relied upon by the board was supported by
substantial evidence. (Board decision, pp. 58-63).
It seems clear that the decision on this project
turned on the resolution of the environmental concerns.
Any pipeline carrying crude oil carries risks, but the
legislature has made a policy decision to allow such
pipelines if approved by the board. The board carefully
analyzed the safety issues raised by the parties and
considered the various risks incurred by the proposed
project. Dakota voluntarily agreed to safety measures
not otherwise required by law. The board imposed
other safety measures based on proposals made by the
parties and on its own initiative. In each instance, the
board’s factual findings were supported by substantial
evidence. The board balanced the pros and cons of the
project and entered a reasonable decision based on the
evidence presented. The decision is supported by
substantial evidence.

6

As of the time of hearing, the parent companies included Energy
Transfer Partners, Sunoco Logistics, and Phillips 66. (Transcript,
pp. 2177-78).

App. 90
III. Eminent Domain
A. Standard of Review
Petitioners also argued that the board’s
interpretation of law as to its findings of eminent
domain should not to be granted deference by the court.
The court views this issue differently than the
deference to be granted the board to interpret “public
convenience and necessity” for purposes of deciding
whether to grant a permit. Admittedly, the two
provisions of law are tied together, but there are
independent grounds to give greater scrutiny to the
legal interpretation of the eminent domain claims.
Petitioners’ primary arguments against eminent
domain rely on Iowa Code chapter 6A. There is no
indication that the legislature gave the board vested
authority to interpret chapter 6A.7 Many of the terms
from that statute are common in the law and not
within the specialized expertise of the board. Moreover,
statutes that delegate the power of eminent domain are
“strictly construed and restricted to their expression
and intention,” thus requiring greater review by the
courts. See Hawkeye Land Co. v. Iowa Utilities Bd., 847
N.W.2d 199, 208 (Iowa 2014). Accordingly, review on
the eminent domain questions shall be for errors of
law.

7

This is likely due to reasons that are discussed in the legal review
of this decision.

App. 91
B. Review of the Statutory Scheme
The legislature clearly gave the board authority to
grant rights of eminent domain to pipeline companies.
The very purpose of the governing statute, as stated by
the legislature, is:
to grant the utilities board the authority
to implement certain controls over
hazardous liquid pipelines to protect
l a n d o w n e r s and t e n a n t s f r o m
environmental or economic damages
which may result from the construction,
operation, or maintenance of a hazardous
liquid pipeline or underground storage
facility within the state, to approve the
location and route of hazardous liquid
pipelines, and to grant rights of eminent
domain where necessary.
Iowa Code § 479B.1 (emphasis added). The power to
grant eminent domain is described in more detail in
Iowa Code section 479B.16. That section vests the right
of eminent domain with any pipeline company that is
granted a permit by the board, to the extent necessary
as approved by the board and subject to other
limitations set forth in the statute. The statute
authorizes the board to grant additional eminent
domain rights if the pipeline company can show that a
greater area is needed for the property construction,
operation, and maintenance of the pipeline.
Notwithstanding the clarity of the board’s duties
and powers to grant eminent domain pursuant to
chapter 479B, petitioners claim that the board was

App. 92
prohibited from doing so based on Iowa Code chapter
6A, which is the state’s general eminent domain
statute. Chapter 6A grants authority of eminent
domain to the state, to the federal government
(through the state), counties, cities, and private
parties. There is no indication in the code that the
provisions in chapter 6A are intended to limit the
authority of eminent domain granted in chapter 479B.
In fact, there is language in chapter 6A showing the
legislative intent to defer to other statutes granting
eminent domain to entities under the jurisdiction of the
board. Based on the language used in both chapters,
the court finds no basis for belief that the provisions in
chapter 6A are intended to limit the rights to eminent
domain granted in chapter 479B.
Petitioners first cite to Iowa Code section 6A.21,
which limits the ability to condemn “agricultural land”
by defining a “public use,” “public purpose,” and “public
improvement” to exclude agricultural land unless the
owner of the land consents. Iowa Code §6A.21(1).
However, the section goes on to state that:
This limitation also does not apply to
utilities, persons, companies, or
corporations under the jurisdiction of the
Iowa utilities board in the department of
commerce or to any other utility conferred
the right by statute to condemn private
property or to otherwise exercise the
power of eminent domain.
Iowa Code § 6A.21(2).

App. 93
Dakota is clearly a company or corporation under
the jurisdiction of the board. Dakota is subject to the
jurisdiction of the board pursuant to the permit process
established in chapter 479B. That chapter clearly
anticipated that proposed pipelines would cross
agricultural land, as section 479B.20 set out standards
applying to land restoration of agricultural lands. The
legislature granted the board express authority to
adopt rules establishing standards for restoration of
agricultural lands, as well as the ability to impose civil
penalties for any person who violates the board’s rules
or orders in that regard. Iowa Code §§ 479B.20-21.
Therefore, the limitation in section 6A.21(1) does not
apply based on the express language in the statute.
Moreover, the exception for entities under the
jurisdiction of the board shows the intent to exclude
grants of eminent domain under other statutory
schemes from the generalized provisions of chapter 6A.
Petitioners next argued that an additional
limitation established in Iowa Code section 6A.22
applies to this case. Section 6A.22 also limits the use of
eminent domain via the definitions of “public use,”
“public purpose,” and “public improvement.” The
section defines those terms to include possession,
occupation, and enjoyment of property by the general
public or governmental entities, the acquisition of an
interest in property necessary for the function of a
public or private utility, common carrier, or airport, for
redevelopment under conditions set forth in the code,
and for other purposes delineated in the statute. Iowa
Code § 6A.22(2)(a). Petitioners claim that Dakota does
not fit any categories within the definitions of “public
use,” “public purpose,” and “public improvement.”

App. 94
The language used in section 6A.22, in combination
with the legislative history, shows that it was not
intended to impact the right of eminent domain
granted in chapter 479B. Section 6A.22 was adopted in
2006 during the legislative session immediately
following the United States Supreme Court’s decision
in to Kelo v. City of New London, Conn., 545 U.S. 469
(2005). See Iowa Acts ch. 1001, § 3. In Kelo, the court
considered whether a city’s use of eminent domain to
revitalize a blighted area violated the public use clause
of the fifth amendment. The court found no
constitutional violation, but noted that state
legislatures have “broad latitude” to determine what
public needs justify use under the takings clause. Id. at
483. The adoption of section 6A.22 was clearly
responsive to the invitation laid out in Kelo. The bulk
of the 2006 amendment sets standards for the
acquisition of property to “eliminate slum or blighted
conditions,” which was exactly the issue in Kelo. See
Iowa Code § 6A.22(2)(5).
There is no indication in the 2006 amendments that
the legislature intended to modify the board’s duties
and authority to grant the right of eminent domain
under chapter 479B. The history and language shows
that the focus of the section 6A.22 was to manage
issues relating to urban renewal efforts, and not the
pre-existing standards relating to pipelines. The 2006
act did not amend any provision in chapter 479B nor
did it even reference 479B. The only amendment of
note to this case was an amendment to section 6A.21(2)
relating to the exception to entities under the
jurisdiction of the board. Previously, the exception only
applied to “utilities or persons.” The 2006 act amended

App. 95
the provision to add “companies” or “corporations”
under the jurisdiction of the board. 2006 Iowa Acts ch.
1001, § 2. Accordingly, the 2006 legislation actually
broadened (or at least clarified) the exception for
entities under the jurisdiction of the board. This shows
that the legislature had no intent to interfere with the
rights previously granted under chapter 479B.
Notwithstanding this finding, the court can still find
that eminent domain is allowed under section 6A.22 if
it finds Dakota is a “common carrier,” as the board so
found. A “common carrier” is not defined in section
6A.22 or otherwise in chapter 6A. Iowa law has defined
a common carrier as “one who undertakes to transport,
indiscriminately, persons and property for hire.”
Wright v. Midwest Old Settlers & Threshers Ass’n, 556
N.W.2d 808, 810 (Iowa 1996) (cites omitted). A common
carrier holds itself out to the public as a carrier of all
goods and persons for hire. However, a common carrier
need not serve all the public all the time. Id.
Dakota is a common carrier under this definition. It
has entered into contracts with nine third-party
shippers to transport oil via the pipeline. Dakota has
reserved ten percent of the pipeline’s capacity for walkup shipping. While there may be times that the
pipeline capacity is full, Dakota does not cease to be a
common carrier if it cannot accommodate a shipper at
all times, just like an airline does not cease to be a
common carrier if flights are booked at times. This
finding is consistent with definitions under federal law
that pipelines are common carriers. In re Trans Alaska
Pipeline Rate Cases, 436 U.S. 631, 639 (1978) (referring
to pipelines as common carriers under the Interstate

App. 96
Commerce Act); W. Ref. Sw., Inc. v. F.E.R.C., 636 F.3d
719, 724 (5th Cir. 2011) (same).
Both parties cite Mid-American Pipeline Co. v. Iowa
State Commerce Comm’n, 253 Iowa 1143, 114 N.W.2d
622 (1962) to support their positions on the common
carrier issue. In Mid-American, the pipeline company
proposed building a pipeline from Pacific Junction to
Des Moines. Id. at 623. The court acknowledged that
the pipeline may be considered a common carrier under
federal law, but was not a common carrier under state
common law because the pipeline company only
intended to ship its own products. Id. at 624-25. In this
case, the record shows that the pipeline will transport
product for several producers and reserve room for
walk-up producers. This case is distinguishable from
Mid-American.
For the reasons stated above, the board correctly
determined that it had the duty and authority
pursuant to Iowa Code sections 479B.1 and 479B.16 to
grant rights of eminent to domain to Dakota after
awarding a permit.
C. Individual Claims
1. Keith Puntenney
Keith Puntenney raised three issues: a) he argued
that the board failed to consider potential impacts to
his drain tile system; b) the board could have moved
the pipeline route to other properties; and c) he was not
afforded ample opportunity to present his case and was
denied due process. The first two claims are primarily
substantial evidence claims.

App. 97
a. Impact to Tile System: Mr. Puntenney first
argued that the board violated Iowa Code section
479B.1 by not protecting his land from environmental
and economic damages. He contended the board failed
to consider the potential impacts to the drain tile
system on his property and that the board could have
moved the pipeline route to other property.
The board heard considerable evidence on this issue
from Mr. Puntenney, professional drain tile installers,
the AIMP, and numerous questions asked of both nonexpert and expert drain tile witnesses at the hearing.
Additionally, the board heard testimony that Dakota
would install the pipeline a minimum of two feet from
existing drain tile, despite the fact that federal law
allowed for a clearance of two inches, that its
contractors had experience executing thousands of tile
repairs, and that all drain tile could and would be
repaired to its pre-construction or better condition.
When viewing the record as a whole, there is
substantial evidence supporting the board’s
determination that Mr. Puntenney’s land and tiling
system would not be harmed environmentally or
economically from the construction, operation, or
maintenance of a liquid pipeline.
b. Rerouting: Mr. Puntenney next claimed that he
intended to install three wind turbines on the land on
or around the proposed path of the pipeline. He asked
that the route be changed to accommodate his plans.
The board found that Mr. Puntenney was only in
discussions with a neighbor to “put together a
proposal.” (Final decision, p. 149). No plans were in
place. Further, the board found that the evidence did

App. 98
not show that the pipeline would interfere with future
plans to install wind turbines. The board’s decision is
supported by substantial evidence.
Mr. Puntenney also made arguments under other
provisions of Iowa Code section 17A.19(10). These other
arguments can be summarized as claiming that the
decision was arbitrary, capricious, and unreasonable.
Agency action may be challenged as arbitrary or
capricious, but only when the decision was made
“without regard to the law or facts.” Doe v. Iowa Board
of Medical Examiners, 733 N.W.2d 705, 707 (Iowa
2007) (quoting Greenwood Manor v. Iowa Dep’t of
Public Health, 641 N.W.2d 823, 831 (Iowa 2002)).
Agency action is unreasonable if the agency acted “in
the face of evidence as to which there is no room for
difference of opinion among reasonable minds[.]” Id.
The court typically defers to an agency’s informed
decision as long as it falls within a “zone of
reasonableness.” S. E. Iowa Co-op. Elec. Ass’n v. Iowa
Utilities Bd., 633 N.W.2d 814, 818 (Iowa 2001) (cite
omitted). When considering claims under the
unreasonableness standard, the courts generally affirm
the informed decision of the agency, and refrain from
substituting its less-informed judgment. Al-Khattat v.
Eng’g & Land Surveying Examining Bd., 644 N.W.2d
18, 23 (Iowa 2002).
The court rejects Mr. Puntenney’s claims under the
other provisions of section 17A.19(10). The board
carefully considered the evidence regarding Mr.
Puntenney’s concerns as to his tile system and possible
installation of wind turbines. It considered his claims
in light of the evidence presented by Dakota and the

App. 99
other parties as to the proposed route. The board
considered the competing interests in coming to a
reasonable decision. (Final decision, p. 149). It followed
the applicable law. The decision is certainly within a
zone of reasonableness. There is no violation of the
other cited provisions in Iowa Code § 17A.19(10).
Mr. Puntenney also claimed the decision was
arbitrary and capricious because he was treated
different than Patrick Lenhart and William and Anne
Smith. The decision and record shows that the board
identified rational differences between Mr. Puntenney’s
claim and those of Mr. Lenhart and the Smiths.
Mr. Lenhart owns a farming operation including
four existing turkey barns on the impacted property.
(Final decision, p. 131). Mr. Lenhart and Tyson Foods,
who own the birds, had been in discussion for two years
about expanding the facility to add three more
buildings. Mr. Lenhart was able to testify where the
buildings would be, the overall space, as well as the
size of each building. The board determined Mr.
Lenhart’s plans were well developed and re-routed the
pipeline. The board granted Mr. Lenhart’s request
based on the certainty and reliability of the evidence he
submitted. There are rational differences between his
circumstances and those of Mr. Puntenney.
The Smiths owned four parcels and did not object to
the pipeline crossing their land. (Final decision, p. 134).
They offered an alternative that would allow one of the
parcels to be missed and another to be minimally
impacted, while allowing greater impact on the other
two. Dakota believed it could work with the Smiths to
accommodate their concerns. The board found the

App. 100
Smiths concerns to be reasonable and directed Dakota
to continue to work with them. Once again, the
circumstances involving the Smiths were distinct from
those involving Mr. Puntenney.
c. Due Process: Finally, Mr. Puntenney argued he
was denied due process and did not have an
opportunity to present evidence on the issues he raised.
The requirements of due process are well established
as: 1) notice; and 2) a meaningful opportunity to be
heard. Blumenthal Inv. Trusts v. City of W. Des Moines,
636 N.W. 2d 255, 264 (Iowa 2001). Upon review of the
record, Mr. Puntenney was provided notice and given
an opportunity to present his case. He filed an
objection, was added as an intervening party,
presented filed testimony, cross-examined witnesses,
admitted thirty exhibits into the record, and testified
live at the hearing. Mr. Puntenney was granted due
process.
2. LaVerne Johnson
LaVerne Johnson’s claim is reviewed under the
same standards set forth in Iowa Code Section 17A.19
and as discussed in Mr. Puntenney’s claim.
Mr. Johnson argued that the board failed to consider
potential impacts to his drain tile system situated on
his property. The board clearly considered his claim,
but found that the evidence did not support his request.
The board imposed a condition on the pipeline to be
bored under Mr. Johnson’s 24-inch tile main. (Final
decision, p. 127). This condition taken together with the
board’s consideration of multiple lay and expert
witnesses, company representatives, professional

App. 101
engineers, agronomists, and its own staff engineers,
shows substantial evidence to support their conclusion.
IV. Constitutional Claims
Petitioners claim that the board’s decision to grant
Dakota eminent domain over their land violated the
public use clause of the United States Constitution. See
U.S. Constitution, Amend. 5; see also Iowa
Constitution, Art. I, § 18. The parties cite to Kelo v.
City of New London, Conn., 545 U.S. 469 (2005), in
which the United States Supreme Court narrowly
approved a governmental taking pursuant to the public
use clause.
In Kelo, a city sought to excise imminent domain
over a number of properties in a blighted area with the
goal to revitalize the area to promote jobs and tax
revenue. Kelo, 545 U.S. at 473-75. The plaintiffs, who
owned non-blighted properties within the area
proposed for economic development, claimed the action
violated the public use clause of the fifth amendment.
The court framed the discussion by stating the
following:
Two polar propositions are perfectly clear.
On the one hand, it has long been
accepted that the sovereign may not take
the property of A for the sole purpose of
transferring it to another private party B,
even though A is paid just compensation.
On the other hand, it is equally clear that
a State may transfer property from one
private party to another if future “use by
the public” is the purpose of the taking;

App. 102
the condemnation of land for a railroad
with common-carrier duties is a familiar
example.
Kelo, 545 U.S. at 477. The court noted that the
interests of society vary across the country and have
changed over time. Id. at 482. The court further noted
that prior decisions have given legislatures broad
latitude in determining what public needs justify use
under the takings clause. Id. at 483. In Kelo, the city’s
action was authorized by statute, was “carefully
formulated,” and was expected to provide appreciable
benefits to the community. Id. The court found that the
public use clause was not violated, holding that the
comprehensive plan setting forth the public interest
prevailed over the individual interests of the
landowners (who would be paid just compensation for
their land). Id. at 484.
The court declined to adopt a bright-line rule
holding that economic development does not qualify as
a public use. Id. at 484. Rather, the court held that
“promoting economic development is a traditional and
long-accepted function of government.” Id. The court
rejected a claim that the city prove a “reasonable
certainty” that the expected public benefits would
actually accrue. Id. at 487. The court found that such
a claim, as a constitutional rule, would impose a
“significant impediment to the successful
consummation” of condemnation plans. Id. at 488.
The court emphasized that “nothing in our opinion
precludes any State from placing further restrictions on
its exercise of the takings power.” Id. at 489. In fact, it

App. 103
recognized that many states imposed public use
requirements “stricter than the federal baseline.” Id.
The taking in this case is much less intrusive than
that in Kelo. In Kelo, the city took the property of longtime landowners – they had to give up their property
entirely. In this case, the landowners keep their land.
The board acted pursuant to statutory authority set
forth in Iowa Code chapter 479B, which specifically
includes the authority to grant eminent domain
following the issuance of a hazardous liquid pipeline
permit. See Iowa Code § 479B.16. The legislature did
not amend the board’s authority to grant eminent
domain under chapter 479B when it amended other
statutes granting the right to eminent domain in 2006
following the Kelo decision. The board put into place a
number of terms and conditions that Dakota must
meet. Those terms and conditions should minimize the
impact on land during construction and reduce the risk
of future harm. Petitioners have not shown a
constitutional taking based on the legal principles set
forth in Kelo.
Petitioners cite the Iowa Supreme Court’s decision
in Clarke County Reservoir Comm’n v. Robins, 862
N.W.2d 166, 176 (Iowa 2015).8 Six agencies located in
Clarke County filed an agreement under Iowa Code
chapter 28E to create the Clarke County Reservoir
8

Clarke County cited the United States and Iowa constitutional
provisions limiting takings of private property, but it was not
decided on constitutional grounds. Rather, the court cited the
constitutional provisions as part of its longstanding practice of
requiring strict compliance with statutory requirements for
exercise of eminent domain. Id. at 172.

App. 104
Commission (the commission). Id. at 168. The
commission attempted to use eminent domain to take
properties as part of a proposed lake/water project. The
court rejected the plan because no statute allows a
chapter 28E entity the power of eminent domain. Id. at
176. The court distinguished Weiss v. City of Denison,
491 N.W.2d 805, 807-08 (Iowa App. 1992), in which a
city, which was a party to a 28E agreement, used its
power of eminent domain to acquire land and then
transferred that land to the 28E entity. In Weiss, the
city clearly had the power to use eminent domain, so
the use was lawful. The supreme court confirmed that
Weiss remained good law.
Clarke County is distinguishable from the present
case. The board unquestionably has the power of
eminent domain under the statutory provisions
discussed earlier in this decision. The board utilized
eminent domain as envisioned by the statute. Weiss is
actually a closer call than this case because the end
result was to transfer the property to the 28E entity,
which did not have the power of eminent domain
outside its agreement with the city. In this case, a
statute provides a clear line for the board to grant
eminent domain to Dakota.
The court found no other controlling authority that
would change the analysis as set forth in Kelo. There
likewise is no indication that the Iowa Supreme Court
would interpret the Iowa Constitution provision
differently than the federal statutory provision. The
board’s action did not violate the United States or Iowa
Constitutions.

App. 105
Petitioners cite to recent out-of-state cases to
attempt to show a trend of courts limiting the authority
of states to grant eminent domain to pipeline
companies. One of those cases, Mountain Valley
Pipeline, LLC v. McCurdy, 238 W. Va. 200, 793 S.E.2d
850, 855 (2016), involved a company seeking to build a
natural gas pipeline that would ship natural gas from
producers within the state to buyers out of the state.
The governing statute granted a company the power of
eminent domain to construct, maintain, and operate
natural gas “when for public use.” Id. (citing West
Virginia Code § 54–1–2). The West Virginia courts had
used a “fixed and definite use test” to interpret “public
use” for more than 130 years. In order to meet the fixed
and definite use test required a proponent to prove
that:
[the] general public must have a right to
a certain definite use of a private property
on terms and for charges fixed by law;
and the owner of the property must be
compelled by law to permit the general
public to enjoy it. It will not suffice, that
the general prosperity of the community
is promoted by the taking of private
property from the owner and transferring
its title and control to another, or to a
corporation to be used by such other or by
such corporation as its private property
uncontrolled by law as to its use. Such
supposed indirect advantage to the
community is not in contemplation of law
a public use. Id. at 256.

App. 106
In the West Virginia case, the pipeline company could
not show that any consumers in West Virginia would
benefit from the pipeline. Id. at 860-61. Accordingly,
the court found under its long-standing legal test that
eminent domain could not be granted to the pipeline
because the only public benefit would be to people
outside the state. Id. at 862.
There are distinctions between the West Virginia
case and this case. Iowa has not adopted the fixed or
definite use test. Iowa has not strictly confined any
definition of public use solely to consumers in Iowa. As
discussed earlier in this decision, section 479B.2(3)
specifically defines the term “pipeline” to mean an
“interstate pipe or pipeline.” This shows the
legislature’s intent that the pipelines subject to
regulation under chapter 479B will be shipping across
state lines. There is no indication in the statute that
the legislature restricted approval of permits to
companies that only shipped hazardous liquids into
Iowa to be directly used by Iowa consumers. The West
Virginia decision does not impact the reasoning of this
case.
Petitioners also cited a recent Kentucky case
involving a pipeline that was intended to ship product
out of state. Bluegrass Pipeline Co., LLC v. Kentuckians
United to Restrain Eminent Domain, Inc., 478 S.W.3d
386, 392 (Ky. App. 2015). In Kentucky, the relevant
test to grant eminent domain is whether the pipeline is
“in public service.” Id. However, the court found that
eminent domain could only be granted under Kentucky
law if the pipeline company was regulated by the
state’s Public Service Commission (PSC). Id. The

App. 107
applicant was not regulated by the PSC, so the court
could not grant eminent domain. Id. Secondarily, the
court noted that the pipeline would not meet the
definition of “in public service” because the product was
being shipped to the Gulf of Mexico and not reaching
Kentucky consumers.
The Kentucky case is distinguishable for similar
reasons as the West Virginia case. Dakota’s pipeline is
clearly regulated by the board under the provisions of
chapter 479B. Iowa’s test is not restricted to only
allowing eminent domain for pipelines that provide
product for consumers in Iowa. These cases do not
impact the reasoning under established Iowa law.
RULING
The petitions for judicial review are denied. The
decision of the Iowa Utilities Board is affirmed.
Petitioners are responsible to pay all court costs.
[SEAL]
State of Iowa Courts
Type:

OTHER ORDER

Case Number
CVCV051997

Case Title
RICHARD LAMB ET AL VS IOWA
UTILITIES BOARD
So Ordered
/s/
Jeffery Farrell, District Court Judge,
Fifth Judicial District of Iowa

Electronically signed on 2017-02-15 08:25:24

App. 108

APPENDIX C
STATE OF IOWA
DEPARTMENT OF COMMERCE
UTILITIES BOARD
DOCKET NO. HLP-2014-0001
[Issued March 10, 2016]
__________________________
IN RE:
)
)
DAKOTA ACCESS, LLC
)
__________________________ )
FINAL DECISION AND ORDER
TABLE OF CONTENTS
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . 4
INFORMATIONAL MEETINGS . . . . . . . . . . . . . 5
INTERVENTIONS . . . . . . . . . . . . . . . . . . . . . . . . 6
HEARINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

Will the Proposed Pipeline Promote
the Public Convenience and
Necessity? . . . . . . . . . . . . . . . . . . . . . . . 10
a. What Benefits Can be Considered? . . . . . 17

App. 109
II.

Global Issues . . . . . . . . . . . . . . . . . . . . 21
a. Climate Change . . . . . . . . . . . . . . . . . . . . 21
b. World Market . . . . . . . . . . . . . . . . . . . . . . 24

III.

National Issues . . . . . . . . . . . . . . . . . . 25

a. Energy Independence and Security. . . . . 25
b. Rail Transport vs. Pipelines . . . . . . . . . . 28
c. Impact on Grain Shipments . . . . . . . . . . 33
d. Sale of Crude Oil to Foreign Markets . . . 35
e. Depletion of Bakken/Three Forks Oil
Reserves . . . . . . . . . . . . . . . . . . . . . . . . . . 37
f. National Alternatives to Crude Oil
Pipelines . . . . . . . . . . . . . . . . . . . . . . . . . . 39
g. Permits and Authorizations . . . . . . . . . . 41
IV.

State Issues. . . . . . . . . . . . . . . . . . . . . . 41
a. Economic Benefits . . . . . . . . . . . . . . . . . . 41
b. Environmental Issues . . . . . . . . . . . . . . . 47
c. Safety Issues. . . . . . . . . . . . . . . . . . . . . . . 54
d. Oil Spill Remediation. . . . . . . . . . . . . . . . 58
e. Cultural Issues . . . . . . . . . . . . . . . . . . . . . 63

V.

Route Issues . . . . . . . . . . . . . . . . . . . . . 65
a. Compliance with Iowa Code § 479B.5 . . . 65

App. 110
VI.

Terms and Conditions Applicable to
Overall Route . . . . . . . . . . . . . . . . . . . . 69
a. Dakota Access Commitments . . . . . . . . . 69
b. Permits and Authorizations . . . . . . . . . . 71
c. Agricultural Impact Mitigation Plan . . . 74
d. Proposed Modifications to Easement
Forms . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83
e. Environmental Issues . . . . . . . . . . . . . . . 91
f. SEHN Proposals. . . . . . . . . . . . . . . . . . . 100
g. Other OCA Proposals. . . . . . . . . . . . . . . 101
h. Sierra Club Proposals . . . . . . . . . . . . . . 103
i. Puntenney Proposals . . . . . . . . . . . . . . . 104
j. Farm Bureau Proposals . . . . . . . . . . . . . 105
k. Compensation for Eminent Domain
Parcels . . . . . . . . . . . . . . . . . . . . . . . . . . 107

VII.

Final Analysis of the Public
Convenience and Necessity . . . . . . 108

VIII. Board’s Authority to Grant Eminent
Domain . . . . . . . . . . . . . . . . . . . . . . . . 114
a. Constitutional Issues . . . . . . . . . . . . . . . 115
b. Statutory Issues . . . . . . . . . . . . . . . . . . . 117
c. Individual Eminent Domain Parcels. . . 122

App. 111
Boone County. . . . . . . . . . . . . . . . . . . 125
John A. Burkhart, H-BO-001
(IA-BO-018) . . . . . . . . . . . . . . . . . . . . 125
LaVerne
Johnson:
H-BO-047
(IA-BO-028) and H-BO-048
(IA-BO-033) . . . . . . . . . . . . . . . . . . . . 126
Judith Anne Lamb Revocable Trust,
H-BO-032 (IA-BO-134), and Richard
R. Lamb Revocable Trust, H-BO-033
(IA-BO-136) . . . . . . . . . . . . . . . . . . . . 128
Buena Vista County . . . . . . . . . . . . . 129
Martha A. Murray, H-BU-031
(IA-BU-020) . . . . . . . . . . . . . . . . . . . . 129
Michael G. Lenhart, Retha A. Lenhart,
Patrick G. Lenhart, and Carol J.
Lenhart, H-BU-008 (IA-BU-073) . . . 126
Brent N. Jesse, Shawn B. Jesse,
Darren D. Jesse and Wendi J. Taylor,
HBU-021 (IA-BU-096) and H-BU-022
(IA-BU-105); ERN Enterprises, Inc.,
HBU-061 (IA-BU-097) . . . . . . . . . . . 126
Calhoun County. . . . . . . . . . . . . . . . . 133
Prendergast
Enterprise,
Inc.,
H-CA-041 (IA-CA-157.501) . . . . . . . . 133

App. 112
Cherokee County . . . . . . . . . . . . . . . 134
William R. Smith and Anne C. Smith,
H-CH-015 (IA-CH-080), H-CH-016
(IACH-082), and H-CH-024
(IA-CH-083); Marie J. Smith
Revocable Trust, HCH-012
(IA-CH-081). . . . . . . . . . . . . . . . . . . . 134
Marian D. Johnson, H-CH-019
(IA-CH-025) and H-CH-020
(IA-CH-026). . . . . . . . . . . . . . . . . . . . 135
Jasper County . . . . . . . . . . . . . . . . . . 136
Cornlan Farms, Inc., H-JA-017
(IA-JA-020) . . . . . . . . . . . . . . . . . . . . 136
Sondra K. Feldstein, H-JA-002
(IA-JA-040) . . . . . . . . . . . . . . . . . . . . 137
William J. Gannon and Kathleen
Kennedy Gannon, H-JA-014
(IA-JA-012); Max E. Maggard, Trustee
of the Max E. Maggard and Gloria
Joyce Maggard Joint Revocable Trust,
H-JA-018 (IA-JA-048) and H-JA-019
(IA-JA-051) . . . . . . . . . . . . . . . . . . . . 138
Herman
C.
Rook,
H-JA-025
(IA-JA-201) . . . . . . . . . . . . . . . . . . . . 139
Lee County . . . . . . . . . . . . . . . . . . . . . 140
Hugh
E.
Tweedy,
H-LE-028
(IA-LE-171) . . . . . . . . . . . . . . . . . . . . 140

App. 113
Mahaska County . . . . . . . . . . . . . . . . 141
Grandma’s
Place,
H-MA-013
(IA-MA-196) and AIM Acres, L.C.,
H-MA-007 (IA-MA-198) . . . . . . . . . . 141
O’Brien County . . . . . . . . . . . . . . . . . 142
Ruth Portz
Konz,
H-OB-001
(IA-OB-003) . . . . . . . . . . . . . . . . . . . . 142
Sioux County . . . . . . . . . . . . . . . . . . . 143
Double-D Land & Investments, LLC,
H-SI-018 (IA-SI-073) . . . . . . . . . . . . 143
Story County . . . . . . . . . . . . . . . . . . . 144
Richard G. Begg and Carole Lee
Sorenson Begg Revocable Living Trust,
HST-001 (IA-ST-020) . . . . . . . . . . . . 144
Walnut Creek Limited Partnership,
H-ST-002 (IA-ST-025) and H-ST-007
(IA-ST-027); Lowman Brothers, Inc.,
H-ST-006 (IA-ST-026) . . . . . . . . . . . 145
Arlene Bates and Leona O. Larson,
H-ST-003 (IA-ST-070.500) . . . . . . . . 146
Wapello County . . . . . . . . . . . . . . . . . 147
Hickenbottom Experimental Farms,
Inc., H-WA-016 (IA-WA-061.300) . . . 147
Webster County . . . . . . . . . . . . . . . . . 148
Keith D. Puntenney, H-WE-004
(IA-WE-078). . . . . . . . . . . . . . . . . . . . 148

App. 114
Carolyn A. Lambert, Life Estate,
H-WE-026 (IA-WE-101) . . . . . . . . . . 149
Parcels Owned by or Affiliated with
Governmental Entities. . . . . . . . . . . 150
Iowa Department of Transportation,
H-JA-026 (IA-JA-004.001) . . . . . . . . 150
Jasper County Conservation Board,
H-JA-016 (IA-JA-015.910) . . . . . . . . 150
State of Iowa, Department of Natural
Resources, H-LY-011 (IA-LY-004) . . 150
State of Iowa, H-ST-017, (IA-ST-001) .150
Story County, Iowa, H-ST-030
(IA-ST -064.500.900). . . . . . . . . . . . . 150
Iowa State College of Agriculture and
Mechanic Arts, H-BU-004
(IA-BU-131) . . . . . . . . . . . . . . . . . . . . 150
Board of Regents, State of Iowa,
H-ST-005 (IA-ST-013) . . . . . . . . . . . 151
Committee
for
A g r i c u l tur a l
Development, H-ST-018 (IA-ST-002)
and H-ST-026 (IA-ST-010) . . . . . . . . 151
Iowa State University Achievement
Foundation, H-ST-024 (IA-ST-003)
and H-ST-025 (IA-ST-006) . . . . . . . . 151
XI.

Conclusion . . . . . . . . . . . . . . . . . . . . . 152

ORDERING CLAUSES . . . . . . . . . . . . . . . . . . 153

App. 115
INTRODUCTION
On October 29, 2014, the Utilities Board (Board)
opened Docket No. HLP-2014-0001 so that Dakota
Access, LLC (Dakota Access), could hold public
informational meetings as required by Iowa Code
§ 479B.4 and 199 IAC 13.3. Following those meetings,
on January 20, 2015, Dakota Access filed with the
Board a petition for a hazardous liquid pipeline permit
pursuant to Iowa Code ch. 479B. Dakota Access seeks
a permit to construct approximately 346 miles of
30-inch diameter crude oil pipeline through Iowa as
part of a 1,168 mile project to carry oil from the Bakken
area near Stanley, North Dakota, to an oil transfer
station, or hub, near Patoka, Illinois. (Petition,
Paragraph II; Dakota Access Exh. DAV Direct at 2, 9.)
Iowa Code § 479B.1 grants the Board authority to
“implement certain controls over hazardous liquid
pipelines to protect landowners and tenants from
environmental or economic damages which may result
from the construction, operation, or maintenance of a
hazardous liquid pipeline … to approve the location
and route of hazardous liquid pipelines, and to grant
eminent domain where necessary.”
Iowa Code § 479B.2(3) defines a “pipeline” as “an
interstate pipe or pipeline and necessary
appurtenances used for the transportation or
transmission of hazardous liquids.” Iowa Code
§ 479B.2(2) defines “hazardous liquid” as including
“crude oil.” Thus, the proposed pipeline is subject to the
requirements of Chapter 479B.
Once at the Patoka hub, the crude oil can be
transported through other pipelines to refineries in the

App. 116
Midwest or on the Gulf Coast. (Dakota Access Exh.
DRD Direct at 18.) Initially, the proposed pipeline will
have a capacity of approximately 450,000 barrels per
day; this can be increased to 570,000 barrels per day.
(Dakota Access Exh. DRD Direct at 4.)
INFORMATIONAL MEETINGS
As previously noted, public informational meetings
required by Iowa Code § 479B.4 and 199 IAC 13.3 were
held by Dakota Access in each of the 18 counties in
which real property or property rights would be
affected by the proposed project. Board staff
representatives attended each meeting as required by
Iowa Code § 479B.4. Dakota Access gave notice to each
owner of land affected by the proposed project and each
person in possession of or residing on such property
(hereinafter collectively referred to as “landowners”)
and published notice in each county as required by the
statute. Copies of the published notices were filed by
Dakota Access on October 29, 2014, as “Legal Notices
for the 18 Counties Included in the Proposed Project”
and forms showing the informational meeting notices
sent to landowners were filed the same day.
INTERVENTIONS
On June 8, 2015, the Board issued an “Order
Setting Procedural Schedule,” establishing (among
other things) an intervention deadline of July 27, 2015.
However, the Board acknowledged that “owners of land
affected by the proposed pipeline may petition for, and
be granted, intervention after the deadline, and up to
the date of the hearing, but those who delay
intervention beyond the established deadline may be

App. 117
required to accept the procedural schedule as they find
it.” (Order at 2.) The order also established the dates
for all parties to submit pre-filed testimony and other
exhibits and informed the public that the Board had
reserved the weekdays of November 12 through
December 2, 2015, for the hearing in this matter. Board
rules at 199 IAC 13.2(1)(h) prohibit scheduling the
hearing until Petition Exhibit H, the condemnation
filing, is in final form. That exhibit had not been filed
at the time of the order, so the hearing could not
actually be scheduled as part of the June 8, 2015,
order.
Thirty-eight parties petitioned for intervention in a
timely manner and those petitions were all granted by
order issued August 19, 2015. Five late-filed petitions
to intervene were granted by orders issued October 14
and November 13, 2015. In total, the following parties
were granted intervention:
Intervention granted August 19, 2015, only to monitor
the filings:
Daniel K. Hickenbottom, H. Keith Hickenbottom,
Diana L. Hickenbottom, Amy K. Finchum, and Darlene
J. Hickenbottom (hereinafter referred to as
Hickenbottom)
Sandra Easter (Easter)
Kevin Lambert (Lambert)
Paul Berland (Berland)

App. 118
Intervention granted August 19, 2015, with full right to
participate:
Eric LeSher (LeSher)
Iowa Farmland Owners Association, Inc. (IFOA)
Midwest Alliance for Infrastructure Now (MAIN)
Keith D. Puntenney (Puntenney)
Iowa Association of Business and Industry (IABI)
Ed Fallon (Fallon)
United Association of Journeymen and Apprentices of
the Plumbing and Pipe Fitting Industry of the United
States and Canada, AFL-CIO (AFL-CIO)
Laborers’ International Union of North America, Great
Plains Laborers’ District Council, and Iowa Local
Unions 620, 353, and 538 (LiUNA)
Science and Environmental Health Network (SEHN)
Sierra Club Iowa Chapter (Sierra Club)
Iowa Citizens for Community Improvement, Jim
Stovers, and Joe Reutter (Iowa CCI)
International Brotherhood of Teamsters (Teamsters)
Laverne I. Johnson (Johnson)
Herman C. Rook (Rook)
60 Plus Association (60 Plus)
Northwest Iowa Landowners Association (NILA)

App. 119
Kriss Wells (Wells)
No Bakken Here
Max E. Maggard, Trustee of the Max E. Maggard and
Gloria Joyce Maggard Joint Revocable Trust (Maggard)
William J. Gannon (Gannon)
Charles Isenhart (Isenhart)
International Union of Operating Engineers Local 234
(Local 234)
Linda Sorenson (Sorenson)
Channing Dutton (Dutton)
Joseph C. Reutter PE (Reutter)
Hugh E. Tweedy (Tweedy)
John Zakrasek (Zakrasek)
Ralph C. Watts (Watts)
Albemarle Farm, LLC (Albemarle Farm)
The Iowa Farm Bureau Federation (Farm Bureau)
The National Association of Manufacturers (NAM)
Iowa State Grange (Grange)
Stephen B. Boesen II (Boesen)
Kim Triggs (Triggs)
Intervention granted October 14, 2015, with full right to
participate, subject to remaining procedural schedule:
KEEP Farms LLC (KEEP Farms)

App. 120
Kathleen Parker (Parker)
Wilma Jean Groseclose (Groseclose)
Double-D Land & Investment, LLC (Double-D)
Intervention granted November 13, 2015, with full right
to participate, subject to remaining procedural
schedule:
Richard R. Lamb, trustee of the Richard R. Lamb
Revocable Trust; Marian D. Johnson by her agent
Verdell Johnson; and Brent Jesse (Lamb, et al.)
On September 16, 2015, the Board issued an order
taking official notice pursuant to Iowa Code § 17A.14(4)
of a Staff Report indicating that Petition Exhibit H was
now in final form (in the sense that it was complete and
in substantial compliance with the applicable filing
requirements). Accordingly, the Board scheduled the
hearing in this matter to commence at 9 a.m. on
Thursday, November 12, 2015.
HEARING
The first day of the hearing in Boone, Iowa, on
November 12, 2015, was for receiving public comments
on the proposed pipeline. Over 200 people offered
comments, both in support of and against issuance of a
permit.
On the following Monday, November 16, 2015, the
Board convened the evidentiary hearing. The witnesses
had filed prepared direct testimony and were made
available for cross-examination, Board questions, and
redirect examination; 69 witnesses took the stand. The
evidentiary hearing continued for 11 days, including

App. 121
November 17-19, 23-24, and 30 and December 1-3 and
7, 2015. The transcript ran to just over 3,500 pages.
Due to the cost of a complete copy of the transcript and
the fact that several parties were appearing pro se, the
Board purchased additional copies of the transcript
that could be checked out by the parties for use in
preparing their post-hearing briefs. (“Order
Establishing Briefing Schedule and Providing Outline
for Brief” issued December 18, 2015.)
ISSUES
I.

Will the Proposed Pipeline Promote the
Public Convenience and Necessity?

Iowa Code § 479B.9 governs the Board’s decision
when considering a petition for a permit to construct,
operate, and maintain a hazardous liquid pipeline.
That statute provides as follows:
The board may grant a permit in whole or
in part upon terms, conditions, and
restrictions as to location and route as it
determines to be just and proper. A
permit shall not be granted to a pipeline
company unless the board determines
that the proposed services will promote
the public convenience and necessity.
Thus, the Board must decide whether the proposed
Dakota Access pipeline will “promote the public
convenience and necessity.”
Some of the parties have argued that “public
convenience and necessity” should be defined in
dictionary terms, that is, “public convenience” means

App. 122
service to the public and “necessity” means it will fill a
need otherwise unfulfilled. (SEHN In. Br. at 2; Sierra
Club In. Br. at 4-5.) Under this analysis, the proposed
pipeline is not a necessity because it is not absolutely
required in order to move crude oil from the Bakken
region to the market; other pipelines, railways, and
trucking companies are already doing that.
(Tr. 138-141.) Similarly, they argue, the proposed
pipeline will not promote the public convenience of
Iowans because it will not accept or deliver any crude
oil in the State of Iowa and the refined products
produced from the crude oil may not be delivered to
Iowans. (Tr. 137.) In fact, it is possible that none of the
refined products will remain in the United States.
(Tr. 107-08.)
Dakota Access says that the term “public
convenience and necessity” is not a high bar; “the
question is whether there is a demonstrable role for the
project that satisfies any kind of need.” (In. Br. at 3,
emphasis in original.) Further, the Iowa Supreme
Court has held that the word “convenience” is broader
and more inclusive than the word “necessity” and in
this context “necessity” means “not absolute but
reasonable necessity.” Thompson v. Iowa St. Commerce
Comm’n, 15 N.W.2d 603, 606 (Iowa 1944). Dakota
Access argues that the need for the proposed pipeline
has been verified in the open market, as shippers have
signed contracts committing to use 90 percent of the
planned volume of the pipeline and those contracts
require the shippers to pay for that capacity even if it
is not used, an arrangement known as a “take or pay”
contract. (Exh. DRD Dir. 5-6; Tr. 44, 891, 916-17.)

App. 123
Dakota Access says the pipeline is needed to serve this
demand for transportation services. (In. Br. 8-9.)
MAIN notes that the definition of “pipeline” in Iowa
Code § 479B.2(3) means “an interstate pipe or pipeline
and necessary appurtenances used for the
transportation or transmission of hazardous liquids.”
(Emphasis added.) MAIN concludes that for the
statutory framework of chapter 479B to be effective, it
must be construed to provide that an interstate oil
pipeline such as the proposed Dakota Access line can
“promote the public convenience and necessity” as
required by Iowa Code § 479B.9. (In. Br. at 5-6.) If the
public convenience and necessity standard is
interpreted to require that the pipeline must provide
service to the public in Iowa, then an interstate
pipeline carrying crude oil across Iowa could never be
approved and chapter 479B would be meaningless,
according to MAIN. (Id. at 6-7.) Further, and as
discussed below, MAIN argues that the proposed
pipeline serves the public interest and the public
convenience and necessity by providing additional
infrastructure for transporting crude oil from the
Bakken region to the market; by providing a more safe,
more efficient, and more economical means of
transportation; by increasing the economic well-being
of the State of Iowa; and by contributing to the energy
independence and security of the United States.
LiUNA says that Iowa courts have held that the
determination of whether a proposed service will
promote the public convenience and necessity is a
legislative, not a judicial, function, citing Application of
National Freight Lines, 40 N.W.2d 612, 616 (Iowa

App. 124
1950). LiUNA suggests that a broad view should be
taken of the public benefits to be provided by the
proposed pipeline, as the transportation of oil from
source to refinery is necessary because the citizens of
Iowa and of the United States are dependent on the use
of petroleum products. (In. Br. at 3.)
Sierra Club has argued that the public convenience
and necessity require that there be some service
provided directly to the general public. (Sierra Club
Init. Br. 4.) However, Sierra Club also argues that
“convenience and necessity” as a phrase is essentially
a symbol that represents a determination of whether
the public benefit to be derived from the proposed
project justifies granting the requested permit. (Id. at
6-7, citing Professional Mobile Home Transport v.
Railroad Comm’n of Texas, 733 S.W.2d 892
(Tx. App. 1987).) Sierra Club says that this broader
determination requires consideration of the benefits
and detriments of the proposal, including issues
associated with environmental damage and eminent
domain. (Id.)
IFOA recognizes Board precedent holding that
“public convenience and necessity” is not specifically
defined for a reason; instead, “the term’s indefiniteness
is intentional and reflects a delegation by the
legislature to the Board of the power to identify for
itself what factors and circumstances should bear on its
determination.” In re Heartland Pipeline Co., Docket
No. HLP-98-6, “Proposed Decision and Order Granting
Permit,” 1999 WL 35236260, at 5-6 (Iowa Utils. Bd.
1999), citing Application of National Freight Lines, 40
N.W.2d 612, 616 (Iowa 1950). IFOA also argues that

App. 125
the “customary standard” and the only measure of
public convenience and necessity is whether the project
will ultimately provide services to Iowa businesses and
customers, citing In re MidAmerican Energy Co.,
Docket No. P-831, “Proposed Decision and Order
Granting Permit,” 1995 WL 70092 at 14-15 (Iowa Utils.
Bd. 1995).
Ms. Sorenson cites cases holding that in
interpreting the phrase at issue, “the word ‘necessity’
is not used in its lexicographical sense of ‘indispensably
requisite.’” Rather, Sorenson argues the courts have
defined the term by reference to the context and to the
purposes of the statute in which it is found. (Sorenson
In. Br. at 6, quoting San Diego & Coronado Ferry Co.
v. Railroad Comm’n of Cal., 292 P. 640, 643 (Cal. 1930)
(citations omitted).)
Board analysis. As indicated above, the Board must
decide whether the proposed Dakota Access pipeline
will “promote the public convenience and necessity.”
Public convenience and necessity is not defined in the
statute; the indefiniteness of the term is intentional
and reflects a delegation of authority to the Board of
the power to identify for itself what factors and
circumstances should bear on its determination in any
specific situation. Application of National Freight
Lines, 241 Iowa 179, 40 N.W.2d 612, 616 (1950). The
Board has acknowledged this flexibility in the past; In
re: Heartland Pipeline Co., 1999 WL 3526260 (I.U.B.
1999), slip op. at 5.
Further, in this context the word “necessity” does
not always have its ordinary meaning of
“indispensable.” Wabash, C. & W. Ry. Co. v. Commerce

App. 126
Comm’n, 309 Ill. 412, 141 N.E. 212, 214 (1923). As the
Wabash Court noted, if “necessity” meant
“indispensably requisite” in the context of a finding of
“public convenience and necessity,” no such finding
would ever be made. Rather, the word
connotes different degrees of necessity. It
sometimes means indispensable; at
others, needful, requisite, or conducive. It
is relative rather than absolute. No
definition can be given that would fit all
statutes. The meaning must be
ascertained by reference to the context,
and to the objects and purposes of the
statute in which it is found.
Id., citations omitted.
Much the same is true of the word “convenience”
when used in § 479B.9. As the Iowa Supreme Court has
held,
The word “convenience” is much broader
and more inclusive than the word
“necessity.” Most things that are
necessities are also conveniences, but not
all conveniences are necessities…the
word “necessity” has been used in a
variety of statutes…It has been generally
held to mean something more nearly akin
to convenience than the definition found
in standard dictionaries would indicate.
So it is said the word will be construed to
mean not absolute, but reasonable,
necessity.

App. 127
Thompson v. ISCC, 235 Iowa 469, 15 N.W.2d 603, 606
(1944), citing Wisconsin Tel. Co. v. Railroad Comm’n,
162 Wis. 383, 156 N.W. 614, 617 (1916).
Perhaps the most instructive case for determining
and understanding the applicable standard is South
East Iowa Co-Op. Elec. Ass’n v. Iowa Utilities Board,
633 N.W.2d 814 (Iowa 2001). That case reviewed the
standards applicable to an electric transmission line
franchise proceeding under Iowa Code chapter 478,
where the test is whether the proposed line is
“necessary to serve a public use” and “represents a
reasonable relationship to an overall plan of
transmitting electricity in the public interest” (see Iowa
Code § 478.4), rather than the “promote the public
convenience and necessity” test applicable in this case,
but the tests are sufficiently similar that the analysis
should also be similar. In each type of proceeding, the
Board must consider and balance concepts relating to
public use, public benefits, and public and private costs
and detriments. In South East Iowa Co-Op, the Court
approved of the Board’s process, which “balanced all of
these factors and determined the substantial benefits
outweighed the costs….” (633 N.W.2d at 821.)
Pursuant to Iowa Code § 479B.9, the Board is
applying the “public convenience and necessity” test as
a balancing test, weighing the public benefits of the
proposed project against the public and private costs or
other detriments as established by the evidence in the
record. If that evidence shows that the proposed project
has public benefits that outweigh the costs, the Board
will find that the project “promotes the public
convenience and necessity.” If the evidence does not

App. 128
support such a finding, then the petition for permit will
be denied.
Finally, IFOA has argued that prior agency
decisions indicate that service to Iowa businesses and
consumers is the only measure of public convenience
and necessity. (In. Br. 4.) The Board disagrees; in each
of the past decisions cited by IFOA on this point, the
Board (or its administrative law judge) found that a
showing that the proposed pipeline would serve Iowans
was generally sufficient to demonstrate that the project
would promote the public convenience and necessity,
and was commonly relied upon for that purpose, but at
no time did the Board say that service to Iowans is a
requirement or that it is the only way to meet the
statutory standard. See In re MidAmerican Energy Co.,
1995 WL 70092 at 14-15; Heartland Pipeline Co., 1999
WL 35236220 at 5; In re MidAmerican Energy Co.,
2002 WL 31387619 at 8 (IUB 2002); In re MidAmerican
Energy Co., 2013 WL 1285510 at 14-15 (IUB 2013).
a. What Benefits Can be Considered?
Some parties have argued that the rules of
statutory construction prohibit the Board from
considering public benefits from the proposed pipeline
if those benefits would accrue to those living outside
Iowa. (Sierra Club In. Br. at 8; IFOA In. Br. at 9-10;
Gannon In. Br. at 4-5.) These parties note that Iowa
Code § 478.3(3), relating to franchising of electric
transmission lines, specifically provides that in
determining whether a proposed line is in the public
interest, “the term ‘public’ shall not be interpreted to be
limited to consumers located in this state.” No such
provision exists in chapter 479B. These parties argue

App. 129
that when the legislature shows in one statute that it
knows how to express its intent regarding a particular
matter, but does not use similar language in a similar
statute, then the legislature means to express a
different intent. West Virginia Univ. Hosp. v. Casey,
499 U.S. 83, 88-92 (1991). Or, stated differently, under
the rules of statutory construction legislative intent
may be expressed by omission as well as by inclusion.
Kucera v. Baldazo, 745 N.W.2d 481, 487 (Iowa 2008).
These parties conclude that the omission in chapter
479B of language similar to that in Iowa Code
§ 478.3(3) indicates that the legislature does not intend
that the Board should consider non-Iowa benefits when
determining whether a proposed hazardous liquid
pipeline will promote the public convenience and
necessity.
Board analysis. The Board disagrees. Chapters 478
and 479B, while similar in many respects, are
addressed to different types of linear infrastructure
projects that have very different purposes and very
different effects on public and private interests, both
during and after construction. Differences between the
statutes are not always legally significant; the facts
and circumstances must be considered in order to
determine whether the difference is intended by the
legislature to be significant.
The Board’s precedent is that the Board will
consider all benefits of a proposed hazardous liquid
pipeline, regardless of whether they are Iowa-specific
benefits. For example, in Re: The Petition of Northern
Pipeline Co, etc., “Order Granting Pipeline Permit, etc.”
issued May 31, 1979, in Docket No. P-749, the Board

App. 130
(then known as the Commerce Commission) issued a
permit for a 24-inch pipeline for the transportation of
crude oil through Iowa (from Wood River, Illinois, to
Pine Bend, Minnesota) primarily on the basis of
non-Iowa benefits. The refineries in Minnesota that
would receive crude oil via that proposed pipeline
supplied over 50 percent of Minnesota’s refined
petroleum requirements, but only about 6 percent of
Iowa’s, yet the Board found that the proposed line
would promote the public convenience and necessity
and issued a permit. (Slip op. at 11.) It must be
presumed that the legislature was aware of this agency
precedent when it enacted Iowa Code § 478.3(3), see
Roberts Dairy v. Billick, 861 N.W.2d 814, 821 (Iowa
2015), and concluded that chapter 479B did not require
a similar provision because the Board was already
considering all public benefits when determining
whether a proposed interstate pipeline will promote the
public convenience and necessity.
Further, the electric generation and transmission
marketplace is different from the pipeline
transportation system in certain important respects. In
2001, at the time that Iowa Code § 478.3(3) was
enacted (H.F. 577, 79th Gen Assembly, 1st Sess.),
transmission planning was shifting from a
state-by-state basis to a regional basis, resulting in the
creation of the Midcontinent Independent System
Operator (MISO), a regional transmission organization
regulated by the Federal Energy Regulatory
Commission. Because of the physics of electric power
transmission, electric power flows primarily along the
path of least resistance regardless of where that path
is physically located. It was foreseeable that regional

App. 131
transmission planning might sometimes require
system upgrades in Iowa that would have no
discernible direct benefit in Iowa but would have
significant public benefits elsewhere in the region.
Under those circumstances, specific statutory
instruction to consider benefits outside of Iowa made
sense, and so Iowa Code § 478.3(3) was added to the
statute.
Transportation of crude oil, in contrast, is readily
predictable; the oil will flow through the designated
pipeline, which may not have an endpoint in Iowa. The
legislature recognized this in chapter 479B when it
defined the word “pipeline” as “an interstate pipe or
pipeline…” (Iowa Code § 479B.2(3), emphasis added).
This definition contemplates issuance of permits for
crude oil pipelines that will not have an endpoint in
Iowa (because Iowa neither produces nor refines crude
oil), and it follows that public benefits outside of Iowa
must be a consideration in the Board’s decision or else
no permit could be issued for some interstate crude oil
pipelines that will benefit the broader public interest if
constructed.
This interpretation is further supported by other
rules of statutory construction, specifically the
principle that when deciding which of two statutory
constructions to adopt, if one construction would raise
constitutional issues then the other should prevail
under the canon of constitutional avoidance. Clark v.
Martinez, 543 U.S. 371, 381 (2005); Iowa Supreme
Court Board of Professional Ethics and Conduct v.
Visser, 629 N.W.2d 376, 380 (Iowa 2001).

App. 132
At least one state court has held that a state statute
that treats proposed interstate projects differently
based upon a lack of sufficient in-state benefits places
a burden on interstate commerce and therefore violates
the Commerce Clause of the U. S. Constitution.
Application of Nebraska Public Power District, etc., 354
N.W.2d 713, 718 (South Dakota 1984). Applying that
principle here, the conclusion that the absence of
language similar to that in Iowa Code § 478.3(3) means
out-of-state benefits cannot be considered in connection
with an interstate hazardous liquid pipeline could raise
the same constitutional issue under the Commerce
Clause. Accordingly, that interpretation should be
avoided and the alternative interpretation, that the
Board can consider out-of-state benefits despite the
absence of specific language like that in Iowa Code
§ 478.3(3), should be adopted.
The Board concludes that it may consider
out-of-state benefits when deciding whether the
proposed pipeline will promote the public convenience
and necessity.
II.

Global Issues
a. Climate Change

Dakota Access argues that global climate change is
irrelevant to this docket because the proposed pipeline,
even if built, will have no meaningful effect on the use
of petroleum products. (In. Br. at 9.) The pipeline will
not increase the existing demand for those products
and denial of a permit will not decrease that demand.
Further, Dakota Access argues, the pipeline represents
the most efficient way of moving crude oil from the

App. 133
Bakken fields to the refineries because a pipeline ships
only the product, while trains, trucks, and ships must
expend energy to move large and heavy containers as
well, and the containers must then return to the oil
field empty to be refilled. (In. Br. at 10-11; 60 Plus Exh.
MK Direct at 5.) Dakota Access concludes that the
demand for oil, and the willingness of producers to
meet that demand, is a reality, so anyone concerned
about carbon emissions should favor shorter, more
efficient ways to move oil to the market. That argues in
favor of domestic oil production and pipeline
transportation. (Id.)
Dakota Access also argues that Iowa lacks the
authority to deny a permit based upon policy
considerations that are beyond the jurisdiction of the
Board and asserts that “the Board would likely be
preempted if it tried to act on the basis of seeking to
impact such extra-jurisdictional policies.” (In. Br. 10.)
Dakota Access says that Iowa Code chapter 479B
expressly contemplates that crude oil pipelines will be
constructed through Iowa and provides a path for
companies like Dakota Access to do so. (Id.)
The opposition parties argue that climate change is
the “defining issue of our time.” (Sierra Club In. Br. at
11.) As Sierra Club witness Hanson testified, carbon
dioxide emissions from burning fossil fuel are
disrupting Earth’s climate system in ways that create
“risks of ecological, economic, and social collapse.”
(Sierra Club Exh. JH-1 at 4-5.) The opposition parties
acknowledge that denying a permit in this docket will
not, by itself, reduce demand for petroleum products or
stop climate change, but they assert that granting a

App. 134
permit for a pipeline will promote additional
exploitation to some degree, which will only serve to
reduce the time available to complete the necessary
transition to an emission-free marketplace. (Wells
In. Br. at 2; Sierra Club In. Br. at 13; Sierra Club Exh.
JH-1 at 30.)
Another party argues that the proposed pipeline
would facilitate and promote the production and use of
fossil fuels because it would reduce shipping costs,
making increased oil extraction more viable and
increasing the profits of fossil fuel companies.
(Zakrasek In. Br. at 5, citing Tr. 184, 194, and 258.) It
should also have the effect of reducing the cost of
refined petroleum products to some degree, which could
promote consumption of fossil fuels. (Tr. 246.) Zakrasek
argues that the result of approving the pipeline would
be increased use of fossil fuel and slower adoption of
clean, renewable energy sources, such that the pipeline
would be detrimental to the public convenience and
necessity. (Zakrasek In. Br. 4-6.)
Board analysis. The question before the Board is
what weight should be given to this evidence and
argument in the Board’s application of the balancing
test under Iowa Code § 479B.9. The fact is that Bakken
oil is being produced and transported to market now
because there is demand for it; the proposed pipeline
represents, at most, a change in the method of crude oil
deliveries that are already taking place and that will
continue to take place regardless of whether this
pipeline is built.
Some parties argue that the Board should deny the
permit as a symbolic gesture, or as a way to advocate

App. 135
for solutions to climate change, but Chapter 479B does
not contemplate such a role for this agency. Rather, the
Board is charged with the duty to weigh the evidence
and apply the statutory standards to that evidence in
a manner akin to a judicial proceeding, and there is no
evidence in this case that denial of the permit would
affect climate change to any significant degree. Climate
change in general is a very important issue, but in this
proceeding the potential impact of this project on
climate change is a factor that merits little weight in
the Board’s balancing test.
b. World Market
During the hearing, some questions were asked
about the world market for crude oil and how it might
relate to this project. The MAIN Coalition argues that
the purpose of the pipeline is not to deliver oil or its
refined product to foreign markets but to make it
available for domestic consumption. (In. Br. 15.) Sierra
Club says this ignores the fact that there is no
assurance the oil will remain in this country, especially
now that the ban on export of crude oil has been lifted.
(Sierra Club Reply Br. at 10.) Dakota Access argues
that the potential export of crude oil is irrelevant to the
issues before the Board when determining whether to
grant a permit, but if it is to be considered, the
evidence shows that even with the lifting of the ban on
crude oil exports it is “highly unlikely” the oil carried
by this pipeline would be exported. This is because
light crude oil is in demand by refineries in the
Midwest, such that they are currently importing it
from the Gulf Coast area. With such demand at the
local level, Dakota Access says, the Bakken oil and its

App. 136
refined products will probably stay in this country. (Tr.
82, 107-09.)
Board analysis. While Dakota Access argued that
light crude oil is currently in demand by refineries in
the Midwest (In. Br. at 17), it is reasonable to expect
that the local demand may change over time. During
periods of lower domestic demand the oil will be more
likely to be sold to foreign markets. As Sierra Club
says, Dakota Access cannot give any solid assurance
that the oil carried by the proposed pipeline will not be
sold to foreign markets, at least from time to time.
(Reply Br. 10.) But it has always been possible that the
oil carried by the proposed pipeline will be sold into
overseas markets in one form or another; the
possibility does not affect the Board’s decision in this
docket. The potential impact of the proposed pipeline
on the world market for crude oil is a factor that merits
little weight in the Board’s balancing test.
III.

National Issues

a. Energy Independence and Security
While energy independence and security are
separate concepts, they are closely related and can be
considered together in this matter. Energy security is
defined in terms of the number and variety of options
and choices available to supply the national energy
demand, while energy independence is defined in terms
of reduced reliance on foreign sources of petroleum
products. (Exh. GC Reply at 2-3.) Dakota Access does
not believe energy independence is an appropriate goal;
instead, it says its pipeline will promote better energy
security for the United States and, therefore, for

App. 137
Iowans, by providing an alternative means of transport
for domestically-produced crude oil. (In. Br. at 11.) A
strong domestic oil infrastructure reduces the
sensitivity of the United States to events that affect the
availability of foreign oil and provides protection
against price shocks or product shortages. (In. Br. at
12.)
The Sierra Club agrees that energy independence is
not the relevant question here, describing it as a “red
herring” (Sierra Club In. Br. at 18), and noting that if
it were the goal, no crude oil or refined petroleum
products would be permitted to leave the United
States. With respect to energy security, Sierra Club
says if this were really a concern, the nation would be
engaged in a comprehensive program involving
conservation and energy efficiency, rather than relying
on the market to provide more and more petroleum
products. (Id. at 21.)
Other parties argue that true energy independence
and security requires movement away from fossil fuels
and toward clean, sustainable energy sources like
wind-driven electric generation. (Zakrasek In. Br. 7;
IFOA In. Br. 16-17.) Puntenney argues that a planned
system of distributed generation based upon renewable
energy sources would remove the need to ship energy
from refineries to users in far-off locations. It would
also provide energy security against potential
man-made or weather-based disruptive events.
(Puntenney In. Br. at 11, 17.)
Sorenson argues that energy security means having
the capability to harness, develop, and transfer energy
resources and it would be foolish for the U.S. to trade

App. 138
away Bakken oil at low prices (when the world has an
ample supply of oil) at a cost to the nation’s fresh water
supply and land productivity. (Sorenson In. Br. at 11.)
Sorenson argues that the restrictions on use of land
that are imposed by the Dakota Access easements
represent a peril to the land and a loss of many types
of security, because in the easement area trees would
be forbidden and buildings prohibited. (Id.)
Gannon argues the proposed pipeline does not
increase energy security or independence unless it is
shown that the Bakken crude is not otherwise reaching
the refineries. (Gannon Exh. Imerman Dir. at 11.)
Gannon also argues that the recent act of lifting the
ban on sales of U.S. crude oil to overseas markets
indicates that the U.S. government is not concerned
about U.S. oil supply, so energy security is not a
significant consideration. (In. Br. 8-9.)
Board analysis. The parties generally agree that
energy independence is not the issue here. Instead,
their focus has been on energy security. In this case,
the proposed pipeline would undeniably provide
another method for transporting Bakken oil to market
and would do so in a manner that is distinct from the
alternatives (rail and trucks). Having options and
alternatives is one factor tending to increase energy
security. Thus, it can be said that if built, the proposed
pipeline would enhance the nation’s energy security to
some extent. This does not mean that the project’s
potential contribution to increased energy security is
sufficient by itself to support a finding that the pipeline
will promote the public convenience and necessity; the
project’s potential impact on energy independence or

App. 139
energy security is a factor that merits little weight in
the Board’s balancing test.
b. Rail Transport vs. Pipelines
Dakota Access argues that pipelines are a safe way
to transport crude oil; over 99 percent of the product
transported by pipeline is delivered safely and that
record has only improved as shipping volumes have
increased. (Dakota Access Exh. GC Direct at 7-8.)
Dakota Access also says that pipelines have a better
safety record than other modes of transportation for
crude oil, including rail; in fact, data from the U.S.
Department of Transportation (USDOT) show that rail
transport of crude oil has over three times as many
incidents per ton-mile as pipelines; according to those
records, rail transport of petroleum averaged 2.08
incidents per billion ton-miles from 2005 to 2009, while
hazardous liquid pipelines averaged only 0.58 incidents
per billion ton-miles over the same time period. (Exh.
GC-1.) On a straight per-mile transported basis, the
USDOT again estimates that pipelines are much safer
than rail for transporting crude oil. (Exh. GC Direct at
7-8.) Further, railroads frequently travel through
population centers and tend to be closer to larger
numbers of people when an incident occurs, while
pipelines are generally located in more rural areas,
according to Dakota Access. (In. Br. 13.)
MAIN argues that the USDOT unequivocally says
pipelines are safer than other modes of transporting
oil, including rail. (Exh. SG Direct at 4.) Data from
PHMSA demonstrates that from 2005 to 2014, Iowa
has averaged less than one significant pipeline incident
per year, statewide. (Id. at 3-4.) PHMSA actively

App. 140
regulates pipeline safety via regulations and
inspections. MAIN says that railroads do not have
comparable safety requirements and in recent years
there have been incidents of oil tank cars crashing in
metropolitan areas, causing deaths and property
damage. For example, in 2013 a train carrying 72
carloads of crude oil crashed and exploded in
Lac-Mégantic, Quebec, killing 47 people, destroying
much of the town, and spilling 1.6 million gallons of
crude oil. (Exh. TDG Dir. at 16-17.)
Other parties argue that the evidence regarding the
relative safety of transporting crude oil by rail or by
pipeline is not so clear. Sierra Club relies on the same
report as Dakota Access for the proposition that both
rail and pipeline have demonstrated improved safety
records over the past two decades, even as shipping
volumes have increased, and both modes deliver more
than 99 percent of the product safely. (Sierra Club Exh.
27.) Sierra Club notes that the National Transportation
Safety Board has identified increased pipeline safety as
one of its top ten goals. (Id. at 25.) This may indicate
that the agency is of the opinion that pipeline safety is
not adequate at this time.
Sierra Club also says that during 2013, more than
800,000 gallons of oil spilled from railroad cars while
over 5,000,000 gallons of hazardous liquids spilled from
pipelines. Sierra Club admits this is not an
apples-to-apples comparison but says it shows there is
no substantial evidence that pipelines are safer than
rail for transporting oil. (Sierra Club In. Br. at 23.)
IFOA says that according to the Iowa Department
of Transportation, approximately 40,000 rail cars of

App. 141
crude oil travel through Iowa each year, about one
100-car train per day. (Exh. Wehrman-Andersen at 4.)
IFOA argues that this level of crude oil rail traffic does
not represent a serious risk to Iowa, so even if pipelines
are safer than rail transport on a per-ton-mile basis,
there is no reason to take on the additional risks
associated with the pipeline. (IFOA In. Br. at 18, citing
Exh. Wehrman-Andersen at 4.) IFOA also argues that
the gross number of hazardous liquid pipeline (HLP)
incidents in the United States has been increasing each
year since 2004, according to PHMSA. (Exh.
Wehrman-Andersen 1.) Finally, IFOA argues that
based on number of incidents per 10,000 miles of
pipeline or railroad, pipelines have an incident rate of
17.874 per 10,000 miles of pipeline while railways have
only 3.543 incidents per 10,000 miles of track. (Exh.
Wehrman-Andersen at p. 4.) IFOA concludes that the
absolute risk posed by a new pipeline is greater than
that posed by continued use of existing rail transport.
(In. Br. at 20.)
The record evidence also indicates that the effect of
a hazardous liquid pipeline spill may be significantly
different than the effect of a railroad spill. IFOA
witness Wehrman-Andersen testified that a rail spill
will typically have definitive boundaries that are
readily observable by emergency responders and the
amount of oil spilled can be quickly estimated by
counting the damaged tank cars. Further, the tank cars
bear placards showing the class of chemicals being
transported. (Exh. Wehrman-Andersen at 2.) With an
underground pipeline spill, there may not be anything
visible from the surface to provide information to an
emergency responder unless the oil reaches the surface,

App. 142
and even then, accurately estimating the volume of the
spill may be difficult. (Id.) These factors may
complicate the initial response and the ensuing cleanup
activities.
Gannon argues that if the proposed pipeline is built,
the quantity of hazardous material being transported
through Iowa will be greatly increased. He calculates
that if Iowa currently has only one 100-car train of
crude oil passing through each week, that translates
into approximately 74,000 barrels of crude oil per week
being transported by train through the state. In
contrast, Dakota Access’s proposed pipeline is designed
to transport 570,000 barrels per day. (In. Br. at 6; Exh.
Gannon MI-3, p. 7; Exh. F, p. 1.) As a result, Gannon
concludes, the proposed pipeline would actually
increase the potential hazards to Iowans.
Board analysis. The Board finds that the increased
safety associated with pipeline transport of crude oil is
significant. Sierra Club’s comparison of the total
amount of oil leaked by pipelines and railcars during
2013 is too simplistic. It compares crude oil shipments
by rail to all hazardous liquids transported by pipelines
and fails to consider the relative volumes of crude oil
transported or the distance over which the oil was
being transported. To the extent pipelines carry more
oil over greater distances the Sierra Club comparison
overstates the relative safety of rail transport.
Similarly, the testimony of IFOA witness
Wehrman-Andersen is based upon the total miles of
railroad track and pipeline in the United States (see
Exh. Wehrman-Andersen 1 at p. 2) and fails to account
for the amount of oil being shipped by each

App. 143
transportation mode or the distance the oil is being
shipped. Further, those calculations overstate the
safety of shipping by railroad by including miles of
railway over which crude oil is never shipped.
The most valid comparison in this record of the
relative safety of rail transport versus pipeline
transport considers the shipping method, the amount
of crude oil shipped, and the distance it is shipped. It is
clear from the USDOT data in Exhibit GC-1 that
significantly more oil is shipped more miles by pipeline
than by rail, so it is not surprising that the total
amount of oil leaked by pipelines is higher. However,
on a more equal comparison basis (accounting for both
volume of oil carried and the distance it was carried)
pipelines are shown to have between one-third and onefourth the incident rate of railway transport of
petroleum products. (Id.) As one report stated, “[b]y
any measure – number of incidents, fatalities and
spilled fluids recovered, pipelines are the safest and
most effective form of energy transportation.” (Exh. GC
Direct at 8, quoting Vern Grimshaw & Dr. John
Rafuse, Assessing America’s Pipeline Infrastructure:
Delivering on Energy Opportunities.)
This safety advantage is a substantial benefit of the
proposed pipeline. Again, the amount of Bakken oil
produced will be a function of marketplace demand,
and once that oil is produced it must be shipped to the
refineries, primarily by rail or by pipeline. The pipeline
may or may not reduce rail shipments of crude oil, but
oil that is shipped by pipeline is significantly less likely
to be spilled than oil shipped by rail. Therefore, if it is
built, this pipeline will reduce the overall risk of crude

App. 144
oil spills, both in Iowa and elsewhere. The project’s
potential impact on safe shipping of crude oil is a factor
that merits significant weight in the Board’s balancing
test.
c. Impact on Grain Shipments
Dakota Access argues that if constructed, the
proposed pipeline will transport crude oil that might
otherwise be shipped by rail, relieving rail capacity to
ship other goods. Dakota Access says that rail
transports 14 percent of the grains produced in Iowa
(Exh. EK Dir. at 2-5) and those rail lines have
experienced a growth in traffic in recent years. (Id.)
According to Dakota Access, the result of constrained
rail shipping capacity is a loss of revenue for grain
producers due to higher shipping costs and, potentially,
more limited shipping options. (Id.) Dakota Access says
it would take 642 rail cars each day to ship the 450,000
barrels per day that the proposed pipeline will carry
from North Dakota. (Ex. EC Direct at 6.) While those
opposed to the project may disagree with the
calculations offered by Dakota Access in an attempt to
quantify this benefit, the company says that the basic
premise of supply and demand means that the project
will reduce demand for crude-by-rail shipping and
therefore increase the supply of rail transportation
available for other commodities. (In. Br. 16.)
Sierra Club notes that Dakota Access’s own witness
testified that the pipeline will not necessarily reduce
rail shipments of oil. (Tr. 2201.) Sierra Club argues
that crude-by-rail will continue to be attractive because
rail is more flexible and can send the oil where it needs
to go at any particular time. (Reply Br. 9-10.) For these

App. 145
reasons, Sierra Club argues that the potential for
reduced shipping of oil by rail is not a sufficient reason
to grant a permit.
IFOA argues that there are many flaws in the
Dakota Access analysis of the potential grain shipping
benefits associated with the proposed pipeline,
including lack of reliable data, use of irrelevant data,
and insufficient data. (In. Br. 21-23.) For example,
Dakota Access witness Kub admitted that studies show
a large degree of uncertainty regarding the possible
connection between railroad transportation costs and
local commodity prices. (Tr. 313.) IFOA argues the
claimed benefits are baseless and should be rejected by
the Board. (Id. at 24.)
Other factors will affect the availability of rail
transport for grain shipments. Zakrasek pointed out
that increased production of electric energy from wind
will reduce Iowa’s need for coal shipments and Dakota
Access witness Kub agreed that reduced coal shipments
would also free up additional rail capacity. (In. Br. 8;
Tr. 343.) Zakrasek asserts that to the extent additional
rail capacity is a benefit, reduced coal shipments would
benefit farmers without the detrimental effects of the
proposed pipeline, so the focus should be on
wind-driven electric generation, not a crude oil
pipeline.
Gannon argues that there is no data to support
Dakota Access’s claim that reduced rail shipments of
crude oil will affect the cost of transporting grain by
rail. The study Dakota Access relies on actually shows
that Iowa is much less dependent upon shipping grain
by rail than other states in the region. (Exh. Babcock

App. 146
Dir. 2; Exh. EG-1, p. 6.) This means that disruption or
congestion of the long-haul rail networks has less
impact on Iowa, so reduced rail traffic will also have
less benefit. (In. Br. 9-13.)
Board analysis. The record indicates that crude oil
and other commodities may compete for rail
transportation services to some extent, although the
level of that competition and its possible effect on
commodity prices is not clear. If the proposed pipeline
is constructed, some 450,000 barrels per day of crude
oil will no longer be competing for those services. That
is equivalent to over 600 rails cars per day, which may
represent an incremental benefit to those other
commodities. However, Dakota Access’s witness
acknowledged that there is no guarantee that rail
transportation of crude oil will be reduced if the
pipeline is built. It is possible that Bakken production
will increase, instead. (Tr. 2201.) If that happens, then
the impact of the proposed pipeline on the availability
of rail transport may be non-existent. The project’s
potential impact on grain shipping by rail is a factor
that merits little weight in the Board’s balancing test.
d. Sale of Crude Oil to Foreign Markets
Dakota Access argues the question of export of
crude oil is irrelevant to the issues before the Board in
this permit proceeding. (In. Br. at 16.) Further, at the
time of the hearing there was a national ban on
exporting crude oil, which has since been lifted, but
even during the hearing it was permissible to export
refined oil products, so there has always been a
possibility that at least some of the oil carried in the

App. 147
proposed pipeline would ultimately be sold in foreign
markets in some form.
Offsetting this possibility to some extent, Dakota
Access witness Rahbar-Daniels also testified that light
crude oil (like Bakken oil) is currently in high demand
by domestic refineries, making it “highly unlikely” that
Bakken crude would be exported. (Tr. 82, 107-109.)
Instead, the pipeline will most likely carry the crude oil
to refineries in the Midwest and beyond. (Tr. 107-09.)
Sierra Club argues the proposed pipeline would
contribute to exhausting the oil supplies in the United
States and once those supplies are depleted, the
country would have to depend entirely on foreign
sources of oil. (In. Br. at 26.)
IFOA says the true purpose of the proposed pipeline
is to allow oil to be transported directly to the Gulf
Coast, where it can be shipped to overseas refineries.
(In. Br. 24, citing Tr. 46.) With the ban on crude oil
exports lifted, IFOA argues, it is impossible for Dakota
Access to show that the transportation of crude oil from
the Bakken fields will have any measurable benefit to
Iowans in terms of availability of refined products that
can be used in Iowa. (In. Br. at 25.)
Sorenson argues that destroying the environment
“to sell a product that will pollute the air - - to
countries that don’t like us - - for a small amount of
paper dollars - - is lunacy.” (In. Br. at 13.) Instead, she
argues, we should create alternative energy solutions
and products that can be exported with minimal (or
beneficial) environmental impact. (Id.)

App. 148
Board analysis. At the time of the hearing in this
docket, the sale of crude oil to foreign markets was
banned, but export of refined petroleum products was
permitted. Thus, the recent lifting of the ban on crude
oil exports is not a significant factor in the Board’s
decision; it has always been true that any oil carried by
the proposed pipeline could be exported in some form.
The lifting of the ban only means that the oil can be
exported in crude form as well as refined.
Dakota Access has offered testimony that a robust
global market provides additional options for energy
supply, so isolation of the United States market is not
desirable. (Dakota Access Exh. GC Reply at 2.) To the
extent the proposed pipeline will promote that robust
market by making exports more viable, it may provide
some indirect public benefit. But the Board does not
consider that benefit to be substantial in determining
whether the proposed pipeline will promote the public
convenience and necessity; it is simply too remote and
indirect. The project’s potential impact on sale of crude
oil to foreign markets is a factor that merits little
weight in the Board’s balancing test.
e. Depletion of Bakken/Three Forks Oil
Reserves
Sierra Club and other parties argue that recent
trends show a decline in oil production from the
Bakken region and a reduction in the number of active
drilling rigs in the region. (Sierra Club Hrg. Exh. 17,
22, and 26.) Sierra Club also says that a number of oil
companies have recently abandoned the Bakken region.
(In. Br. at 27; Sierra Club Hrg. Exh. 15 and 16;
Puntenney Hrg. Exh. 1 and 2.) From these facts, Sierra

App. 149
Club concludes that the recoverable oil in the Bakken
area will be depleted in the near future, meaning the
proposed pipeline will only be of benefit for a short
period of time, at best. (In. Br. at 27-28.) Sierra Club
argues this “is not a scenario that demonstrates public
convenience and necessity.” (Id.)
Dakota Access argues there is no credible evidence
in the record that the Bakken/Three Forks oil reserves
have been depleted. Instead, the fact that certain
shippers have executed long-term take or pay contracts
to utilize the proposed pipeline to transport crude oil is
evidence that sophisticated shippers believe there are
significant oil reserves in the area and they are willing
to back that belief with monetary commitments. (In.
Br. at 17.) Dakota Access disputes Sierra Club’s claim
that there has been a recent sharp decline in
production, saying that Sierra Club is looking at only
a “slight dip” in production and ignoring the fact that
the reduction is “minimal compared to the massive
historic increases in output shown on the same
exhibit.” (In. Br. at 18; Sierra Club Exh. 26.) North
Dakota continues to be the second largest producer of
crude oil in the United States at over 1.1 million
barrels per day. (Tr. 50-51 and 60.) Dakota Access says
that when the entire record is considered, it shows that
Bakken reserves and production are more than
sufficient to require the transportation capacity of the
proposed pipeline.
Board analysis. The parties opposing the permit
have not offered any credible evidence that
Bakken/Three Forks reserves are likely to be depleted
in any relevant time frame. The recent dip in

App. 150
production from the area is, as Dakota Access says,
minimal compared to the historic production increases
shown on the same exhibit. (Sierra Club Exh. 26.) The
opposition’s reliance on a short-term reduction as
evidence for a long-term trend is misplaced.
The fact that some oil companies have left the
Bakken fields is not as significant as the fact that other
oil companies continue to produce from those fields and
have, in fact, committed to ship some of that production
via the proposed pipeline. Similarly, the fact that three
other potential pipeline projects from the area have
been cancelled is not as significant as the financial
commitments certain oil producers have made to use
this pipeline if it is built.
The Board finds that there is no evidence in this
record to indicate that the oil reserves in the
Bakken/Three Forks are insufficient to support the
proposed pipeline for the foreseeable future. The
possible depletion of the oil reserves is a factor that
merits little weight in the Board’s balancing test.
f. National Alternatives
Pipelines

to

Crude

Oil

Sierra Club and others opposed to issuance of a
permit argue that alternative sources of energy are
rapidly replacing fossil fuels and those sources
represent a national alternative to crude oil pipelines.
They say alternatives like solar and wind energy are
becoming cost competitive with fossil fuels, represent
a better path to energy independence and security, and
are steadily reducing our nation’s dependency on oil.
(Sierra Club In. Br. 18-20; Puntenney In. Br. at 24-28;

App. 151
Puntenney Exh. 17 and 18.) The transition to
alternative energy sources should be made as quickly
as possible, these parties argue, and the proposed
pipeline would only be an excuse to delay that
transition. (Sierra Club In. Br. 28.) Further, if there
are viable alternatives to building this pipeline that
will provide for the country’s energy needs, then there
is no public convenience and necessity for this project.
(Sierra Club Reply Br. 11.)
Dakota Access argues there is no evidence in the
record of any national alternatives that would serve a
similar purpose to the proposed pipeline. (In. Br. 19.)
Solar and wind are not alternatives as they cannot
replace motor fuels, chemicals, and other products that
rely on petroleum products as inputs. (Tr. 3480.)
Moreover, as a nation we are still committed to using
all of the available energy options for the foreseeable
future. (Exh. GC Direct at 4.)
Board analysis. The increased use of alternative
energy sources in this country is a valuable and
beneficial trend. In fact, it is the policy of the state of
Iowa to encourage the development of alternative
energy production facilities, see Iowa Code § 476.41,
and the Board supports development of cost-effective
alternative energy sources, including wind, solar, and
agricultural sources. However, alternative energy
sources are not a substitute for refined oil products in
many uses. Further, while the Board supports the
development of alternative energy sources, that
support is not identified as a factor to be considered
when deciding whether to issue a permit under chapter
479B. The increasing availability of alternative energy

App. 152
sources is a factor that merits little weight in the
Board’s balancing test.
g. Permits and Authorizations
This issue will be addressed in the Terms and
Conditions section of this order.
IV.

State Issues
a. Economic Benefits

Dakota Access argues that the proposed pipeline
project will bring significant economic benefits to Iowa,
to the region, and to the nation, including construction
jobs, permanent jobs, property taxes, and more.
(In. Br. 20.) Dakota Access says that the Board has
found in other pipeline permit dockets that economic
benefits, including private economic benefits, are
sufficient to show the project will promote the public
convenience and necessity. (In. Br. 21, citing In re Ag
Processing, Inc., Docket No. P-835, “Proposed Decision
and Order Granting Permit” (Ia. Utils. Bd. Sept. 16,
1996) and Sioux City Brick and Tile Co., Docket
No. P-834, “Proposed Decision and Order Granting
Permit” (Ia. Utils. Bd. Dec. 1, 1995).)
Here, Dakota Access’s initial estimate of the
economic benefit of this project to Iowa and to Iowans
is in excess of $1 billion. (Exh. MAL-1.) Dakota Access
acknowledges that opponents of the project took issue
with some of the estimates and inputs used to arrive at
that figure, but OCA witness Bodine testified that even
if the magnitude of the benefits can be disputed, it is
clear that there will be economic benefits to Iowa and
to Iowans. (Exh. Bodine Direct at 10.)

App. 153
Dakota Access points out that even if the projected
benefits are adjusted to address the arguments raised
by the opponents, the project is still expected to
generate $787,000,000 in construction period economic
benefits in Iowa. (Gannon Exh. MI-11.)
MAIN argues that the pipeline will have a
$1.11 billion economic impact on the state of Iowa,
including nearly $189 million in landowner payments,
construction jobs for up to 4,000 workers (more than
half from Iowa), $49.9 million in sales and income
taxes, and $27.4 million in annual ad valorum taxes to
counties and municipalities in Iowa. (Exh. RW Direct,
DB Direct, DC Direct, MR Direct, JM Direct, and KT
Direct.)
In addition to the direct economic benefits described
in the testimony, MAIN says the pipeline will have
indirect economic benefits by reducing the cost of oil
from the Bakken region by as much as $15 per barrel
and by providing a reliable and efficient delivery
mechanism for the oil. (Exh. MR at 4.)
LiUNA suggests that the economic benefits of
constructing the pipeline are a substantial factor to be
considered but they are not the sole rationale in
support of granting a permit. (In. Br. at 4.) LiUNA’s
witness Schmidt testified that the pipeline as a whole
is a $3.7 billion investment that will create 8,000 to
12,000 construction jobs overall, 4,000 of those in Iowa.
(Exh. Schmidt-1 at 4.) Other LiUNA witnesses testified
to the economic and professional interests their
members have in the proposed pipeline. (IUOE Exh.
Carter-1 at 1-9.)

App. 154
Sierra Club and Gannon argue that the evidence in
this case shows that any economic benefit to Iowa from
the proposed pipeline will be short-lived and modest.
(Sierra Club In. Br. 33; Gannon In. Br. 13-15.) Sierra
Club says the evidence shows that the data Dakota
Access modelled in order to calculate the projected
economic benefits was “seriously flawed” (Id. 34) in at
least four respects.
First, the company included payments for
easements and damages as part of the stimulus, when
these payments are merely compensation for loss, not
new value. (IFOA agrees on this point, In. Br. at 10.)
Second, expenditures for materials that cannot be
obtained in Iowa were included as Iowa benefits.
Third, it was improperly assumed that all
employment and contracting activities will originate
with expenditures in Iowa, when the evidence shows
otherwise.
Fourth, there is insufficient idle construction
capacity in Iowa for a project the size of the pipeline,
meaning that some of that capacity would have to be
supplied from outside Iowa. (Exh. Gannon-Imerman
Dir. 4.)
Sierra Club witness Swenson expanded on these
and other criticisms of the Dakota Access economic
impact study. First, the number of jobs was calculated
using the concept of “job years,” which Swenson says
will overstate the number of jobs that would actually be
created by the project. (Exh. DS-1 at 12-19.) Second,
the Dakota Access analysis reports the jobs as full-time
equivalents, rather than using an annualized value,

App. 155
also overstating the number of jobs that would be
created. (Exh. DS-1 at 19-21.) Third, Swenson says that
the Dakota Access analysis ignores the fact that most
of the materials for constructing the pipeline will be
manufactured outside Iowa, overstating the purchasing
benefits of the project. (Exh. DS-1 at 21-24.) Fourth,
Swenson says that the highly-specialized jobs required
to build a crude oil pipeline will not be filled by Iowa
workers, yet the Dakota Access study assumes they
will be. The result is to further overstate the estimated
economic benefit to Iowa from the proposed project.
(Exh. DS-1 at 24-26.)
Zakrasek argues that the jobs, tax revenues, and
economic activity associated with construction of the
proposed pipeline could be generated by other large
construction projects, such as construction of
sustainable energy infrastructure. (In. Br. at 9.) He
says that developing Iowa’s wind and solar capacity,
along with advanced, large scale storage for electric
power, could generate economic benefits of $20 to
$100 billion without the detrimental effects of the
pipeline. (Exh. JZ Direct at 3-6.) Moreover, new electric
vehicles with greater range could displace vehicles
powered by fossil fuels, disrupting the demand for
those fuels. (Id.; Tr. 266-67.) Or, a policy change such
as a fee or tax on the use of fossil fuels (due to the
damage caused by their use) could have the same
effect, diminishing the economic benefits of the
proposed pipeline. (Tr. 1114-15.) Zakrasek argues that
alternative, sustainable clean energy projects avoid
these risks. (In. Br. 10.)

App. 156
Sorenson argues that some of the spending to build
the pipeline in Iowa may not stay in Iowa. Purchases
may be made in other states and work crews may come
from other states, so the economic benefit to Iowa will
not be as great as projected. (In. Br. at 15-16.) Sorenson
says that the lack of permanent Dakota Access
employees in most of the affected counties leaves those
counties with the potential liability of the pipeline
without any offsetting long-term economic benefits; the
easement payments cannot be considered an economic
benefit; the construction timeline will likely be shorter
than projected, reducing economic benefits associated
with the work crews; and the alleged property tax
benefits are not supported by solid information. (In. Br.
at 20-28.) Sorenson also says that the job benefits
associated with the proposed pipeline should be offset
by the potential loss of jobs as a result of reduced use
of rail to transport the crude oil. (Id. at 29.)
In reply, Dakota Access argues that the opponents
have, at best, only managed to tinker at the margins of
the projected benefits; the overall magnitude of the
benefits is not seriously in dispute. (In. Br. 21.) Even
Sierra Club witness Swenson concedes that “there will
be sizable short-term economic impact in parts of Iowa.
That is undeniable.” (Exh. DS-3 at 2.) Dakota Access
notes that while Swenson criticizes the company’s
study for using job years, he admitted use of job years
is common in private economic impact studies (Exh. DS
Dir. 13) and in fact used job years in his own study for
another project (Dakota Access Cross Exh. 6).
Dakota Access emphasizes that Gannon witness
Imerman argues that the proposed pipeline would

App. 157
“only” generate $787,000,000 in construction period
economic benefits for Iowa, including “only” 3,100
construction period jobs. (Exh. MI-11.) Dakota Access
argues these figures are too low for a variety of reasons
(including the exclusion of $85 million in easement
payments, failure to consider regional benefits, and
other alleged errors), but even so they are sufficient to
demonstrate significant economic benefits to Iowa from
construction of the proposed project. (In. Br. 23.)
Dakota Access also argues there will be significant
long-term economic benefits from the proposed
pipeline. The company estimates the project will create
25 long-term direct, indirect, and induced jobs in Iowa,
and the pipeline will pay approximately $27 million per
year in property taxes in Iowa. (Dakota Access Cross
Exh. 7 at 3.)
Board analysis. Dakota Access says the proposed
pipeline will have an economic benefit for Iowa in
excess of $1 billion. The opponents challenge this figure
and the data used to arrive at it, but even if all of their
challenges are accepted and the model is accordingly
adjusted, the project still shows an economic benefit to
Iowa during the construction phase alone of almost
$800 million. (Gannon Exh. MI-11.) Either figure is
sufficient to establish that the proposed pipeline
represents a substantial economic benefit to the state
of Iowa during construction.
Further, Dakota Access will pay more than
$27 million in property taxes each year. (Exh. MAL
Direct 10.) The project will include the direct creation
of at least 12 long-term jobs and indirect creation of a
similar number of long-term jobs. These are real

App. 158
economic benefits for Iowa that will result from the
construction and operation of the proposed pipeline.
The overall economic benefits to Iowa from the
construction, operation, and maintenance of the
proposed pipeline represent a factor that merits
significant weight in the Board’s balancing test.
b. Environmental Issues
Dakota Access says that the proposed pipeline
project will meet or exceed all applicable environmental
requirements from multiple federal and state agencies,
including PHMSA’s safety regulations at 49 C.F.R.
parts 194 and 195, and will be protective of the
environment. Other applicable regulations include, but
are not limited to, the Board’s land restoration rules at
199 IAC chapter 9; the U.S. Army Corps of Engineers’
authority over all waters of the United States under
Clean Water Act Section 404 and Rivers and Harbors
Act Section 10; and the U.S. Fish and Wildlife Service
authority over federally-listed threatened and
endangered species that could be affected by the
project, under Section 7 of the Endangered Species Act.
Dakota Access is committed to meeting or exceeding
these standards and requirements. (In. Br. 27-29.)
This commitment is reflected in the route
development, the design of the pipeline, and
agricultural impact mitigation plan (AIMP), and the
company’s commitment to use Best Management
Practices (BMPs) in the construction and operation of
the line. (In. Br. 32-40.) The proposed route was
developed using a Geographic Information System
(GIS) routing program that considered multiple

App. 159
datasets in an attempt to avoid certain features,
including environmental resources, and to locate the
pipeline closer to other features, such as existing
pipelines and other existing infrastructure. (IFOA Exh.
5.) The resulting route was then refined based upon
desktop review, field surveys, and agency input (Exh.
MH Dir. 3-4) to avoid cultural resources and other
environmental factors. (Id.) In these ways, the
proposed route was designed to minimize adverse
environmental impacts.
Next, the design of the pipeline exceeds the
applicable PHMSA safety requirements in certain
respects in order to further limit the potential impact
of the project on environmental concerns. For example,
Dakota Access will test 100 percent of all mainline
girth welds, which is in excess of the 10 percent
requirement in federal regulations. (Howard Hearing
Exh. 13 at 6.) The entire pipeline will be
hydrostatically tested for eight hours at 125 percent
pressure before being placed into service, even though
federal regulations only require a hydrotest for four
hours at 125 percent plus four hours at 110 percent
(and even less for valves and aboveground equipment).
(Id.) Dakota Access will activate a cathodic protection
system, which protects the pipeline against corrosion,
as the trench is backfilled, even though federal
regulations do not require cathodic protection to be
activated until one year after pipeline operations begin.
(Id.) These are all examples of the ways in which the
design and construction of the project exceeds or will
exceed the applicable requirements, according to
Dakota Access. (In. Br. 34.)

App. 160
Similarly, Dakota Access argues its proposed AIMP
exceeds the requirements of the Board’s rules in two
material respects, providing additional environmental
protections. (Id.) First, Dakota Access proposes to use
a minimum of two feet of separation between the
pipeline and existing drainage tile, and second, Dakota
Access will reimburse landowners for parallel drainage
tile installation in advance of construction. Neither of
these steps is expressly required by 199 IAC chapter 9.
(In. Br. at 34-5.)
Finally, Dakota Access says it will minimize
environmental impacts by implementing BMPs. For
example, the company has developed a draft Storm
Water Pollution Prevention Plan (SWPPP) that
outlines requirements for contractors to comply with
the Clean Water Act even though the Energy Policy Act
of 2005 exempts certain projects, including the
proposed pipeline, from the requirement to seek formal
coverage under a Construction Stormwater General
Permit. (Hearing Exh. Howard 13 at 3.) Dakota Access
also says it has developed, or will develop, an
Unanticipated Discoveries Plan, a Facilities Response
Plan, an integrity management plan, an environmental
training and inspection program, and will implement
additional mitigation measures to protect the
environment. (In. Br. 35-37.)
MAIN says that supporters of the pipeline
acknowledge that there are always risks with any
project of this magnitude but comprehensive state and
federal regulations will minimize those risks and
enhance the safety of the pipeline. (Exh. MDT Direct at
5.)

App. 161
Opponents argue that there are many flaws with
Dakota Access’s plans regarding environmental
protection, but the principal one “is that Dakota Access
has not undertaken thorough and complete
environmental studies for the entire pipeline route.”
(Sierra Club In. Br. 36.) The proposed construction
project will cut through Iowa’s rivers, streams, forests,
and prairies; the permanent right-of-way will be
permanently cleared of trees, leaving some woodland
areas fragmented and potentially destroying habitat.
(Exh. DH-1 at 4; Tr. 2578-79.) No one can know the full
impact unless an adequate environmental survey is
conducted, Sierra Club argues, and Dakota Access has
not undertaken that effort. (In. Br. 38.)
Sierra Club argues that there are many endangered
species living in Iowa and no one knows exactly where
they all live. (Id. 39.) Only a complete environmental
survey, as described in OCA Exh. Thommes Direct at
4-5, would suffice, and Dakota Access has not
presented evidence to show it has undertaken any such
survey. Sierra Club argues that without such a survey,
the Board has no way to make an informed decision
about whether to grant a permit; Dakota Access has
failed to meet its burden of showing that it has
addressed the environmental issues associated with the
project. (In. Br. at 44-45.)
SEHN agrees that the lack of a comprehensive
environmental impact survey represents a significant
danger. (SEHN In. Br. 5.) SEHN argues that Iowa
Code § 479B.1 charges the Board with the duty of
protecting landowners and tenants from the
environmental damages which may result from the

App. 162
construction, operation, and maintenance of a
hazardous liquid pipeline, and SEHN believes that
duty cannot be fulfilled without a comprehensive study
of the long-term environmental effects of the proposed
pipeline on the soils, waters, fish, and wildlife of Iowa.
(Id. at 6.)
Zakrasek presents a different environmental issue:
He says that Dakota Access did not address climate
change in its business case or its environmental
mitigation plans. (Tr. 158, 1597.) Pursuant to Iowa
Code § 479B.1, the Board must “protect landowners
and tenants from environmental or economic damages
which may result from the construction, operation, or
maintenance of a hazardous liquid pipeline.” Zakrasek
says the only way to do that is to deny the permit. (In.
Br. 10-11.)
In reply, Dakota Access argues that OCA witness
Thommes made recommendations regarding the
analysis of protected species and potential mitigation
measures and Dakota Access witness Howard then
testified that Dakota Access has or will comply with
the majority of those recommendations. (Exh. MH
Reply at 2-5.) Further, at hearing OCA witness
Thommes acknowledged that there was no basis for
imposing environmental conditions beyond those
required by the agencies with primary responsibility
for protecting the environment. (Tr. 1611.)
Board analysis. When considering whether to grant
a permit for the construction and operation of a
hazardous liquid pipeline, the Board operates under a
statutory mandate to “protect landowners and tenants
from environmental or economic damages which may

App. 163
result from the construction, operation, or maintenance
of” the proposed pipeline. Iowa Code § 479B.1. Thus,
this agency has an independent obligation to satisfy
itself that adequate steps have been and will be taken
to provide Iowans with reasonable protection against
environmental damage, and if the evidence in the
record is insufficient to provide that satisfaction then
the Board will deny the petition for permit.
The relevant environmental considerations are
numerous. The proposed pipeline would affect habitats
for a wide variety of species, some of them protected,
both during construction and while in operation. It is
impossible to build and operate a pipeline without
having any environmental impact at all, but it is
important to take reasonable steps to minimize the
adverse risks and impacts where possible.
OCA’s witness Thommes proposed a number of
environmental conditions or changes to Dakota
Access’s proposed method of construction to minimize
the environmental impacts of the pipeline. (OCA Exh.
Thommes Dir.) Dakota Access witness Howard
addressed those conditions and testified that the
company is already complying with 20 of them and will
comply with 18 more of them at the appropriate time.
(Exh. MH Reply at 6-22.) (The specific conditions that
Dakota Access has accepted are listed later in this
order, in § VI.e, as part of the discussion of proposed
terms and conditions.) The Board expects Dakota
Access to follow through on those commitments, subject
to enforcement under Iowa Code ch. 479B.
In addition to those commitments, Dakota Access
has shown that it will meet or exceed all applicable

App. 164
environmental protection requirements. The route was
selected in a manner designed to avoid and minimize
impacts to the environment. The GIS routing program
was designed to select a route that avoids
environmental features and co-locates near other,
already-existing infrastructure where possible to avoid
creating new impacts. (Exh. Howard Dir. 3-4.) The
output of the GIS program was then subjected to
desktop and field surveys for refining the route.
Further information was gathered from landowners
during discussions and negotiations to further refine
the route. Thus, to the extent it is reasonably possible
to do so, the proposed pipeline avoids creating
unnecessary environmental damages in the first place
by routing the pipeline around them.
Dakota Access is taking (or has taken) other steps
reasonably calculated to minimize the potential
adverse environmental impact of the proposed pipeline.
The design and construction plans for the line are
significant; Dakota Access proposes to exceed the
applicable PHMSA requirements in many respects
relating to the construction, testing, and long-term
protection of the line. These steps, plus the proposed
enhancements to the AIMP and the use of BMPs even
where not required, tend to minimize the potential for
an adverse environmental impact.
The opposition parties continue to argue that an
environmental impact report of some sort should be
required. That argument was previously presented,
considered, and rejected, in the Board’s “Order Denying
Motion To Require Environmental Impact Report”
issued in this docket on October 5, 2015. As stated in

App. 165
that order, there is no explicit legal requirement, in
statute or in rule, for an independent environmental
impact report as a part of this proceeding.
Dakota Access has established that the proposed
route was selected in a manner intended to minimize
adverse environmental impacts. If the pipeline is
approved, the pipeline will be constructed and tested in
a manner designed to minimize the possibility of leaks.
The environmental impacts of constructing the pipeline
will be reduced by following an enhanced AIMP, as
modified below, and by the use of BMPs even where
they are not required.
Still, while Dakota Access has taken steps to
minimize the potential environmental concerns
associated with the proposed pipeline, the fact remains
that environmental concerns represent a factor that
merits significant weight in the Board’s balancing test.
c. Safety Issues
Dakota Access argues that jurisdiction over the
safety-related aspects of the proposed pipeline lies
exclusively with the federal government and the Board
is preempted from engaging in state-level safety
regulation of the project, citing ANR Pipeline Co. v.
ISCC, 828 F.2d 465, 472 (8th Cir. 1987), and Kinley
Pipeline Co. v. Iowa Utils. Bd., 999 F.2d 354, 359
(8th Cir. 1993). The Kinley Court relied upon language
from the Hazardous Liquid Pipeline Safety Act stating
that “[n]o State agency may adopt or continue in force
any such standards [referring to state safety standards
for intrastate pipelines applicable to interstate

App. 166
transmission facilities],” citing 49 U.S.C. App.
§ 2002(d). (In. Br. at 40-41.)
Dakota Access also says that the evidence in this
record establishes that the proposed pipeline will meet
and exceed all applicable federal safety regulations,
including PHMSA regulations found at 49 C.F.R. parts
194 and 195. (Exh. SG Direct at 8.) Dakota Access
witness Stamm described many of the safety features
of the proposed pipeline, including the Operations
Control Center, monitoring and control technology, use
of modern system analysis technology, use of in-line
inspection tools, and other features. (Exh. TS Direct
3-8; Tr. 633-35.)
MAIN notes that Dakota Access will have an
Operations Control Center that will permit operators
in Houston to have full-time oversight of the condition
of the pipeline to detect any leaks, changes in pressure,
or deterioration of the condition of the pipeline. (Exh.
SG Dir. at 10-13.) They will be able to remotely isolate
any potential leak by turning off pumps and closing
valves on each side of the suspected leak. (Id. at 17.)
Dakota Access will work with local fire and police
officials so that in the event of a leak or other incident,
local officials will seal off the area and Dakota Access
will follow with trained personnel to begin any
necessary remediation.
The opponents argue that in recent years crude oil
pipelines have experienced disastrous discharges of oil,
referring to the Enbridge pipeline spill in Michigan, the
Bridger pipeline spill into the Yellowstone River, the
Plains All American pipeline spill in California, the
Pegasus pipeline rupture in Arkansas, and others. (No

App. 167
Bakken Here Exh. JM-1, 3-5.) Each of these pipelines
was subject to PHMSA’s safety regulations yet these
spills occurred. (Sierra Club In. Br. at 45-47.) Some
opponents argue that the current federal safety
regulations are inadequate to protect the public.
(SEHN In. Br. at 6.)
Several opponents also expressed concern that if the
pipeline is permitted, Dakota Access plans to have as
few as 12 permanent employees in Iowa, 10 of whom
would be stationed in Cambridge, Iowa. (Tr. 660.)
According to Dakota Access witness Stamm, it could
take them up to an hour to reach the site of a spill. (Tr.
713.) Actual cleanup crews could be as much as 12
hours away. In the Mayflower, Arkansas, pipeline spill,
over 250,000 gallons of crude oil was discharged in less
than two hours; the opponents conclude that the
proposed pipeline represents an unacceptable risk of a
major crude oil spill, in part due to the time required to
respond to any incident. (Sierra Club In. Br. at 47-48.)
IFOA argues that the route of the proposed pipeline
runs through rural areas that do not have full-time
emergency responders who are properly trained to
respond to pipeline spills; they are mostly volunteer
firefighters. (Exh. Wehrman-Andersen at 2.) IFOA
expresses concern about the possible lack of funding for
adequate training of these first responders.
The Sierra Club argues that the Board has
jurisdiction to consider safety issues as a part of these
permit proceedings, distinguishing the cases cited by
Dakota Access. (Reply Br. 21-22.) Iowa Code § 479B.1
states that the Board has this permitting authority
over hazardous liquid pipelines, in part, to “protect

App. 168
landowners and tenants from environmental or
economic damages which may result from the
construction, operation, or maintenance of a hazardous
liquid pipeline….” (Id. at 22.) However, Sierra Club
agrees with Dakota Access that the Board would have
no jurisdiction over the safety of the proposed pipeline
once a permit is granted. Sierra Club concludes that
the best alternative available to the Board is to deny
the permit in the first place. (In. Br. 48.)
Board analysis. The Board agrees with Sierra Club
that the Board has jurisdiction to consider safety issues
as a part of this permit proceeding. Iowa Code chapter
479B was rewritten after the Kinley Court found the
Board’s earlier, broader statutory jurisdiction over
interstate hazardous liquid pipelines was preempted.
The new statute was written, in part, with the intent
that the authority and responsibilities assigned to this
agency are not preempted by federal law. Basically, if
a pipeline company wants approval to exercise the
power of eminent domain under Iowa’s authority, it
must accept the state’s review of its proposal and it
must show that it meets the state’s standards. The
Board has the authority to consider the future safety of
the proposed pipeline in connection with the decision of
whether to issue a permit for the construction of the
pipeline, including the possible use of the state’s power
of eminent domain.
The evidence in this record is sufficient to establish
that Dakota Access has taken reasonable steps to
reduce the safety risks associated with the proposed
pipeline. Dakota Access will be required to meet the
applicable PHMSA safety standards and will be subject

App. 169
to PHMSA inspections. Further, as described in the
preceding section of this order, the company proposes
to exceed PHMSA standards for design, construction,
and testing in many respects, including x-ray
inspection of all main girth welds, use of thicker
pipeline walls in many areas, and more severe
hydrostatic testing, among other things. Each of these
steps will tend to reduce the safety risks of the
proposed pipeline when compared to a pipeline
designed, constructed, and tested in accordance with
PHMSA’s requirements.
Moreover, if constructed, the proposed pipeline will
be a valuable asset with a value of some $4 billion, so
there are substantial financial incentives for Dakota
Access to take all reasonable steps to ensure that the
pipeline is designed and operated in a safe manner so
that it can continue to provide transport services.
The safety risks of the proposed pipeline represent
a factor that merits significant weight in the Board’s
balancing test.
d. Oil Spill Remediation
As described in the previous sections of this order,
Dakota Access says it has gone above and beyond the
safety requirements applicable to the design of the
proposed pipeline because the best way to address a
potential discharge is to prevent it from happening in
the first place. (In. Br. 43.) Thus, the company
concludes, a spill is unlikely. However, the financial
ability of a petitioner to pay any damages that may
occur is an important question the Board must address
before granting a permit, In re Quantum Pipeline,

App. 170
Docket No. HLP-97-2, “Proposed Decision and Order
Granting Permit” (Ia. Utils. Bd. May 1, 1996) at pages
5 and 7-8. Dakota Access says that in prior cases, the
Board has found that a petitioner that meets the
requirements of Iowa Code § 479B.13 (by having
property in the state, other than pipelines or
underground storage facilities, subject to execution of
a value in excess of $250,000) also meets the financial
responsibility test. In fact, Dakota Access argues that
where the legislature has established this specific
requirement, the Board lacks the authority to establish
a higher requirement in a specific permit proceeding.
(In. Br. 44.)
Dakota Access clarifies, however, that meeting the
financial responsibility requirements of Iowa Code
§ 479B.13 does not place any limit on Dakota Access’s
liability in the event of a spill. Rather, the company
will be ultimately responsible for any damages caused
by the operation of the pipeline. (Id.) For this reason,
the company has provided evidence of financial
responsibility far in excess of the $250,000
requirement. First, Dakota Access has committed to
providing proof to the Board that it has obtained a
$25,000,000 general liability policy before putting the
pipeline into operation. (Tr. 2184, 2237, 2251, 2494.)
Second, Dakota Access will own a revenue-generating
physical asset, the pipeline itself, with a value of
approximately $4 billion, and the company will have a
strong incentive to provide sufficient resources to
protect that asset. (Tr. 1306.) (In. Br. at 45.)
Beyond Dakota Access itself, its parent companies
are among the largest companies in the United States.

App. 171
For the 12 months ending June 30, 2015, the three
parent companies had consolidated revenues of over
$190 billion. (Exh. DRD Direct 21-23.) On this record,
their market capitalization is over $60 billion. (Exh.
DRD Dir. 21-22.) Dakota Access argues that these
parents give it the financial capability to deal with
clean-up expenses and damages from any potential
spills and OCA witness Bodine agrees. (Exh. Bodine
Dir. 7.) Dakota Access provided evidence of parent
company guarantees pledging resources to Dakota
Access to address emergency situations, including the
testimony of a company executive that the parent
companies would back Dakota Access. (Tr. 2495.)
Finally, if all of those assets were somehow
insufficient or unavailable, Dakota Access says that the
Oil Spill Liability Trust Fund provides protection.
(Exh. DRD Dir. 21-23; Exh. JM Reply 7-8; Tr. 3230-35.)
That fund, which is funded by the industry itself
through a charge based on the volume of product being
shipped through pipelines, provides the final backstop
for any clean-up costs. (In. Br. 47.)
The Sierra Club argues that oil spills can cost
millions, or even billions, of dollars to remediate, so the
$250,000 financial responsibility requirement of Iowa
Code § 479B.13 is inadequate. (In. Br. 48-9.) Sierra
Club argues that the insurance policies and parent
company guarantees mentioned by Dakota Access do
not give much assurance of adequate financial
responsibility because the insurance policies have not
yet been obtained (so the coverage and exclusions are
unknown) and the parent company guarantees are
subject to terms and conditions that are not a part of

App. 172
this record. (Sierra Club Reply Br. 22-23.) Sierra Club
says that the Oil Spill Liability Trust Fund only applies
to discharges into or upon the navigable waters of the
United States, pursuant to the terms of 33 U.S.C.
§ 2702(a). Thus, the fund would not be available for
spills that damage agricultural land or other land that
is not a navigable water, according to Sierra Club. (In.
Br. 49.)
SEHN argues that even if the parental corporate
guarantees are relied upon, the Board still cannot
assure Iowans as to the solvency of the owners and
operators of the proposed pipeline because Dakota
Access itself could be sold to different owners. Iowa
Code § 479B.14 gives the Board authority to review and
approve any sale or transfer of a permit, but it does not
appear to provide authority to review and approve the
sale of the permit holder itself. So, if Energy Transfer
Partners chooses to sell its partnership interest in
Dakota Access to another company with lesser assets,
the Board would have no authority to review that
transaction. (SEHN In. Br. 7.) SEHN notes that this
has already happened to some extent while this matter
was pending before the Board, as Energy Transfer
Partners sold a 30 percent interest in Dakota Access to
Sunoco Logistics Partners, L.P. (Exh. CAF Direct at 3.)
IFOA says that the insurance Dakota Access has
promised to obtain will be inadequate; witness Lowman
testified that “if there is no real risk, then Dakota
Access should have no problem securing more
insurance.” (Exh. Lowman Dir. at 4.) IFOA also asks
what would happen to an insurance claim if a spill
occurred as a result of an accident or act of nature such

App. 173
that the pipeline company
responsibility. (In. Br. at 30-31.)

could

disclaim

Sorenson argues that the best way to solve a
problem is not to have the problem in the first place.
Thus, the best way to prevent oil spills associated with
the pipeline is to deny the permit. (In. Br. at 33.)
In its reply brief, Dakota Access points to a Coast
Guard ruling regarding the application of the Oil Spill
Liability Trust Fund to oil discharges in agricultural
fields that was determined to be covered by the Fund
because the oil flowed from the field into a drainage
ditch, then into a canal, and then could have flowed
into a larger canal, a bayou, and finally into a lake that
is a navigable waterway. (Reply Br. 14-15, citing Claim
Number E1-642-0007, Determination dated
10/13/2011.) Because the Fund is triggered if there is a
“substantial threat” of a discharge into a navigable
waterway, the Fund’s coverage is much broader than it
might first appear, according to Dakota Access. (Id.)
Board analysis. Dakota Access has attempted to
show that this project is backed by financial assets to
address the clean-up and remediation of an oil spill. In
addition to the minimum financial responsibility
requirements of Iowa Code § 479B.13, the company has
committed to purchase a $25,000,000 general liability
insurance policy (which the company commits to file
with the Board prior to commencing operations, see
Dakota Access Reply Br. at 52) and has provided
parental corporate guarantees. As the opposing parties
point out, the insurance policy has not yet been
purchased (so precise terms, conditions, and exclusions
are not known), and the corporate guarantees are

App. 174
subject to the terms and conditions of other corporate
agreements that are not a part of this record, so there
is still some uncertainty regarding the precise extent of
the additional financial protection provided by these
agreements. That concern will be addressed below, in
connection with the terms and conditions applicable to
the permit, if issued.
The oil spill remediation measures associated with
the proposed pipeline represent a factor that merits
significant weight in the Board’s balancing test.
e. Cultural Issues
Sierra Club argues that Dakota Access has not
properly investigated and documented the
archaeological and historic resources that will likely be
impacted by the proposed pipeline project. (In. Br. at
50-57.) Sierra Club based its argument on the
testimony of John Doershuk, the Iowa State
Archaeologist. (Exh. JD-1.) Dr. Doershuk testified to
alleged deficiencies in the work performed by the
consultants hired by Dakota Access. He said they failed
to coordinate and consult with his office and did not
provide requested information to the State Historic
Preservation Office. He found the company’s
Unanticipated Discoveries Plan (Exh. MH-3) to be
inadequate; the reports submitted by the company’s
consultants are limited to areas under the jurisdiction
of the Corps of Engineers, which he finds inadequate;
and the reports provided to the State Historic
Preservation Office are deficient. (Sierra Club Exh. 33.)
Sierra Club acknowledges that there is no legal
requirement that Dakota Access consult with the State

App. 175
Archaeologist’s Office but it argues that the failure to
do so is “an absolute insult to [anyone] who cares about
cultural resources.” (In. Br. 55.) Sierra Club says this
is a regulatory gap that the Board should fill by
requiring consultation before any permit can be issued.
(Id.) Sierra Club also argues that this is an example of
why an Environmental Impact Statement (or
equivalent) should be required in connection with this
project. (Id. at 56.)
Dakota Access argues that it has properly surveyed
and researched the potential impact of the project on
cultural resources in Iowa. Dakota Access says that
Dr. Doershuk admits his only complaint is that he did
not get information he would have liked to get for the
non-federal portions of the project (Tr. 2909), but the
company is not required by any Iowa statute to provide
that information. (Reply Br. 32.) Dakota Access argues
that Dr. Doershuk’s opinions are biased by the fact that
Dakota Access chose to use other contractors to
perform environmental consulting services, rather than
the Office of State Archaeologist (OSA). (Id.)
Board analysis. As a part of this permitting process,
Dakota Access is expected to plan for and take
adequate steps to protect any cultural resources that
may be impacted by the proposed project. The law
allows an entity in Dakota Access’s position to fulfill its
obligations by hiring the OSA or by hiring other
consultants. (Iowa Code ch. 263B; Tr. 2882-83.) So long
as the final plans meet applicable legal requirements
and are otherwise sufficient, the company has made an
adequate showing on this point. Here, Sierra Club has
taken issue with the manner in which Dakota Access

App. 176
prepared the necessary plans and reports, but Sierra
Club has not identified any respect in which the plans
and reports are inadequate or insufficient, either
legally or otherwise. The alleged deficiencies identified
in Exhibit JD-1 really come down to dissatisfaction
with the decision of Dakota Access to hire someone
other than OSA to do this work, and as described
above, Dakota Access had the legal right to hire a
different contractor.
Cultural issues are important, but the issue here
involves the identity of the consultants hired to
perform this work. That issue is a factor that merits
little weight in the Board’s balancing test.
V.

Route Issues
a. Compliance with Iowa Code § 479B.5

Iowa Code § 479B.5 lists several requirements that
must be met when a petition for a hazardous liquid
pipeline is filed with the Board. There appears to be no
dispute concerning the requirements of Iowa Code
§§ 479B.5(1-5, 7, and 9). The two requirements where
issues have been raised are Iowa Code §§ 479B.5(6) and
(8). Subsection 479B.5(6) requires that the petition
address the possible use of alternative routes and Iowa
Code § 479B.5(8) requires that the petition address the
inconvenience or undue injury which may result to
property owners from the pipeline project.
To address the issue of alternative routes, Dakota
Access used a GIS software program to evaluate
potential alternative routes based upon certain
parameters provided by Dakota Access. The datasets
utilized by Dakota Access included engineering,

App. 177
environmental, and land use. Engineering includes the
location of existing pipelines, railroads, karst
landforms, and powerlines. Environmental includes
critical habitat, fault lines, state parks, national
forests, and national registry of historical sites. Land
use includes dams, airports, cemeteries, schools,
mining, and military installations.
Each of the factors contained in the datasets was
weighted as low, moderate, or high based upon
perceived risk and the engineering, environmental, and
land use datasets. Dakota Access explains that the
preferred route would use locations identified as low
risk, or where necessary moderate risk, but would
avoid high risk locations. Dakota Access also attempted
to follow the shortest route in order to result in the
fewest overall impacts to land use. According to Dakota
Access, the computer model evaluated many more
alternatives than could be evaluated manually. Dakota
Access witness Howard testified that the proposed
route has been modified in multiple locations to avoid
Well Head Protection/HCAs (High Consequence Areas),
wetlands and water bodies, certain cultural resource
sites, home and farm sites, buildings, irrigation
systems, power poles and towers, other structures, and
property corners. According to Howard, route
modifications were also made based upon aerial
imagery, actual site visits, and helicopter
reconnaissance. In addition, the specific weighting for
the types of property to be crossed is shown in detail in
IFOA Exhibit 5.
Issues have been raised by those parties opposed to
the pipeline regarding the proposed route that runs

App. 178
diagonally through landowner’s property when there
appears to have been no evaluation of an alternative
route that would run north-south and then east-west
on division lines of lands. Landowners point out that
the proposed use of a diagonal route cuts across all tile
systems in agricultural land while a route that ran
along division lines or used road right-of-way would not
have the same impact on landowners. It is argued that
using division lines would alleviate or reduce the
impact of the proposed line on tile systems since tile
systems are typically separated along division lines
where property owned by different landowners comes
together.
Board analysis. Requiring a hazardous liquid
pipeline to follow division lines or road right-of-way, as
is required for electric transmission lines in Iowa Code
§ 478.18, is not a reasonable alternative for the
proposed pipeline since sharp turns in the pipeline
reduce the ability to inspect the pipeline with current
technology. (Tr. 2223-25.) Moreover, division line
construction would increase the total length of the
pipeline in Iowa, affecting more land and potentially
more landowners. Suggested routes running north to
south and then west to east would increase the length
of the pipeline and would affect different landowners
with the same or similar interests to those landowners
who are affected by the proposed route.
The GIS program relied on the weighting factors
shown on IFOA Exhibit 5 and those weighting factors
do not appear to be unreasonable. Neither the statute
nor Board rules require specific weighting or a specific
method of weighting for evaluation of a pipeline route

App. 179
or alternative routes. The one type of structure or land
use that is arguably missing from the list of land uses
in IFOA Exhibit 5 is the location of tile systems utilized
by landowners to remove excess water from
agricultural land. There is also no weighting given to
agricultural use of the land. This may be considered by
some parties to be a fatal flaw in the evaluation
performed by the GIS program; however, because of the
pervasive nature of Iowa farmland, any pipeline of any
significant length constructed in Iowa will cross
agricultural land and cross tile systems. Even if
agricultural land and tile systems were included as a
dataset, the ranking for such a data set would be the
lowest ranking since many other environmental and
land uses would reasonably be considered a higher risk
for location of a pipeline.
The evidence presented by Dakota Access shows
that the routing process engaged in by Dakota Access
was reasonable. The GIS program evaluated land uses
and developed a route that would avoid those land
areas where the pipeline could impact critical
structures or habitat. The fact that the route goes
diagonally across agricultural land is not a reason to
require Dakota Access to start the evaluation process
over. The safety of the hazardous liquid pipeline is of
paramount importance and requiring a pipeline to
zigzag using divisions of land creates safety issues that
weigh against use of division lines. Although the GIS
modeling done by Dakota Access did not consider
alternative routes running north and south then east
and west, the GIS modeling did consider alternative
routes to avoid high risk and some moderate risk
structures and land uses.

App. 180
As discussed above, Dakota Access has shown that
it has complied with the requirements of Iowa Code
§ 479B.5(6). Compliance with the requirements in Iowa
Code § 479B.5(8) relating to undue injury to specific
property will be addressed under the sections below
which consider what, if any, conditions should be
placed on construction of the pipeline and the issues
regarding the request for the right of eminent domain
over individual parcels.
VI.

Terms and Conditions
Overall Route

Applicable

to

Iowa Code § 479B.9 provides, in relevant part, that
“the board may grant a permit in whole or in part upon
terms, conditions, and restrictions as to location and
route as it determines to be just and proper.” A number
of parties to this docket have proposed a variety of
terms and conditions that should be placed on
construction of the pipeline for the Board’s
consideration. Those terms and conditions considered
significant by the Board are addressed below.
a. Dakota Access Commitments
Dakota Access in its reply brief at pages 52-53 made
the following commitments with regard to the
construction of the pipeline, which the Board considers
conditions for approval of the pipeline permit.
However, as discussed later in this order, the Board
does not consider the commitments made by Dakota
Access to be all of the conditions necessary to address
issues raised concerning construction of the pipeline
and in some instances the Board will consider
modifying the commitments made by Dakota Access.

App. 181
a. Dakota Access will obtain and maintain a
general liability policy in an amount of no less
than $25 million and will provide proof of such
insurance to the Board prior to commencing
operations. Dakota Access will commit to
maintaining such a policy at all times the
Dakota Access Pipeline is operational and will
provide updated proof of such policy upon
reasonable request from the Board (but no more
than annually).
b. Dakota Access will provide quarterly status
reports to the Board beginning July 1, 2016, and
continuing until the pipeline is in operation.
c. If, at the time of filing the October 1, 2016,
status report Dakota Access cannot represent
that all construction and restoration in Iowa will
be completed by December 1, 2016, Dakota
Access will file with the status report a Winter
Construction Plan including methods for
construction and/or stabilization in winter
conditions.
d. Dakota Access will keep record of all drainage
tile crossings with GPS coordinates and within
180 days of the completion of the Project will file
with the Board as-built specifications of the
pipeline including the location and depth of all
identified drainage tile.
e. Dakota Access will file with the Board final
versions of the Stormwater Pollution Prevention
Plan and Unanticipated Discovery plans prior to
commencement of construction, and will notify

App. 182
the Board when its final Facilities Response
Plan is filed with PHMSA.
f. Dakota Access will file with the Board permits,
approvals, or other similar documents from the
U.S. Corps of Army Engineers and Iowa
Department of Natural Resources prior to
commencing construction.
g. For the area in the workspace easement but not
over the trench, Dakota Access agrees to modify
its AIMP to provide that the topsoil will be
removed to a depth of 12 inches or, if the topsoil
depth is greater than 12 inches, the actual
topsoil depth if requested by the landowner,
provided there is adequate room in the
permitted workspace.
h. Dakota Access will place the pipeline
underground with no less than 48 inches of cover
to the top of the pipe in all agricultural lands
except (a) where less cover is requested by the
landowner and Dakota Access determines the
request is prudent and otherwise lawful or
(b) where there is a subsurface obstruction that
would prevent Dakota Access utilizing the
48-inch depth, in which case the depth will be in
accordance with applicable federal and state
rules.
If the permit is granted, the Board expects Dakota
Access to fulfill each of these commitments, including
the ones that are strengthened or otherwise modified
later in this order.

App. 183
b. Permits and Authorizations
Dakota Access says it is seeking, and anticipates
obtaining, all permits and authorizations required for
the proposed pipeline. These include multiple federal
and state permits and approvals. The company says the
only permit the Board should be concerned with in this
docket is the requested permit to construct, operate,
and maintain the proposed pipeline under Iowa Code
chapter 479B. (In. Br. 19.) Dakota Access says there is
no requirement that the Board review the status of the
various other permits and no requirement that the
Board’s approval be tied to those other permits or
authorizations. (Id. at 20.) Instead, Dakota Access
urges the Board to proceed to grant a permit and
designate the approved route of the pipeline, as the
approval of some other agencies is tied to the
designated route. (Id.)
Sierra Club argues that Dakota Access has not
shown adequate progress toward obtaining a Section
404 permit from the U.S. Army Corps of Engineers
because there is no evidence in this record of sufficient
archaeological and environmental review or sufficient
consultation with the U.S. Fish and Wildlife Service
under section 7 of the Endangered Species Act.
(16 U.S.C. § 1536.) Sierra Club says Dakota Access has
also failed to demonstrate adequate consultation as
required under Section 106 of the National Historic
Preservation Act, 16 U.S.C. § 470f. Sierra Club
“strongly believes that the Board should not grant a
permit in this case since Dakota Access has not carried
its burden to show that it has complied with federal
permit requirements.” (In. Br. 32.)

App. 184
Sierra Club asserts that the primary state permit
which Dakota Access must obtain is a permit to cross
sovereign lands. (In. Br. 56.) Sierra Club says that the
company has failed to provide any evidence regarding
any studies or surveys that may have been done with
respect to such a permit and argues that this is another
reason that an Environmental Impact Statement or its
equivalent should be required in connection with this
project. (Id.)
Dakota Access does not appear to specifically
address the permit to cross sovereign lands; instead,
the company argues that there is no requirement that
the Board must review the status of other pending
permits or authorizations. The company says the Board
should lead in Iowa by designating the route for the
project so that other agencies know what to examine.
(In. Br. 19-20.)
In its reply brief, Dakota Access commits to file with
the Board the permits, approvals, or similar documents
from the U.S. Army Corps of Engineers (and Iowa
Department of Natural Resources) prior to commencing
construction. (Reply Br. 53.)
Board analysis. The proposed pipeline will require
a variety of permits before it can be built and operated.
Many of those permit proceedings have at least some
potential to interact; for example, many have the
potential to require re-routing of the project, which
could affect other permit proceedings in a substantial
way. Still, if every agency reviewing the project for a
particular permit were to refuse to act until all of the
other agencies had acted, then no permit would ever be

App. 185
issued and infrastructure that may be necessary to
serve the public benefit would never be built.
The Board has avoided this Catch-22 in the past by
issuing a permit that is based upon the record made
before the agency, including the petitioner’s
representations that it will obtain all necessary and
required permits and authorizations prior to
construction and operation of the proposed project. If
those permits or authorizations are not obtained, then
the Board’s permit is void because a necessary
precondition of the permit has not been satisfied. The
Board will use this same mechanism here; the permit,
if one is issued, will be conditioned upon receipt of all
other required permits and authorizations. Moreover,
Dakota Access will be required to file a petition for an
amended permit if, in the process of obtaining some
other authorization, the route of the proposed pipeline
(or any other major aspect of the proposed pipeline) is
significantly changed.
Finally, the Board will monitor the company’s
compliance with these requirements by requiring that
the company file a notice of completion each time the
company acquires a permit, or completes an
authorization process, for any of the permits identified
in Hearing Exhibit MH-4. Dakota Access may either
file the permit or other authorization directly or it may
file a notice of having received the permit or
authorization. If the company chooses to file a notice,
it should include sufficient information to allow an
interested person to easily obtain a copy or other
confirmation that the permit or authorization has been
issued.

App. 186
c. Agricultural Impact Mitigation Plan
One of the issues with regard to the overall route is
whether the Agricultural Impact Mitigation Plan
(AIMP) proposed by Dakota Access complies with the
Iowa Code § 479B.20 and Board rules and whether
there should be additional terms and conditions
required for construction of the pipeline. The AIMP is
filed as Petition Exhibit I to the petition filed by
Dakota Access.
NILA proposes a number of revisions to the AIMP
and those proposed revisions considered significant will
be considered by the Board in this order. The revisions
proposed by NILA are shown on Appendix A to NILA’s
initial brief. NILA’s brief includes an explanation for
each proposed revision to the AIMP.
Before addressing the individual revisions proposed
to the AIMP, the Board will address the legal issue
raised by Dakota Access regarding the Board’s
authority to require terms and conditions beyond those
required in 199 IAC chapter 9, the Board’s “Restoration
of Agricultural Lands During and After Pipeline
Construction” rules. Chapter 9 establishes what the
Board considers to be the minimum construction and
restoration requirements for construction of a pipeline
as required in Iowa Code § 479B.20.
NILA proposes more stringent standards for the
AIMP and proposes to add language to the AIMP
clarifying that Chapter 9 applies only where the AIMP
is silent. Dakota Access argues that the AIMP complies
with chapter 9 and the “Board is without authority to
create new rules in a contested case proceeding,” citing

App. 187
Office of Consumer Advocate v. Iowa Utilities Bd., 744
N.W.2d 640 (Iowa 2008). In that case, the Iowa
Supreme Court held that “making policy by ad hoc
decisions on a case-by-case basis is contrary to the
legislative intent of the IAPA.” (Id. at 646.) Dakota
Access argues that imposing any additional conditions
at this time would be an error of law. (Reply Br. 25.)
The Board does not agree with Dakota Access’s
interpretation of Iowa Code § 479B.9 or that the Office
of Consumer Advocate case is applicable. Section
479B.9 specifically authorizes the Board to impose
terms and conditions that the Board determines to be
“just and proper” and if the evidence in this case
indicates that for this particular project an additional
land restoration standard is required then the Board
may impose that standard as a condition of the permit.
A decision that the evidence in a particular case
supports additional mitigation conditions over and
above those required in 199 IAC chapter 9 is not a
policy decision as addressed in the Office of Consumer
Advocate decision. The AIMP established in 199 IAC
chapter 9 establishes the minimum requirements for
mitigation of construction damage to agricultural land
and does not limit the Board from adopting other
specific conditions for a particular pipeline.
(1)
Author of the Plan. The current AIMP
identifies Dakota Access as the author; NILA argues
that the language should be revised to state that the
AIMP has been adopted by the Board. The Board
agrees with NILA. The AIMP should be understood as
a Board directive that is applicable to the construction
of the pipeline and is to be followed by Dakota Access

App. 188
and the county inspectors, unless otherwise agreed to
by the landowner. The Board will adopt this proposal
from NILA and will require Dakota Access to file a
modified AIMP incorporating this requirement.
(2)
Role of the County Inspector. NILA
proposes to add language clarifying the roles of the
county Board of Supervisors and the county inspector.
NILA also proposes to add a new paragraph explaining
the enforcement provisions of 199 IAC 9.7, that is, if
Dakota Access or its contractors do not comply with the
AIMP or Chapter 9, or with an independent agreement
with a landowner, then the county Board of
Supervisors may petition the Board for an order
requiring corrective action and assessing civil
penalties. According to NILA, the language clarifies
that the county Board of Supervisors would be
responsible for investigation and prosecution of the
case before the Board.
In response, Dakota Access argues that NILA’s
proposal would give county inspectors unqualified “stop
work” authority and, in particular, would allow them to
stop the company from backfilling a trench if “winter
conditions would be likely to occur,” a condition
proposed by NILA. Dakota Access argues this would be
unworkable and would exceed the authority specified
in Iowa Code § 479B.20(7), which only authorizes the
temporary suspension of work “until the inspector
consults with the supervisory personnel of the pipeline
company.”
Iowa Code § 479B.20 contains express language
regarding the role of the county inspector and the
obligations of the county inspector during pipeline

App. 189
construction. It is the Board’s understanding that all
but a few counties have contracted for a qualified
engineer to act as the county inspector to ensure the
construction of this pipeline is consistent with the
AIMP, as modified by this order, the standards in Iowa
Code chapter 479B, and any agreement with the
landowner. The inspector has the authority to order
corrective action be taken by Dakota Access or a
Dakota Access contractor for violation of the statutory
standards, the AIMP, or an independent agreement
with the landowner. The county inspector also has the
authority to temporarily halt construction and consult
with Dakota Access or the Dakota Access contractor if
a violation is discovered.
Dakota Access is correct that pursuant to Iowa Code
§ 479B.20(7) a county inspector may only halt
construction temporarily; however, there is no time
period prescribed in that section for such a temporary
halt in construction. Since the statute also provides
that the county Board of Supervisors may petition the
Board for civil penalties, it appears the temporary
period may be long enough for the County Board of
Supervisors to decide whether to file a complaint with
the Board if the violation is not corrected. The Board
adopts this proposal from NILA and will require
Dakota Access to file a modified AIMP incorporating
this requirement.
(3)
Conflict of Laws. NILA proposes to delete
language from the AIMP stating that the mitigation
measures will be implemented only if they do not
conflict with federal, state, and local permits,
approvals, and regulations. NILA says that county

App. 190
inspectors should not be burdened with the task of
interpreting federal, state, or local laws or other
provisions while in the field.
The Board disagrees. The county inspector is to
inspect the construction of the pipeline to ensure
compliance with Iowa Code chapter 479B, the AIMP, as
modified by this order, and any independent agreement
with a landowner, but if other laws preempt those
provisions it should be clear that those other laws are
controlling.
(4)
Four Week Notice, Points of Contact, and
Definition of “Proper Notice to the Landowner.”
These three proposed modifications to the AIMP are all
addressed to the broader issue of when Dakota Access
should provide notice to landowners, county boards of
supervisors, and county inspectors and what should be
contained in those notices. The Board will consider
them together.
Iowa Code § 479B.20 requires that each county
Board of Supervisors arrange for on-site inspection of
the company’s mitigation measures. NILA asserts that
counties should be given four weeks after issuance of
the permit to retain one or more county inspectors and
that construction should not be permitted to commence
until after that four week period has expired. NILA
also proposes to delete language indicating the pipeline
will take approximately nine months to complete.
However, the Board understands that the various
counties are already aware of this proposal and most,
if not all, of those counties have already retained
county inspectors. This additional notice period is
unnecessary and will not be adopted.

App. 191
With respect to points of contact, Dakota Access
proposes to designate a state-wide point of contact for
landowners that will be available until at least one
year after completion of construction. It also proposes
to provide contact information for its local
representatives (or “geographic area representatives”
in Dakota Access’s terminology) at least two weeks
prior to construction. NILA proposes a state-wide point
of contact and at least three weeks written notice to
landowners regarding the geographic area
representatives. The three week written notice would
inform landowners of the name and contact
information for the relevant county inspector. Finally,
NILA proposes that landowners also be permitted to
designate a point of contact.
Next, NILA proposes language that would allow a
landowner to request and receive at least 24 hours’
written notice before trenching, permanent tile repair,
dewatering, and backfilling takes place at any specific
location. Dakota Access objects, saying it cannot
logistically provide such notice to 1,274 landowners.
(Tr. 2355-56; Reply Br. 36-7.)
The Board does not consider it necessary for Dakota
Access to give three weeks written notice for the
geographic area representatives. Two weeks’ notice, as
described below, should be sufficient. The Board will
require Dakota Access to inform the landowner of the
name and contact information for the relevant county
inspector(s) as part of the two week notice.
As indicated above, the Board will require Dakota
Access to give notice to the landowner two weeks before
construction is to begin on the landowner’s property

App. 192
and a second notice 48 hours before construction is to
begin. After the two week notice is given, Dakota
Access, its contractor, the inspector, and the landowner
will then each be responsible for being ready to observe
and discuss any issues regarding trenching, tile repair,
dewatering, and backfilling, if necessary. The 48 hours’
notice is required since Iowa Code § 479B.20(6)
provides that Dakota Access shall allow landowners
and county inspectors to view the proposed center line
of the pipeline prior to commencing trenching
operations to ensure that construction takes place in
the correct location. Finally, the Board agrees that
landowners may also designate their own point of
contact. The Board will require Dakota Access to file a
modified AIMP incorporating these notice
requirements.
(5)
Definition of “Qualified Technician.”
NILA proposes to define the term “qualified technician”
as including any person who regularly installs drainage
tile or soil conservation practices or structures. NILA
says this has been an issue for landowners who
attempted to submit plans to Dakota Access in 2015.
(NILA Br., Appx. B, p. 3.)
The term “qualified technician” is not included in
the AIMP prepared by Dakota Access. The issue raised
by NILA appears to involve acceptance by Dakota
Access of diagrams presented by the landowner of tiling
systems located on a parcel. Rather than adopt a
definition for who is a qualified technician, the Board
will require Dakota Access to request any drain tile
diagrams for each parcel from the landowner when the
two week notification (discussed above) is made and

App. 193
the landowner can then provide any such diagram to
Dakota Access prior to construction. The landowner
should also provide any such diagrams to the county
inspector. The Board will not adopt the proposal from
NILA to define the term “qualified technician” and will
instead require Dakota Access to file a modified AIMP
incorporating the requirement that the company
request any drain tile diagrams as a part of the
two-week notice.
(6)
Separation of Topsoil and Subsoil. NILA
proposes to modify in the AIMP the topsoil separation
and replacement provisions of 199 IAC chapter 9,
including rule 9.4. NILA proposes, among other things,
to give landowners the right to require separation of
more than 36 inches of topsoil where that condition
exists.
Dakota Access argues that AIMP Section 6.2,
relating to topsoil stripping and separation, is based on
199 IAC 9.4(1)(a), which provides that the actual depth
of the topsoil, not to exceed 36 inches, will first be
stripped from the area to be excavated. Dakota Access
states that there is no basis for NILA’s proposed
change and, moreover, the 36 inch requirement is
adequate because in most cases there will be far less
than 36 inches of topsoil because the average topsoil
depth in Iowa is approximately 15 to 16 inches.
(Tr. 1036.)
The Board considers it important that Dakota
Access separate all of the topsoil from the area where
the topsoil is greater than 36 inches, even if Board
rules do not require separation beyond that depth. The
Board considers NILA’s proposal to be a request for

App. 194
waiver of 199 IAC 9.4(1)(a), to the extent it is
inconsistent with this requirement; furthermore, the
record evidence supports separating all topsoil in order
to protect that precious resource. Removal of all topsoil
from the land and then restoring it to the original
depth will reduce the impact of the construction of the
pipeline in those locations where topsoil of a depth
greater than 36 inches is located. The Board will adopt
this proposal from NILA and will require Dakota
Access to file a modified AIMP incorporating this
requirement.
(7)
Aboveground Facilities. Dakota Access’s
proposed AIMP language would allow the company and
landowners to coordinate regarding the location of any
aboveground structures. NILA proposes language
limiting this option to “minor” aboveground structures,
such as markers. NILA believes that the AIMP should
not affect the location of major aboveground structures,
such as valves.
The Board agrees with NILA and will adopt the
language proposed by NILA to section 6.4 in the AIMP.
Dakota Access will be required to incorporate this
change into its modified AIMP.
d. Proposed Modifications to Easement Forms
Iowa Code § 479B.16 provides when a permit is
granted the pipeline owner is granted the right of
eminent domain to the extent necessary and as
prescribed and approved by the Board, not exceeding
75 feet in width for right-of-way and not exceeding one
acre in any one location in addition to right-of-way for
the location of pumps, pressure apparatus, or other

App. 195
stations or equipment necessary to the proper
operation of its pipelines. Dakota Access is requesting
that the right of eminent domain be granted for a total
of 150 feet of which 50 feet would be for the permanent
easement and 100 feet would be for a temporary
construction easement.
Dakota Access argues that the full 150 feet of
easement is necessary to allow for separation of the
topsoil and other construction activity. There appears
to be no dispute that this is a reasonable width of
easement during construction to ensure sufficient space
for construction and separation of topsoil and the
Board finds that Dakota Access has presented
sufficient evidence to demonstrate that an area greater
than 75 feet is required for proper construction as
allowed pursuant to Iowa Code § 479B.16.
Dakota Access witness Frey in Exhibit CAF-4
provided an overview of the easement rights sought
from those landowners who had not agreed to
voluntary easements. Frey describes four types of
easements sought by Dakota Access: (1) a permanent
50 foot easement; (2) an access easement; (3) valve site
easements; and (4) launcher and receiver site
easements. There is no dispute concerning the width of
the permanent easement, the dimensions of the valve
site easements, or the dimensions of the launcher and
receiver easements. On pages 19 to 43 of Exhibit CAF-4
the justification of the additional work space easements
is described. This list includes locations where Dakota
Access proposes to bore under roads and highways,
railroads, work around county drainage tile mains,
cross waterways, and the space needed for directional

App. 196
drilling under the Mississippi River. There has been no
general challenge to the request for additional work
space easements, so the Board will approve the
additional work space easements described in Exhibit
CAF-4 for those parcels over which the power of
eminent domain is granted.
NILA has proposed revisions to Dakota Access’s
proposed permanent and temporary easements for use
on condemnation parcels. Each of the adopted revisions
will be discussed below.
(1)
Aboveground Appurtenances. Dakota
Access seeks the right to place aboveground
appurtenances, such as valves, on each of the
condemnation parcels at any time in the future without
having to acquire any additional easement rights at
that time. However, the testimony establishes that
Dakota Access currently requires only 66 locations for
aboveground appurtenances, each of which is subject to
a separate easement. (Tr. 1389; Exh. CAF-4, p. 4.)
Dakota Access witness Mahmoud admitted that the
company does not currently need valves on the other
condemnation parcels. (Tr. 2377-79.) NILA argues the
burden of a potential future valve installation is
substantial and Dakota Access has not shown any
current need for that right, so language purporting to
allow future valves without further compensation
should be stricken. The only aboveground
appurtenances that should be included in the
condemnation easement are markers.
Dakota Access argues that the Exhibit H filings for
currently-identified valve sites have specific valve site
provisions. Dakota Access seeks condemnation

App. 197
authority for other valve sites, not yet identified, “in
the event that changed human or environmental
conditions warrant additional or changed valve sites.”
(Reply Br. 30.) According to Dakota Access, this would
enable the installation of additional valves without
subjecting landowners to another condemnation
proceeding. Dakota Access states that if this occurs it
will provide additional compensation to the affected
landowner.
OCA argues that future aboveground
appurtenances should be the subject of new
negotiations regarding location and compensation with
the individual landowners involved. Future changes
should be addressed when those changes are known.
The Board will require that the condemnation
easement agreement be modified to remove the
language that would allow Dakota Access the right
under the easement to place valves on a landowner’s
property at some future time. The Exhibit H parcel
descriptions filed by Dakota Access show the location
of the valves that Dakota Access is required to install
to comply with federal safety regulations. To install
any additional valves in the future, Dakota Access will
need to negotiate a voluntary easement with the
landowner or, if no agreement is negotiated, file for
additional eminent domain authority and an
amendment to Exhibit H.
(2)
Access to the Easement Strips. Dakota
Access seeks the right to access its easement by
crossing any part of each entire property in any
manner and at any time that is convenient.
Landowners have objected and assert that the company

App. 198
should be allowed to access the Pipeline Easement and
Temporary Construction Easement areas only by
means of those easements or by specifically-defined
access easements. Dakota Access witness Johnson
testified that unless a specific access easement is
defined and requested, or unless otherwise agreed by
the landowner, Dakota Access will access the easement
area via the easement itself. (Tr. 1792; Exh. KLJ Reply
16; Reply Br. 29.)
The Board will require that the condemnation
easement agreement be revised to reflect that in the
absence of an emergency, Dakota Access can only
access a parcel where eminent domain is granted over
the permanent easement or the temporary construction
easement, unless there is a separate agreement with
the landowner. This is consistent with the testimony of
Dakota Access witness Johnson and will remove the
language in the current condemnation easement that
appears to allow access over the entire parcel at the
discretion of Dakota Access.
(3)
Relocation of the Pipeline Within the
Easement Area. Dakota Access seeks the right to
“reconstruct,” “realign,” or “relocate” the proposed
pipeline to any location within the 50-foot Pipeline
Easement area without having to acquire further
easement rights. NILA describes this as an
unnecessary overreach and says the words are not
necessary.
Dakota Access has the right to locate the pipeline
substantially anywhere within the 50-foot permanent
easement. Minor changes to the exact route within the
width of the permanent easement are reasonable.

App. 199
Dakota Access does not have the right, or authority, to
relocate the pipeline outside of the permanent
easement as approved in this order without requesting
additional eminent domain authority or by agreement
with the landowner.
In connection with this issue, another issue was
raised concerning the ability of Dakota Access to
deviate from the approved pipeline route by 660 feet as
provided for in 199 IAC 13.2(1)(a). The exact language
in that rule states that “Construction deviation of 660
feet (one-eighth mile) from proposed routing will be
permitted.” This rule addresses the scope of deviations
from the route that are allowed without first filing for
an amended permit; it is not related to, and does not
authorize location of the pipeline outside of the 50-foot
permanent easement unless Dakota Access is able to
obtain a voluntary easement for the deviation.
(4)
Term of Temporary Construction
Easement. Dakota Access seeks a Temporary
Construction Easement with a term of 18 months.
NILA believes that installation of the pipeline should
be performed in a manner that may require more time
than that so NILA proposes increasing the term to
either 30 months or two years.
It is not entirely clear, on this record, whether 18
months is a reasonable length of time for the
temporary easement to remain in effect, given the
terms and conditions the Board is imposing on the
permit; however, the Board considers it to be Dakota
Access’s decision regarding the length of the voluntary
easement and will not adopt the 30-month term
proposed by NILA.

App. 200
(5)
Fences, Gates, and Keys. Dakota Access
seeks to include a term in the condemnation easement
requiring that if a landowner erects a fence across the
Access Easement (if any) or Pipeline Easement, the
owner must install a gate and supply Dakota Access
with a key. Dakota Access must also be permitted to
install its own lock if it so chooses. NILA proposes that
if a fence is in existence prior to the Pipeline Easement,
Dakota Access must pay to install the gate; if the fence
is installed after the Pipeline Easement is in place, the
owner must pay for the gate. Whichever party is
responsible for installing the gate must supply the
other party with a key. Dakota Access may install its
own lock if it chooses, but the method of locking must
allow both parties to open the gate without the
assistance of the other.
The landowner and Dakota Access should both have
access to the pipeline easement area and the ability to
open any gate installed across a permanent easement.
The Board will adopt the revision proposed by NILA as
a reasonable way to accomplish this goal.
(6)
Review and Approval of Future Plans.
Dakota Access seeks the right to review and approve
the owner’s plans to do any of the following within the
easement area(s) or in any location that could
adversely affect the easement area(s): (1) Construct or
install any temporary or permanent site improvements
other than streets and roads; (2) Drill or operate a well;
(3) Remove soil or change the grade or slope;
(4) Impound surface water; or (5) Plant trees or
landscaping.

App. 201
NILA proposes that any plan approval rights should
be limited to the 50-foot pipeline easement area and it
should be clarified that the approval of Dakota Access
shall not be unreasonably withheld. Similar
clarifications should be applied to Dakota Access’s right
to review any landowner plans to construct certain
roads or to construct or alter water, sewer, or other
utility lines.
This issue is addressed by the Board decision that
revises the condemnation easement agreement by
limiting the pipeline company’s access to the 50-foot
permanent easement. The restrictions included by
Dakota Access in the condemnation easement as
described above are therefore only applicable to the
50-foot permanent easement. Moreover, the Board
concludes this right of approval should be bilateral.
Dakota Access should give the landowner the right to
review and approve any future plans of Dakota Access
to make surface changes within the easement, which
approval shall not be unreasonably withheld.
(7)
Removal of Trees and Shrubbery. Dakota
Access seeks the right to trim or remove trees and
shrubbery that, in the sole judgment of Dakota Access,
may be necessary to prevent possible interference with
any of its easement rights, even if those trees or
shrubbery are located outside the easement area. NILA
objects that this right should be limited to the 50-foot
permanent easement area. The Board agrees; one
reason for a 50-foot-wide easement is to make it so that
vegetation from outside the easement area will not
affect the pipeline in its actual location. Further, the
easement should contain language recognizing the

App. 202
obligation of Dakota Access to leave the easement area
in satisfactory condition after trimming or removing
trees or shrubbery.
(8)
Assignment of Easement Rights. Dakota
Access seeks the right to assign the easement rights
without limitation. NILA proposes that any assignment
of easement rights should be allowed only after the
assignment of the permit has been approved pursuant
to Iowa Code chapter 479B and with advance written
notice to the landowner. NILA argues that there should
also be a notice requirement in order to make certain
that landowners have up-to-date contact information.
Board approval is required before Dakota Access
can assign to another company the permit granted in
this order. Board rules at 199 IAC 13.19(1) state that
no permit shall be sold without prior written approval
of the Board. NILA’s proposed provision is unnecessary
and will not be adopted; any landowner who seeks to
challenge the transfer of an easement may do so in the
context of the permit transfer proceedings.
e. Environmental Issues
Several parties addressed environmental issues
concerning the proposed hazardous liquid pipeline that
could support the adoption of additional terms and
conditions. Many of those issues were raised by OCA
witness Thommes, who recommended the Board
require certain conditions if the pipeline is approved.
Thommes recommended 47 environmental conditions
and the proper method of construction to avoid or
minimize these issues. (OCA Exhibit Thommes Direct.)
Thommes also testified that he was not recommending

App. 203
any conditions that would go beyond what the U.S.
Fish and Wildlife Service and Army Corps of Engineers
will require. (Tr. 1611.)
In reply testimony, Dakota Access witness Howard
addressed many of the conditions recommended by
OCA witness Thommes. (Exhibit MH Reply at 2-5).
Howard testified that Dakota Access agreed to comply
with some of the conditions recommended by Thommes;
however, there were some of the recommendations that
Dakota Access did not consider appropriate. (Id. at
6-9.) Howard’s reply testimony includes a table setting
out each of those conditions, providing a reference to
the testimony supporting the proposed condition, and
responding to each proposed condition. (Exh. MH Reply
at 6-22.)
Using the numbers shown on the table in Howard’s
reply testimony, Howard testified that Dakota Access
is already complying with the following recommended
conditions: 1-3, 8, 9, 18, 24-26, 29, 30-35, 37, 39, 43, 45,
and 46. Howard testified that Dakota Access will
comply with the following recommended conditions at
the appropriate time: 5, 6, 10, 12-20, 23, 28, 40, 41, 44,
and 47. Howard testified that Dakota Access sees no
current or future need to comply with recommended
conditions 4, 7, 21, and 27 and Dakota Access disagrees
with the recommended conditions 13, 30, 36, 38, and
42.
The Board will not individually address those
recommended conditions that Dakota Access is
complying with or has agreed to comply with. However,
as previously indicated, the Board expects Dakota
Access to follow through on those commitments.

App. 204
The recommended conditions that Dakota Access
has indicated it does not agree are necessary are
individually discussed below.
(1)
“Incidental Take” Permit. Proposed
Condition No. 4 is a recommendation that the company
“obtain any necessary permits for take of or impacts on
listed species.” Dakota Access says it is not seeking an
incidental take permit because the project is not
expected to take any federal or state protected species.
Dakota Access has committed to obtaining all
necessary pre-construction permits and authorizations
prior to commencement of construction. The Board
considers this commitment sufficient to address this
recommended condition.
(2)
Migratory Bird Assessment. Proposed
Condition No. 7 is a recommendation that a Migratory
Bird Assessment, Mitigation, and Compliance Plan
should be developed. Dakota Access says the U.S. Fish
and Wildlife Service is responsible for enforcement of
these matters and the company has been and will
continue to comply with all directives of that agency.
Further, no mitigation plan is required to comply with
those requirements. Dakota Access argues that OCA
witness Thommes testified that there is no basis to
impose conditions beyond what the federal agencies
require, saying “I’m not going to recommend any
[conditions] beyond what the U.S. Fish & Wildlife and
Army Corps require, no.” (Tr. 1611.)
The Board considers the commitment made by
Dakota Access to obtain all necessary permits and
authorizations to be sufficient to address this

App. 205
recommended condition. Compliance with the
requirements of the U.S. Fish & Wildlife Service and
U.S. Army Corps of Engineers is a reasonable
accommodation of this concern.
(3)
Weed Management Plan. Proposed
Condition No. 21 is a recommendation that a Weed
Management Plan should be developed with cleaning
stations for construction equipment leaving areas with
weed populations to decrease the potential for
introducing noxious plants into the habitat of listed
species. Dakota Access states its biological field surveys
determined no large plots of weed infestation were
documented. Therefore, in the absence of weed
infestations, standard restoration and revegetation
practices are expected to be protective of listed species
habitat.
The Board considers Dakota Access’s biological field
surveys to be sufficient compliance and a separate
Weed Management Plan is not necessary. However, if
any county inspector identifies an area where extra
weed control measures may be appropriate, Dakota
Access shall take reasonable steps to implement those
extra measures identified by the county inspector.
Dakota Access shall modify the AIMP to reflect this
requirement.
(4)
Winter Construction Plan. Proposed
Condition No. 27 is a recommendation that the Storm
Water Pollution Prevention Plan (SWPPP) and AIMP
should include provisions for construction or
restoration during frozen conditions. Dakota Access has
committed to file a Winter Construction Plan if, as of

App. 206
October 1, 2016, Dakota Access determines that
construction will be required after December 1, 2016.
The Board does not consider the commitment made
by Dakota Access to be sufficient to allow for the
necessary review of a Winter Construction Plan. The
Board will require that Dakota Access file by August 1,
2016, a plan for construction during winter conditions.
This plan can then be reviewed by the Board and
interested parties in a timely manner, prior to winter
construction.
(5)
Hydrostatic Testing Water Sources.
Proposed Condition No. 13 is a recommendation that
waterbodies with the potential to contain listed species
should not be used as sources of water for hydrostatic
testing. Dakota Access disagrees, saying water
withdrawals can take place in those waterbodies
without affecting the protected species if BMPs are
used, such as using filters and taking water from the
surface instead of the bottom of the waterbody, where
sensitive species may live. (Exh. MH Reply at 9; Tr.
575.)
OCA agreed that the precautions proposed by
Dakota Access would reduce the risk, but argued that
the better approach is to take water for testing from
sources that do not contain protected species in the
first place. (OCA Br. 23.)
The Board agrees with OCA that the best practice
would be for Dakota Access to take water for
hydrostatic testing from sources that do not contain
protected species; however, this may not always be
possible. Dakota Access will be required to commit to

App. 207
only taking water from sources where protected species
may be affected when no other reasonable source is
available.
(6)
Spoil Storage From Streams. Proposed
Condition No. 30 is a recommendation that excavated
material from streams should be set back farther than
the ordinary high water mark, so the edge of the
workspace in those areas should be placed 50 feet back
from the ordinary high water mark. (OCA Exh. Flo
Direct at 9-10.) Further, the storage area should be in
an area with little slope (less than 5 percent). (Id.)
Dakota Access disagrees, saying a 30-foot setback of
the spoil area from the top of the bank is typically
sufficient and can be adjusted on a case-by-case basis.
(Exh. MH Reply at 13-14.) Dakota Access says the
50-foot setback is a Federal Energy Regulatory
Commission (FERC) requirement that only applies to
natural gas pipelines and does not apply to this
proposed pipeline, and even if it did apply, it would
only apply to non-agricultural lands. (Id., Dakota
Access Cross Exh. 1, and Tr. 1486-87.) Finally, Dakota
Access disagrees with the proposed slope setback
requirement, saying successful spoil storage on slopes
greater than 5 percent is often possible, depending on
other factors such as soil types, land use, and other
existing features (roads and wetlands, for example).
Dakota Access asserts that BMPs based upon the
specific conditions at each location will be as protective
of the environment as a flat 50-foot setback
requirement. (Reply Br. 19-20.)
OCA replies that it makes no sense to treat crude
oil pipelines differently than natural gas pipelines and

App. 208
that the recommendations of OCA’s experts are best
practices that have been implemented on other crude
oil pipeline projects. (Tr. 1507; Reply Br. 6.)
It appears from the evidence that the setback
requirements for natural gas pipelines are different
than those for hazardous liquid pipelines. Dakota
Access has committed to using best management
practices on a case-by-case basis to address any issues
regarding slope or setback distance. In addition,
according to Dakota Access the FERC setback
requirements do not apply to agricultural land for any
type of pipeline. The Board will approve the 30-foot
setback and use of slopes greater than 5 percent as
proposed by Dakota Access, with the understanding
that Dakota Access will follow best management
practices and use a greater setback distance and no
greater than a 5 percent slope where those best
management practices require those limitations.
(7)
Pre-identification of Waterbody Crossing
Methods. Proposed Condition No. 36 is a
recommendation that a proposed and an alternate
crossing method should be identified for each
jurisdictional waterbody that will be crossed so that the
Environmental Inspector can make informed
recommendations to minimize impacts. Dakota Access
says that it has identified the waterbodies that will be
drilled and every other crossing should be constructed
by whatever method the contractor determines is best
at the time of the crossing, based on the conditions
existing at that time, which must be assessed and
incorporated into the decision. The Chief Inspector and

App. 209
the Environmental Inspectors will have input at that
time.
Proposed Condition No. 38 is a related
recommendation that all information regarding
construction plans and waterbody crossing methods
should be provided to the Board and the county
inspectors designated by each county’s Board of
Supervisors prior to commencement of construction.
Dakota Access disagrees, saying there are four
potential waterbody crossing methods (horizontal
directional drilling or HDD, wet open cut, and two dry
open cuts, flume and dam and pump), and the specific
method should be determined on site at the time of
construction. (Exh. MH Reply at 16-17.)
The Board will require that information about the
intended method to be used in crossing a waterbody or
waterway be provided to the county inspector prior to
construction. The county inspector is to be informed
prior to any construction over the crossing if the initial
method is changed. County inspectors need to be
informed of the crossing methods so the inspector can
consult with Dakota Access if the inspector sees a
problem with the method intended to be used for
crossing the waterbody.
(8)
Board Approval of Final Plans. Proposed
Condition No. 42 is a recommendation that final
versions of all construction plans, including but not
limited to the SWPPP, AIMP, SPCC, and Winter
Construction and Winterization Plan, should be
submitted to the Board for evaluation prior to issuance
of a final decision on the petition. Dakota Access
disagrees, saying that finalizing all plans prior to

App. 210
permit issuance is not standard practice in the
industry; instead, applicants commit to the
implementation of certain plans in a manner that is
coordinated with the agency or agencies having
authority to enforce each plan. Other than the AIMP,
which is required in Iowa prior to issuance of the
permit, the plans OCA has identified will be
implemented as necessary to comply with federal
regulations and Dakota Access will coordinate with
those federal agencies. (Reply Br. 22-23.)
Dakota Access has committed to provide the Board
with the final version of the SWPPP and Dakota Access
will be required to file a revised AIMP for Board
approval prior to commencement of construction.
Review and approval of these two plans will ensure the
construction meets the requirements approved by the
Board.
(9)
Roosting Trees for Bats. Intervenor Tweedy
suggested that some hickory trees on his property in
Lee County are favored roosting sites for a variety of
bats. (Tr. 1408.) OCA witness Thommes testified that
a typical measure to avoid disrupting the bats is to
clear the trees in the winter, when the bats have
migrated south (Tr. 1618), or to survey the forested
areas to determine whether bats are present and only
clear areas with no bats. (Tr. 1619.) Dakota Access
noted that it avoided bat habitat in its routing process,
which may have caused some corner clips. (Tr. 3256.)
Because it was used as an avoidance criterion, Dakota
Access estimated the impacted forested area to be less
than 5 percent along the proposed route. (Tr. 420.)

App. 211
The Board understands that Dakota Access
included as a data set in the GIS routing program the
location of species such as the bats’ roosting area.
Other than on the Tweedy parcel, no other locations
have been identified in the record as roosting areas for
bats. The Board will address the roosting tree concerns
on the Tweedy property in its discussion in the eminent
domain sections of this order. The Board will not
require Dakota Access to revise the AIMP for other
parcels where trees are to be removed and the
unanticipated discoveries plan will address any
roosting trees that may be encountered.
f. SEHN Proposals
SEHN recommended the following conditions, if the
pipeline permit is granted: (1) Require that Dakota
Access obtain and maintain adequate insurance;
(2) Require removal of the pipeline if it is abandoned;
(3) Revoke the permit for any spill of over 100 barrels;
(4) Require sufficient legally-enforceable financial
guarantees to address a worst-case oil spill, leak, or
other accident; the guarantees should be certified to the
Board on an annual basis or the permit should be
revoked; and (5) Withhold the permit until all
remaining county, state, and federal permits and
authorizations have been issued and reviewed by the
Board.
The Board has addressed the issue of adequate
insurance and remediation financing in other sections
of this order. The proposed requirement to remove the
pipeline if abandoned is addressed by Iowa Code
§ 479B.32 and no need has been shown for any
additional requirements in this respect. The Board does

App. 212
not consider the 100-barrel spill limit for revoking the
permit to be reasonable; the proposed condition does
not include any consideration of why a spill may have
occurred. Dakota Access has committed to providing
the Board with the required permits and
authorizations prior to commencement of construction.
g. Other OCA Proposals
OCA recommended that certain additional
conditions should be required if the pipeline permit is
granted. Those conditions are:
(1)
Require unconditional and irrevocable
financial guarantees from the parent companies of
Dakota Access. (OCA Br. 18.) OCA argues this
condition is consistent with Dakota Access’s own
evidence and arguments. For example, Dakota Access
witness Mahmoud testified that Dakota Access’s parent
companies (Energy Transfer Partners, Sunoco
Logistics, and Phillips 66) have provided guarantees
“essentially backstopping the project or the asset from
a liability standpoint in the event of an emergency.”
(Tr. 2178.) In its initial brief, Dakota Access argued
that it makes sense to rely on the assets and
guarantees of the parent corporations because their
interests in preserving a $4 billion asset and restoring
it to service are aligned with those of Dakota Access.
(Init. Br. 46.)
(2)
Require Dakota Access to provide the Board
with construction plans even if another agency has
specific regulatory authority over those documents so
that Board staff can review them to ensure that any

App. 213
and all conditions imposed by the Board are included in
the plans. (OCA Br. 27.)
(3)
Require Dakota Access to implement certain
measures it has already committed to, such as
repairing all tiles damaged during construction (AIMP
at 6-8), accommodating landowners’ tiling plans,
relocating drain tiles, and installing headers along the
pipeline in fields where it will cross extensive tiling
(Tr. 2327-34, 2385-86), and provide landowners with
GPS coordinates for all drain tiles discovered during
construction and for the locations of all repaired tiles
(Tr. 2395-97). Dakota Access says the tile repair is
required by law and it has already committed to
providing GPS locations as part of the “as-built” plans,
so this condition is unnecessary. (Reply Br. 23-24.)
The Board addressed some of these issues in other
sections of this order. For example, Dakota Access is
required to repair tile in accordance with the AIMP and
Dakota Access has committed to mapping the tile found
during construction and providing a GPS map of the
tile found to the landowner.
With regard to the financial guarantees made by the
parent companies of Dakota Access, the Board agrees
with OCA that those guarantees should be
unconditional and irrevocable and should be filed with
the Board before construction commences. Dakota
Access has committed to provide a $25 million
insurance policy to cover costs of remediation if a leak
or spill occurs. However, the company’s commitment is
to provide the policy prior to the commencement of
operations. The Board will require that the policy be
filed with the Board prior to the issuance of a permit so

App. 214
the Board is assured that coverage is available when
construction operations begin. This will allow the
Board and the parties to review the insurance policy to
ensure that the coverage is available to any person
affected by a leak or spill and that no unnecessary
requirements are in place that would hinder recovery
under the policy.
h. Sierra Club Proposals
Sierra Club recommended the Board require an
Environmental Impact Statement (EIS) prior to
construction and that the Board, prior to issuing the
permit, require Dakota Access to consult with the State
Archaeologist’s Office as part of the environmental
impact statement or equivalent process.
Dakota Access responds that the Board has
previously rejected Sierra Club’s contention that an
EIS is required or would be meritorious, in the October
5, 2015, “Order Denying Motion to Require
Environmental Impact Report.” (Reply Br. 30.) Dakota
Access says the record established that it will meet all
environmental requirements of those agencies with
responsibility for environmental permitting. Dakota
Access says it conducted on-the-ground field surveys of
98.4 percent of the route and used that information to
avoid environmental resources. (Exh. MH-12.) OCA
witness Flo agreed that Dakota Access’s responses to
his environmental recommendations “essentially
satisfy my recommendations.” (Tr. 1518.) Witness
Timpson agreed the plan and procedures for mitigating
soil compaction are generally adequate (Tr. 1527) and
witness Thommes testified that the company’s
consultation with applicable agencies was “sufficient to

App. 215
have identified areas of concern” so that an
“appropriate field assessment” could be conducted
(Tr. 1619-20). (Reply Br. 31.)
Dakota Access argues the Board cannot require an
EIS for this project as there is no state or federal legal
requirement that an EIS be prepared for a hazardous
liquid pipeline in Iowa. Dakota Access says that there
is no EIS requirement in any of the 40 states that, like
Iowa, do not have a state NEPA law. (Reply Br. at 31,
n. 122.) Dakota Access says that it is up to the state
legislature to enact an EIS requirement if one is
desired. (Reply Br. 30-1.)
As indicated by Dakota Access, the Board has
addressed this issue in an earlier order and an
environmental impact statement is not required by
statute.
i. Puntenney Proposals
Puntenney recommended that the Board require
that the pipeline be inspected annually and, if the
pipeline is no longer used, require the removal of the
pipeline. In addition, Puntenney recommended that the
Board include a “claw-back” provision in the permit so
that any subsequent purchaser is required to meet all
of the requirements in Iowa Code chapter 479B,
including a public comment requirement, before the
purchase of the permit is approved.
PHMSA establishes requirements for the inspection
of the pipeline and removal of the pipeline is governed
by Iowa Code § 479B.32. The Board has already
determined that Dakota Access will be required to file
for Board approval if the permit is to be sold or

App. 216
transferred. The Board will not adopt the remainder of
Puntenney’s recommendations.
j. Farm Bureau Proposals
The Farm Bureau recommended that the Board
require Dakota Access to pay all damages resulting
from the construction project in accordance with Iowa
law and require Dakota Access to compensate for all
losses described in Iowa Code § 479B.29 as a term or
condition of a permit. Farm Bureau recommended the
Board require Dakota Access to compensate
landowners for entire crop loss, forage loss or yield
reduction for more than three years, for fertilizer, lime,
or organic material applied to restore the land, for the
increased cost of future tile work caused by the
existence of the pipeline, and pay for reduction in land
value. Farm Bureau also proposes conditions related to:
1. Conservation compliance. Require Dakota
Access to share with each landowner copies of all
wetland determinations and permits for the
landowner’s property. (Br. 6-7.)
2. Storage of excavated soil. Require Dakota Access
to avoid placing spoil piles where the topography
indicates the land will not drain properly.
(Br. 7.)
3. Add to the AIMP a requirement that the
pipeline will be routed at a depth of no less than
48 inches (Dakota Access has said it will do this
but it is not specifically stated in the AIMP.)
(Br. 7-8.)

App. 217
4. Require Dakota Access to consult with each
landowner about the best locations to drain
trench water to avoid damage to land and crops
outside the construction easement. (Br. 8.)
5. Require that any subsequently discovered tile
damage should be repaired by Dakota Access in
a prompt manner or the costs of repair be
reimbursed to the farmer. (Br. 9.)
6. Require that the toll-free telephone number and
mailing address being used as a point of contact
for Dakota Access be continued beyond the first
year after construction. (Br. 9-10.)
7. Include the contact information for the relevant
county inspector(s) with the identity of Dakota
Access’s “geographic area representative” when
that information is provided to the landowners.
(Br. 10.)
8. Easement terms. Require the following changes
to the condemnation easement:
a. Allow continued agricultural use (normal
farming activities) within the easement area
even if some soil is removed or the grade or
slope is changed to a minor degree. (Br. 11.)
b. Add language to the easement requiring
Dakota Access to “comply with the land
restoration rules and requirements.” (Id.)
c. Amend the easement to require Dakota
Access to “comply with the requirements and
procedure set forth in §§ 479B.29 and

App. 218
479B.30” relating to paying damages during
the first three years. (Br. 12-13.)
d. Valve locations. Do not allow placement of
future valves, not yet planned, without
requiring an additional easement. (Br.
13-14.)
e. Require, as a term of the easement, Dakota
Access to provide the as-built survey and
geospatial coordinate of the pipeline as
installed and the accompanying easement.
(Br. 14.)
The Board agrees that the AIMP should be modified
to reflect the company’s commitment to install the
pipeline in agricultural land at a minimum depth of 48
inches (where reasonably possible). Some of the other
conditions proposed by the Farm Bureau were first
raised on brief and have no supporting testimony from
Farm Bureau; if they are supported by evidence
provided by other parties, they have been considered in
the sections of this order addressed to those other
parties. The remaining conditions proposed by Farm
Bureau are restatements of already existing
requirements in statute or rule and the Board will not
require that they be repeated in the AIMP.
k. Compensation for Eminent Domain Parcels
Two parties expressed a concern that could be
interpreted as a proposed condition on the permit.
Specifically, Mr. Puntenney and Lamb, et al., argued
that if Dakota Access is granted the power of eminent
domain, the company might reduce its offers for

App. 219
voluntary easements in the expectation that the
condemnation process could result in lower prices for
the easements. This concern can be addressed by
imposing a condition that Dakota Access must continue
to offer to purchase voluntary easements, with the
same terms and conditions already offered to the
landowners, for the best prices that have already been
offered by Dakota Access, at least until the county
compensation commission meets to assess the damages
for the taking. This is consistent with the testimony of
Dakota Access witness Mahmoud, who said that the
company will negotiate voluntary easements “up until
we are in the courthouse door.” (Tr. 3378.) In that way,
no landowner will suffer adverse consequences for
waiting to see if the Board issues a permit before
signing a voluntary easement.
VII.

Final Analysis of the Public Convenience
and Necessity

The Board finds, based upon the evidence and
arguments presented and consideration of the
applicable legal standards, that a permit should be
issued, subject to the terms and conditions approved in
this order. If the terms and conditions adopted above
were not in place, the evidence in this record would be
insufficient to establish that the proposed pipeline will
promote the public convenience and necessity.
As previously described in this order, Iowa Code
§ 479B.9 contemplates that the Board will apply a
balancing test to determine whether the project will
promote the public convenience and necessity,
determining whether the benefits outweigh the costs.
South East Iowa Co-Op. Elec. Ass’n v. Iowa Utilities

App. 220
Board, 633 N.W.2d 814, 821-22 (Iowa 2001). When
balancing these costs and benefits, the Board considers
all of the evidence and arguments presented by the
parties relating to each of the issues, but in this
analysis the focus will be on those factors that have
been shown to be most significant. When engaging in
this balancing test, it is not necessary that all three
Board members agree on the precise weight to be given
to each specific factor.
Two factors weigh heavily in favor of granting a
permit. First, the proposed pipeline represents a
significantly safer way to move crude oil from the field
to the refinery when compared to the primary
alternative, rail transport. The most credible evidence
in this record, based on data from the U.S. Department
of Transportation, shows that the spill incident rate for
transport of crude oil by rail transport is three to four
times higher than the incident rate for pipeline
transport on a ton-mile basis. The oil is going to be
produced and shipped as long as the market demands
it; given that reality, shipping by the safest available
method makes sense. This public benefit carries
significant weight in the statutory balancing test for
determining whether the proposed pipeline will
“promote the public convenience and necessity.” (Iowa
Code § 479B.9.)
Second, the economic benefits associated with the
construction, operation, and maintenance of the
proposed pipeline are substantial. The construction
period benefits are projected to be at least
$787,000,000, and may be much more. Thousands of
construction jobs will be created, many of them to be

App. 221
filled by Iowans. Long term, the project will generate
substantial tax revenues and will directly generate at
least 12 permanent jobs. These are real economic
benefits to Iowa that have not been seriously
challenged on this record. This public benefit also
carries significant weight in the statutory balancing
test for determining whether the proposed pipeline will
“promote the public convenience and necessity.” (Iowa
Code § 479B.9.)
The fact that the proposed pipeline will serve a
market where there is a clear demand for pipeline
transportation service is another benefit. However, it
merits less weight in the Board’s balancing test than
the economic and safety benefits. Crude oil producers
have signed “take or pay” contracts for 90 percent of
the capacity of the proposed pipeline, the maximum
capacity that FERC will allow Dakota Access to
commit. (Ten percent of the total capacity must be
reserved for “walk up” or casual shippers.) Those
producers have signed contracts that obligate them to
pay for the shipping service whether they use it or not;
clearly, they represent a portion of the public that
demands the services to be provided by this pipeline.
Factors that weigh against a finding that the
proposed pipeline will promote the public convenience
and necessity include the environmental impacts
associated with the project. However, the record is
clear that in addition to the state and federal
environmental regulations Dakota Access must comply
with, the company has taken many steps to reasonably
minimize those impacts. The route of the pipeline was
developed in a manner intended to minimize adverse

App. 222
environmental impacts by avoiding sensitive areas
wherever possible and by co-locating with existing
infrastructure, like other pipelines and roads, where
possible. The design and testing of the pipeline will
exceed the applicable federal safety standards in many
respects, including use of thicker-than-required
pipeline walls in many areas; weld testing of 100
percent of main girth welds where federal regulations
require only 10 percent; hydrostatic testing that is
more stringent than federal regulations require; and
early activation of a cathodic protection system. These
are only examples of the areas where Dakota Access
has taken extra steps to minimize the potential for
adverse environmental impacts while the pipeline is in
operation.
The Board’s rules require that a pipeline company
adopt a minimum Agricultural Impact Mitigation Plan
(AIMP) for protection and restoration of agricultural
land during and after construction. The Board has
imposed additional terms and conditions on the AIMP
that will further protect the environment during the
construction phase of this project, as described in
previous sections of this order.
Dakota Access will also minimize adverse
environmental impacts by following best management
practices for pipeline construction even where those
practices are not required by law. They include
preparation of a Storm Water Pollution Prevention
Plan, a plan for addressing unanticipated discoveries
along the route, a facilities response plan, an integrity
management plan, an environmental training and

App. 223
inspection plan, and other mitigation measures
designed to protect the environment.
The evidence establishes that there will be financial
resources available for remediation of possible future
incidents, particularly in light of some of the terms and
conditions the Board is imposing. In addition to the
minimum financial responsibility requirements of Iowa
Code § 479B.13, the company will be required to
purchase and file with the Board, prior to commencing
construction, a $25 million general liability insurance
policy and to re-file that policy on an annual basis. The
Board has also required the company to file
unconditional and irrevocable financial guarantees
from its parent companies prior to commencing
construction. These guarantees are consistent with the
financial interests of Dakota Access and its parent
companies; once in operation, the pipeline will
represent a $4 billion investment in a
revenue-producing asset.
Finally, as discussed previously, the Board will
impose certain additional terms and conditions on the
AIMP and the permit itself to further minimize the
adverse environmental impacts of the project. For
example, the Board will require Dakota Access to
prepare and file a Winter Construction Plan by August
1, 2016, so that there will be ample time for the parties
to review it and comment on it.
As noted above, the environmental risks associated
with the proposed pipeline represent public and private
detriments that weigh against issuance of a permit.
But the extra measures Dakota Access has taken, or
will be required to take, tend to reduce the significance

App. 224
of this factor in the overall balancing test. This factor
still carries significant weight in the statutory
balancing test for determining whether the proposed
pipeline will “promote the public convenience and
necessity.” (Iowa Code § 479B.9.)
A second factor weighing against issuance of a
permit is the burden the pipeline will impose on private
interests, particularly the landowners along the
proposed route. Construction of the pipeline will
require opening and closing a trench on most parcels
and the permanent easements will restrict landowners’
future use of the land immediately around the pipeline
in some ways. However, the statute provides that when
a pipeline permit is granted, the company “shall be
vested with the right of eminent domain…” (see Iowa
Code § 479B.16) and the statute goes on to require
restoration of the land and to provide compensation to
those landowners for the damages they may suffer.
(Iowa Code §§ 479B.17, 479B.20, 479B.29, 479B.30, and
479B.31.) Moreover, the Board has required certain
changes to the AIMP and the condemnation easement
in order to minimize the adverse impacts on those
landowners during construction and during operation
of the pipeline. This factor also carries significant
weight in the statutory balancing test for determining
whether the proposed pipeline will “promote the public
convenience and necessity,” although there are
offsetting considerations, as just described. (Iowa Code
§ 479B.9.)
In the final analysis, this is not a simple matter of
adding up the various factors for and against a finding
that the pipeline will promote the public convenience

App. 225
and necessity; some factors merit great weight in the
balancing test, and other factors, while still important,
are less significant. The Board has weighed and
balanced all of the factors and issues discussed in this
order or presented by the parties when arriving at its
decision. The record in this matter establishes that the
proposed pipeline will substantially benefit Iowa, and
the public in general, in terms of relative safety
benefits and economic benefits. Those benefits, when
combined with the additional conditions the Board has
imposed, outweigh the public and private costs
associated with the project. The Board finds that,
subject to the terms and conditions the Board has
adopted in this order, the proposed pipeline will
promote the public convenience and necessity and,
pursuant to Iowa Code § 479B.9, a permit is granted
and will be issued to Dakota Access after the company
has complied with the filing requirements set forth in
this order.
VIII. Board’s Authority
Domain

to

Grant

Eminent

Iowa Code § 479B.1 describes the Board’s authority
with regard to the construction of hazardous liquid
pipelines in Iowa as follows:
It is the purpose of the general assembly in
enacting this law to grant the utilities board
the authority to implement certain controls
over hazardous liquid pipelines to protect
landowners and tenants from environmental
or economic damages which may result from
the construction, operation, or maintenance
of a hazardous liquid pipeline or

App. 226
underground storage facility within the state,
to approve the location and route of
hazardous liquid pipelines, and to grant
rights of eminent domain where necessary.
Iowa Code § 479B.16 provides that a pipeline
company, if granted a permit, shall be vested with the
right of eminent domain “to the extent necessary and
as prescribed and approved by the board, not exceeding
seventy-five feet in width for right-of-way and not
exceeding one acre in any one location in addition to
right-of-way for the location of pumps, pressure
apparatus, or other stations or equipment necessary to
the proper operation of its pipeline.” This section also
provides the Board with the authority to grant
additional eminent domain rights where there is
sufficient evidence to adequately demonstrate that a
greater area is required for the proper operation of the
pipeline. The Board does not have authority over the
valuation of any property condemned through the right
of eminent domain pursuant to Iowa Code § 479B.16.
That determination will be made, if necessary, by a
county compensation commission pursuant to Iowa
Code chapter 6B.
Those parties opposed to the pipeline have raised
issues regarding the Board’s authority to grant rights
of eminent domain under this section of the statute.
The issues involve the relationship between the Board’s
authority and Iowa Code § 6A.21, as well as certain
constitutional issues. The Board will address the
constitutional issues first.

App. 227
a. Constitutional Issues
The Fifth Amendment of the Constitution of the
United States contains certain express limitations on
the power of government to take private property
through eminent domain. One of these limitations is
that private property may only be taken for “public
use,” although the public use need not be for use of the
general public. Hawaii Housing Authority v. Midkiff,
467 U.S. 229, 244 (1984); Kelo v. City of New London,
545 U.S. 469 (2005). The Kelo decision includes a
description of three areas of public use where the
government could take private property. (545 U.S. at
497-98 (O’Connor, dissenting.)) The three areas are:
(1) Public ownership, such as national parks, interstate
highways, and military bases; (2) Private ownership for
a public use, such as railroad lines, electric
transmission lines, and natural gas lines; and
(3) Private ownership for a public purpose, such as the
removal of urban blights. Under Kelo, the concept of
public use is broadly defined, reflecting a policy of
deference to legislative judgments in this field. (Id. at
480.)
The Iowa Constitution, Article I, Section 18,
provides that private property shall not be taken for
public use without just compensation first being made
or secured to the landowner. The Iowa Supreme Court
in a recent decision involving the Board’s jurisdiction
under Iowa Code § 476.27 stated that statutes that
delegate the power of eminent domain should be
strictly construed. Hawkeye Land Co. v. IUB, 847
N.W.2d 199, 208 (Iowa 2014); see also Clarke County

App. 228
Reservoir Commission v. Abbott, 862 N.W.2d 166, 168
(Iowa 2014).
Issues regarding due process and the equal
protection clause have been raised. Specific reference
has been made to the rights of landowners to challenge
an application for condemnation in district court
pursuant to Iowa Code § 6A.24 in contrast to the rights
of the acquiring agency under that section. Specific
reference has also been made to the substantive rights
of landowners and the ability of landowners to seek
judicial review before a condemnation proceeding is
initiated. Finally, there is the issue of whether Iowa
Code § 479B.16 provides fewer protections for
landowners than Iowa Code § 6A.21 and, if so, whether
this violates the equal protection clause.
The Hawkeye Land case is instructive on the
Board’s authority to address constitutional issues. The
Hawkeye Land Court stated that it reviews
constitutional issues in agency proceedings de novo.
Hawkeye Land, 847 N.W.2d at 208 (citing NextEra
Energy Res. LLC v. Iowa Utilities Board, 815 N.W.2d
30 (Iowa 2012).) The Hawkeye Land Court also stated
if a case can be resolved on statutory grounds, the
Court would not reach constitutional arguments.
Hawkeye Land, 847 N.W.2d at 210 (citing State v.
Seering, 701 N.W.2d 655, 663 (Iowa 2005); State v.
Button, 622 N.W.2d 480, 485 (Iowa 2001).
The Board has determined that it can resolve the
issues raised by the parties on statutory grounds and
need not reach the constitutional issues raised by those
opposing the pipeline.

App. 229
b. Statutory Issues
As discussed above, the Board should interpret a
statute in a fashion to avoid a constitutional infirmity,
where possible. Bd. of Prof. Ethics v. Visser,
629 N.W.2d 376, 380 (Iowa 2001). Under this analysis,
the Board considers the grant of eminent domain
authority in Iowa Code § 479B.16 to be consistent with
the takings protections in the Constitution of the State
of Iowa and the takings protections in the Fifth
Amendment of the Constitution of the United States.
The Fifth Amendment limits government takings to
those that are for a public use. It has long been
recognized that the public use requirement does not
strictly limit takings to those in which the property
condemned is to be used by the public at large. See, e.g.,
Berman v. Parker, 348 U.S. 26, 33-34 (1954). Further,
it is also not a per se unconstitutional taking if the
condemned property is immediately transferred to a
private party. Midkiff, 467 U.S. at 244. However, it is
clear that “one person’s property may not be taken for
the benefit of another private person without a
justifying public purpose, even though compensation
[is] paid.” Id. at 241 (quoting Thompson v. Consolidated
Gas Corp., 300 U.S. 55, 80 (1937).)
In determining whether a taking by eminent
domain satisfies the public use requirement, courts will
defer to the wisdom of the legislature. Kelo, 545 U.S. at
487-88. “When the legislature’s purpose is legitimate
and its means are not irrational” a condemnation is
constitutional. Id., quoting Midkiff, 467 U.S. at 242-43.
The Constitution of the State of Iowa contains similar
limitations on the use of eminent domain as those

App. 230
contained in the Constitution of the United States.
Iowa Const. art. 1, § 18. Because the federal and state
constitutional provisions regarding takings are nearly
identical, federal cases interpreting the federal
provision are persuasive” when interpreting the Iowa
provision. Harms v. City of Sibley, 702 N.W.2d 91, 97
(Iowa 2005) (citations omitted). However, the Iowa
Supreme Court has been clear that cases interpreting
the federal takings limitation are not binding on the
interpretation of the state takings provision. Kingsway
Cathedral v. Iowa Dept. of Transp., 711 N.W.2d 6, 9
(Iowa 2006) (citing Harms, 702 N.W.2d at 97).
The Iowa Legislature has granted the Board the
authority to grant or deny hazardous liquid pipeline
permits. The Board is not to grant a permit unless the
“[B]oard determines that the proposed services will
promote the public convenience and necessity.” Iowa
Code § 479B.9. Further, the statute states that “[a]
pipeline company granted a permit shall be vested with
the right of eminent domain, to the extent necessary
and as prescribed and approved by the [B]oard.” Iowa
Code § 479B.16. In enacting chapter 479B, the Iowa
legislature made the determination that those
pipelines that meet the statutory requirements for a
permit also meet the public use requirement such that
eminent domain is proper to the extent determined by
the Board.
The next issue to be considered is whether Iowa
Code §§ 6A.21 and 6A.22 limit the Board’s authority to
grant eminent domain to a pipeline company granted
a permit to construct a hazardous liquid pipeline
pursuant to Iowa Code chapter 479B. Iowa Code

App. 231
§ 6A.21(1)(c) prohibits the exercise of the right of
eminent domain over agricultural land for private
development purposes unless the owner consents.
Private development purposes are defined in Iowa Code
§ 6A.21(1)(b) as the construction of, or improvement to,
recreational trails, recreational development paid from
primarily private funds, housing and residential
development, or commercial or industrial enterprise
development. There appears to be no real issue that the
hazardous liquid pipeline proposed by Dakota Access is
an industrial enterprise development for purposes of
Iowa Code § 6A.21(1)(c).
Iowa Code § 6A.21(2) provides that the limitation on
public use in Iowa Code § 6A.21(1)(c) does not apply to
“utilities, persons, companies, or corporations under
the jurisdiction of the Iowa utilities board in the
department of commerce or to any other utility
conferred the right by statute to condemn private
property or to otherwise exercise the power of eminent
domain.” Some of the opposition parties have argued
that Iowa Code § 6A.21(2) was specifically enacted in
response to the Kelo decision and the General
Assembly amended this section of the eminent domain
statute in order to remove the authority to condemn
agricultural land for industry, as defined in Iowa Code
§ 260E.2. By deleting this provision, it is argued, the
legislature expressed its intent that agricultural land
could not be condemned for industrial purposes. The
argument continues by stating that the timing of the
amendment shows that the limitation on eminent
domain authority applies to Dakota Access and, even if
the Board grants Dakota Access a permit, Dakota

App. 232
Access cannot condemn agricultural land to construct
the pipeline.
These arguments are only valid if the Board finds
that Dakota Access does not meet the exception to the
limitation of taking agricultural land found in the same
section of the statute. Iowa Code § 6A.21(2) states that
the limitation on the definition of public use, public
purpose, or public improvement in Iowa Code
§ 6A.21(1)(c) does not apply to “utilities, persons,
companies, or corporations under the jurisdiction of the
Iowa utilities board in the department of commerce or
to any other utility conferred the right by statute to
condemn private property or to otherwise exercise the
power of eminent domain.” The opposing parties have
argued that Dakota Access is not a “utility” and
therefore does not qualify for the exemption.
The argument about whether Dakota Access is a
utility, whether private or public, ignores the fact that
the exception in Iowa Code § 6A.21(2) includes
“companies[] or corporations” under the jurisdiction of
the Board. Dakota Access is a company; the question
that remains is whether it is subject to the Board’s
jurisdiction.
The Board considers that the use of the term
“jurisdiction” in Iowa Code § 6A.21(2) includes the
jurisdiction granted the Board under Iowa Code
chapter 479B to “implement certain controls over
hazardous liquid pipelines to protect landowners and
tenants from environmental or economic damages
which may result from the construction, operation, or
maintenance” of the proposed pipeline. Since the
language in this section includes Board jurisdiction

App. 233
over entities other than utilities, it is reasonable to
interpret this language as also including the
jurisdiction granted the Board over the routing and
construction of hazardous liquid pipeline companies.
Since the Board determines that the exception in Iowa
Code § 6A.21(2) includes jurisdiction over Dakota
Access, the Board determines that it has the authority
to grant the power of eminent domain to Dakota
Access, to the extent found necessary, pursuant to Iowa
Code § 479B.16.
In their reply brief, Lamb, et. al, assert that if the
Board grants the permit to Dakota Access, not only will
there be condemnation proceedings in almost every
county where the pipeline is located but petitions for
judicial review will also be filed in each of those
counties. Lamb, et. al, argue that the Board should, if
the permit is granted, delay the effective date of the
permit until all of the petitions for judicial review have
been consolidated and been considered by a district
court. This would in effect stay the Board’s granting of
the permit until a final court decision.
This request is premature. Iowa Code § 17A.19(5)
states that the filing of a petition for judicial review
does not itself stay execution or enforcement of any
agency action. The same section of Iowa Code chapter
17A provides that a person may request a stay from the
agency and, if the agency does not grant the stay, the
person may seek relief from the court. Section
17A.19(5)(c) sets out the factors a court will consider in
deciding whether to grant a stay. Those procedures will
be available at the appropriate times.

App. 234
c. Individual Eminent Domain Parcels
Dakota Access has requested the right of eminent
domain over a number of parcels, as identified in the
attachments and in the body of this order. The Board
will address the parcels in four categories. The first
category will be those parcels where the landowner or
tenant did not file an objection, did not intervene or file
prepared testimony, or did not testify at the hearing.
The second category will be those parcels where an
objection was filed by the landowner but the landowner
did not intervene, file prepared testimony, or testify at
the hearing. The third category will be those parcels
where the landowner either intervened and filed
prepared testimony or testified at the hearing. The
fourth category is those parcels owned by a
governmental entity.
The right of eminent domain granted to Dakota
Access over the parcels addressed in this section of the
order is subject to the conditions approved by the Board
in this order, unless otherwise specifically addressed.
The right of eminent domain is for a 50 foot wide
permanent easement, an approximately 150 foot
temporary easement for construction (which includes
the 50 foot permanent easement), and an easement of
approximately 50 feet by 75 feet for placement of valves
in specified locations. Dakota Access Exhibit CAF-4,
pages 19-43, sets out the justification for those parcels
where Dakota Access is requesting temporary work
easements greater than 150 feet in width. The grant of
the right of eminent domain over the parcels addressed
in this order includes the right for a temporary
construction easement greater than 150 feet for those

App. 235
parcels specifically mentioned in Dakota Access Exhibit
CAF-4.
The first category consists of the parcels where the
landowner has not filed an objection and did not
intervene or file prepared testimony and did not
otherwise testify at the hearing. The list of these
parcels is attached as Attachment 1 to this order and
incorporated into this order by reference. Since the
Board has granted Dakota Access a permit to construct
the hazardous liquid pipeline as described in this order,
the Board will grant Dakota Access the right of
eminent domain over the parcels listed on Attachment
1 as described in the Exhibit H filings for each parcel,
subject to the conditions approved by the Board in this
order.
The second category consists of parcels where the
landowner filed an objection but did not intervene or
did not testify at the hearing. The parcels in this
category are listed on Attachment 2 to this order and
incorporated in this order by reference. Most of the
objections raised issues concerning whether Dakota
Access had met the requirements of Iowa Code chapter
479B for a pipeline permit. Since the Board has found
that Dakota Access has met the requirements in Iowa
Code chapter 479B for a permit, the Board will grant
Dakota Access the right of eminent domain over these
parcels, subject to the conditions described in this
order.
The third category consists of parcels over which
Dakota Access has requested the right of eminent
domain and the landowners of these parcels either
intervened and filed prepared testimony or testified at

App. 236
the hearing. Each of these parcels will be considered
individually. The parcels will be addressed by county
and identified by the landowner and both the parcel
number shown on the Exhibit H description of each
parcel and the parcel number given the Exhibit H when
it was filed in the Board’s electronic filing system. This
section of the order will address only those issues
directly related to the easement over the parcel and
will not address those issues raised by landowners
regarding the issue of whether the project will promote
the public convenience and necessity, that is, whether
the permit should be issued. The Board has addressed
that issue in earlier sections of this order.
Boone County
John A. Burkhart, H-BO-001 (IA-BO-018)
Kevin Lambert filed an objection on November 4,
2015, and presented testimony concerning parcel
H-BO-001, which is owned by his grandfather, John
Burkhart. Lambert is a tenant on this parcel. Lambert
testified that his grandfather’s attorney was going to be
at a meeting with Dakota Access, but the meeting was
canceled by the pipeline company and never
rescheduled. (NILA Exh. 7 at 2.) He testified that he
does his own tiling, and does tiling for his neighbors.
He testified that he calls for utility locates before he
digs and checks with the proper agencies to make sure
there are no restrictions on the property. (Tr. 3101). He
testified that there is a creek, approximately 50 feet
wide and up to 40 feet deep, on parcel H-BO-001 that
the pipeline will cross. (Tr. 3103).

App. 237
Lambert raised issues concerning eminent domain,
the term of the easement, the reduced overall value of
the parcels, and the propriety of granting eminent
domain to a private company. (Tr. 3105.) He wants the
pipeline to go around the parcel. (Tr. 3104.)
Many of the arguments Lambert has presented
related to whether a permit should be granted or
whether the power of eminent domain should be
granted; those issues are addressed elsewhere in this
order. The evidence presented by Lambert regarding
parcel H-BO-001 does not propose any specific
alternative route and does not indicate that there is
any particular characteristic of the property that would
support denying the right of eminent and requiring
Dakota Access pursue an alternative route. Lambert
identified a drainage creek on the parcel, but Exhibit
CAF-4, page 31, shows that Dakota Access is
requesting additional storage area for the crossing of
the “deep County Drainage Ditch DD-222 Main B.” In
other words, Dakota Access is aware of the drainage
ditch and has plans to cross it in an appropriate
manner based upon the prevailing circumstances at the
time of construction.
The Board will grant Dakota Access the right of
eminent domain over parcel H-BO-001 as requested,
subject to the conditions approved by the Board in this
order.
LaVerne Johnson: H-BO-047 (IA-BO-028) and
H-BO-048 (IA-BO-033)
LaVerne Johnson testified that the pipeline could be
routed to avoid his property and thereby avoid his tile

App. 238
lines. (IFOA Exh. LaVerne Johnson Direct.) Johnson
also presented the testimony of his drainage contractor,
Dan Rasmussen. Johnson owns two parcels along the
pipeline route. The west parcel, H-BO-047, has been in
his family since 1896 and the east parcel, H-BO-048,
since 1962. The two parcels have been used for growing
corn and soybeans. He testified that his home is on the
west parcel and is identified on the parcel map as a
metal barn. The metal barn is approximately 40 feet
away from the construction easement and 143 feet from
the centerline of the pipeline. (Exh. LaVerne Johnson
Direct at 1.)
Johnson has installed layers of drain pipes on the
west parcel because it holds water. Some of his tile
lines are buried up to 16 feet deep. (Id. at 3.) He
installed the drainage system with great care and
separated and replaced the topsoil when the tiling was
done. He believes the pipeline will affect the drainage
on his property and unless the pipeline goes under all
of the tile lines it will have to go through them which
he believes will prevent water from flowing through the
tiles. Johnson believes that Dakota Access could find a
less destructive route, but they have not proposed to
change the route.
At the hearing, Johnson testified that he would not
sign an easement even if Dakota Access agreed to bore
the pipeline under his 24-inch tile main which is
located on the western parcel, H-BO-047. (Tr. 3027.)
Johnson described the extensive tiling he had put in on
the western parcel and that the proposed pipeline
would cut across this tile system in proximity to the
discharge point on the northeast corner of the property.

App. 239
He believes the tile system will fail to discharge if the
pipeline goes through this tile system at the location
proposed by Dakota Access.
After consideration of the evidence regarding the
tiling system on parcel H-BO-047, the Board will grant
Dakota Access the right of eminent domain over that
parcel upon the condition that the pipeline be bored
under the 24-inch concrete main. Johnson suggests
that this will not be successful because of the type of
soil under the 24-inch main; however, there appears to
be no reasonable alternative to granting eminent
domain along the route proposed by Dakota Access and
boring under the 24-inch main appears to be the least
intrusive alternative.
The Board will grant eminent domain over parcel
H-BO-047 as modified, and over parcel H-BO-048 as
requested, subject to the conditions approved by the
Board in this order.
Judith Anne Lamb Revocable Trust, H-BO-032
(IA-BO-134), and Richard R. Lamb Revocable
Trust, H-BO-033 (IA-BO-136)
Richard Lamb testified regarding the two parcels
owned in revocable trusts. (NILA Exh. 1.) The proposed
pipeline route traverses almost the entire 150 acres of
parcels H-BO-032 and H-BO-033. The two parcels are
separated by Highway 30. Lamb testified that the two
parcels might be developed for non-agricultural use in
the future; however, he testified that he has received
no offers for his property and there was no pending
rezoning of his property. (Tr. 3086). Lamb testified that
he told Dakota Access that he would not sign an

App. 240
easement and that he had not negotiated with Dakota
Access about moving the pipeline route to the edge of
the two parcels. (Tr. 3087). Lamb testified that he had
not provided his tile map to Dakota Access, but would
provide the tile map to the county inspector if the
pipeline permit is granted.
The Board understands that the route crosses
almost all of the two parcels; however, there has been
no evidence presented in the record upon which to
require that the route should be relocated. The Board
will grant Dakota Access the right of eminent domain
over parcels H-BO-032 and H-BO-033 as requested,
subject to the conditions approved by the Board in this
order.
Buena Vista County
Martha A. Murray, H-BU-031 (IA-BU-020)
Murray testified that the proposed pipeline would
enter her property on the west and cut diagonally
across her tile lines and two waterways. (NILA Exh. 3.)
Murray testifies that the pipeline route on the parcel to
the east has the pipeline route along and parallel to a
road. She does not understand why the route did not go
along the road across her property. (Id.)
Murray testified that her parcel is not easy to access
since it is an “inside 80” acres. (NILA Exhibit 3, page
2). She does not understand why Dakota Access has not
described exactly how it intends to access her parcel
during the construction of the pipeline and after
construction. Murray testifies that access to the
pipeline on her property should be from the road to the
Pedersen property to the east and then go to the

App. 241
northeast. (NILA Exhibit 3, page 3). She does not want
Dakota Access to access the south part of her property.
At the hearing, Murray testified that Dakota Access
could come up from the Garberson property rather than
coming on her property as proposed. (Tr. 1299.)
Murray has proposed an alternative route on her
property, running along the road, but that would
require substantially increasing the pipeline’s intrusion
on the parcel to the west, as the pipeline would have to
be re-routed down entire the west edge of that parcel
and then along the entire south edge. The Board does
not consider shifting the burden from one landowner to
another to be a reasonable alternative in this
particular situation.
As discussed previously in this order, Dakota Access
can only access a parcel where eminent domain is
granted over the permanent easement or the
temporary easement, unless there is a separate
agreement with the landowner. This addresses
Murray’s concerns about the manner of access. The
Board will grant Dakota Access the right of eminent
domain over parcel H-BU-031 as requested, subject to
the conditions approved by the Board in this order.
Michael G. Lenhart, Retha A. Lenhart, Patrick
G. Lenhart, and Carol J. Lenhart, H-BU-008
(IA-BU-073)
In prepared testimony, Patrick G. Lenhart testified
that the Lenharts have a turkey operation on a parcel
directly south of the parcel that the pipeline will cross.
(NILA Exh. 2.) NILA Exhibit 12 shows the location of
three existing buildings in relation to the proposed

App. 242
route of the pipeline. The northernmost building is 339
feet from the proposed pipeline route. (Tr. 3168). The
buildings are used for raising turkeys; the Lenharts
currently have the capacity to raise approximately
150,000 turkeys on the southern parcel and anticipate
expanding the turkey operation which will include
additional buildings that will be located on the south
end of parcel H-BU-008. Lenhart testified that if the
company that owns the turkeys wants to expand
operations, the Lenharts will need to be ready to
expand their operations. (Tr. 3184).
Lenhart testified that to accommodate the
construction of three new buildings the Lenharts will
need 500 feet on the parcel the pipeline is to cross. In
addition, the Lenharts will need to borrow dirt from the
northern parcel and the dirt needed is located on the
north side of the proposed pipeline route. Lenhart
testified that Dakota Access land agents indicated the
proposed route could be moved 960 feet to the north;
however, the Lenharts never received a map showing
the exact location. (NILA Exh. 2 at 3.) Lenhart testified
that the pipeline needed to be relocated approximately
1,000 feet to the north of the south border of the parcel
to accommodate the three proposed buildings and to
allow access to the additional dirt needed for the
proposed buildings. (Tr. 3172). That represents 500 feet
for the buildings and 500 feet to obtain the additional
dirt needed. In addition, the Lenharts request that
Dakota Access be required to cross Highway 71, located
on the east border of the parcel, at least 1,000 feet
north of the south border of the parcel.

App. 243
Dakota Access states, in its reply brief, that some
relocation may be possible; however, if a voluntary
easement cannot be negotiated, Dakota Access should
be granted the right of eminent domain as requested.
Based upon the testimony and evidence presented
by Lenhart, the Board will not grant eminent domain
over parcel H-BU-008 as requested by Dakota Access
unless the pipeline is relocated to the north to allow the
Lenharts to expand their turkey operation on to parcel
H-BU-008. That may require relocating the line 960
feet to the north to accommodate the buildings and
provide dirt, or it may require relocating the line 500
feet to the north with compensation to Lenhart for the
excess cost of obtaining dirt elsewhere. The Board
understands that Dakota Access may need to negotiate
modifications to the voluntary easement for the
landowners to the east of parcel H-BU-008 to
accommodate the relocation of the proposed route. The
Board understands that Dakota Access may need to
modify the proposed route over parcel H-BU-013
(IA-BU-071) owned by the Citizens Bank of Storm
Lake, Iowa, to accommodate the relocation of the route.
Both of these modifications are reasonable to reduce
the inconvenience and undue injury to the Lenharts
from the proposed route.
The Board has previously addressed the concerns
about access to the parcel by limiting access to the 50
foot permanent easement and the 150 foot temporary
easement. The Board will not grant eminent domain as
requested by Dakota Access, but the Board will grant
eminent domain over parcel H-BU-008 as modified

App. 244
above, subject to the conditions approved by the Board
as described in this order.
Brent N. Jesse, Shawn B. Jesse, Darren D.
Jesse and Wendi J. Taylor, H-BU-021 (IA-BU096) and H-BU-022 (IA-BU-105); ERN
Enterprises, Inc., H-BU-061 (IA-BU-097)
Brent Jesse testified regarding three parcels in
which he has an ownership interest. (NILA Exh. 4.) He
did not testify regarding the parcels owned by his
cousins. (Tr. 3138). In his direct testimony, Jesse
testified that Dakota Access should only be granted an
access easement from the shortest point on the parcel
and he should be contacted when Dakota Access
intends to use the access easement. (Id. at 2-3.) With
regard to Parcel IA-BU-022, Jesse testified that this
parcel has a waterway that was put in to control
erosion and the waterway will be affected by the
proposed pipeline route. (Tr. 3143). No specific
alternative routes were proposed to avoid this
waterway. Jesse testified that the proposed pipeline
should be moved north to avoid this waterway.
(Tr. 3145).
The evidence does not establish that the proposed
route of the pipeline will significantly affect the grass
waterway constructed to control erosion on this parcel
such that it cannot be restored to full operation after
construction is completed. The Board will grant Dakota
Access the right of eminent domain over parcels
H-BU-021, H-BU-022, and H-BU-061 as requested,
subject to the conditions approved by the Board in this
order.

App. 245
Calhoun County
Prendergast Enterprise, Inc., H-CA-041 (IACA-157.501)
Kenneth Anderson testified on behalf of
Prendergast Enterprise, Inc., his family farm
corporation. (IFOA Exh. Ken Anderson Direct.)
Anderson testified that there is a neighbor’s well in the
easement area and the well is used by the neighbor.
(Tr. 2940). Anderson has concerns that a leak from the
pipeline might affect the well. He is also concerned
about the possible use of eminent domain and who will
be responsible for remediation.
The testimony regarding the potential effect of a
hypothetical future leak in the area of the neighbor’s
well does not provide sufficient evidence to require
relocation of the route. The Board will grant Dakota
Access the right of eminent domain as requested over
parcel H-CA-041, subject to the conditions approved by
the Board in this order.
Cherokee County
William R. Smith and Anne C. Smith, H-CH-015
(IA-CH-080), H-CH-016 (IA-CH-082), and H-CH024 (IA-CH-083); Marie J. Smith Revocable
Trust, H-CH-012 (IA-CH-081)
William R. Smith filed prepared direct testimony
regarding three parcels, H-CH-015, H-CH-016, and
H-CH-024. (NILA Exh. 5.) NILA Exhibit 14 shows the
three properties and that the proposed pipeline route
cuts across a very small corner of parcel H-CH-024.
Smith testified that the route should be relocated to the

App. 246
north of that parcel so that corner of parcel H-CH-024
is not affected by the route. With regard to parcel
H-CH-015, Smith testified that the route should be
relocated further to the south so the entire parcel
would be missed.
At the hearing, in addition to the three parcels
described in his direct testimony, Smith testified
regarding parcel H-CH-012, a parcel owned by his
mother. With regard to parcel H-CH-015, Smith is
requesting that the pipeline route be relocated further
south on this parcel and as close to the southwest
corner of the parcel as possible. He requested that the
pipeline be relocated as close as possible to the
southwest corner of the Parcel No. IA-CH-015 so that
it crosses as close to the intersection of those two roads
as possible. (Tr. 3124).
Smith pointed out that Dakota Access has a
voluntary easement over the parcel to the west and he
testified he can give Dakota Access better access to
parcel H-CH-015 if the route is relocated as described.
(Tr. 3115-16.) Smith agreed that the temporary
construction easement could be on parcel H-CH-015 to
the north of the pipeline route so the route could be
relocated further toward the southwest corner of this
parcel. (Tr. 3127.)
Smith testified that he is requesting the pipeline
route be moved at least 150 feet to the north of parcel
H-CH-024 so the pipeline does not cross this parcel at
all. (Tr. 3119). In its initial brief, NILA points out that
Dakota Access witness Mahmoud appeared to admit
the line could be moved to avoid Parcel H-CH-024. (Tr.
3359-60).

App. 247
The Board will not grant Dakota Access the right of
eminent domain over parcel H-CH-024, owned by
Smith. Dakota Access should negotiate with Smith to
relocate the route and permanent easement as close as
possible to the southwest corner of parcel H-CH-015
and then modify the route accordingly over parcels
H-CH-016 and H-CH-012 so that the route does not
cross parcel H-CH-024. The Board will grant the right
of eminent domain over parcels H-CH-015, H-CH-016,
and H-CH-012 for a route that is consistent with the
described revisions to the route, subject to the
conditions approved by the Board in this order.
Marian D. Johnson, H-CH-019 (IA-CH-025) and
H-CH-020 (IA-CH-026)
At the hearing, counsel for Marian D. Johnson
offered the affidavit of Verdell Johnson to establish
that parcels H-CH-019 and H-CH-020 owned by
Marian D. Johnson are agricultural land for purposes
of an appeal of a Board order granting Dakota Access
the right of eminent domain over the two parcels.
Dakota Access objected to the admission of the affidavit
and the Board sustained the objection. Counsel for
Johnson made an offer of proof of the affidavit. (Tr.
3059).
Upon review of the transcript regarding the offer of
proof, the Board has reconsidered the decision to
sustain the objection. A review of the arguments about
the admissibility of the affidavit in the transcript does
not show that show that Dakota Access would have
been prejudiced by the admission of the affidavit for
the purpose offered. Upon reconsideration, the Board

App. 248
will admit the affidavit of Verdell Johnson as Marian
D. Johnson Exhibit 1.
No other issues or arguments are raised by the
affidavit. The Board will grant Dakota Access the right
of eminent domain over parcels H-CH-019 and
H-CH-020 as requested, subject to the conditions
approved by the Board in this order.
Jasper County
Cornlan Farms, Inc., H-JA-017 (IA-JA-020)
Dan Gannon filed prepared direct testimony but did
not testify at the hearing. (Affidavit of Dan Gannon.)
Gannon’s prepared direct testimony was admitted
without objection at the hearing. (Tr. 1946-47). In his
prepared testimony, Gannon stated that he is an owner
of Cornlan Farm, Inc., and was authorized to testify on
behalf of the corporation. Gannon testified regarding
the issues addressed by the Board in an earlier section
of this order that considered whether the proposed
pipeline meets the requirements of Iowa Code chapter
479B for a permit.
The Board has addressed the chapter 479B
requirements elsewhere in this order. The Board will
grant Dakota Access the right of eminent domain over
parcel H-JA-017 as requested, subject to the conditions
approved by the Board in this order.
Sondra K. Feldstein, H-JA-002 (IA-JA-040)
Sondra Feldstein filed prepared direct testimony in
this proceeding. (IFOA Exh. Feldstein Direct.) She is
opposed to the pipeline because “it represents a

App. 249
throwback to the use of fossil fuels” and because the
does not believe that eminent domain should be used
by a private company to take an interest in a
privately-owned farm. (Id. at 2.) At hearing, Feldstein
also testified that Dakota Access contacted her after
the date for filing testimony and informed her that a
change had been made in the proposed route over her
property. (Tr. 2967). Feldstein testified the revised
route would have a greater impact on her property
than the initial route by taking protective timber for
her market gardening activities. Feldstein testified
that corn or soybeans can be grown over a pipeline but
that market fruits and vegetables cannot. Some market
crops are perennials and she cannot plant them if
Dakota Access can come across the easement and tear
the plants down. (Tr. 2968). Feldstein testified that the
revised Exhibit H filing was filed too late for her to
address the change in her prepared direct testimony.
The revised route cuts right through the middle of her
property. (Tr. 2980).
Dakota Access witness Mahmoud testified that
perennial plants and shrubs up to 15 feet tall and with
trunks up to 3 inches in diameter at chest height will
be permitted on the permanent easement area. (Tr.
3288.) This appears to address Feldstein’s concerns
about blueberry bushes, rhubarb plants, asparagus
beds, and many fruit trees. (Tr. 2968.) In order to
ensure Dakota Access’s vegetation management
standards, as testified to at hearing, are applicable to
this parcel, the Board will require that the permanent
easement for this parcel be modified to incorporate the
15-foot and 3-inch standards. It appears that returning
the pipeline to its original proposed location would

App. 250
require substantial relocation on other nearby parcels
where voluntary easements have been negotiated based
upon the revised location shifting that burden to the
adjoining parcels would not be reasonable. Under these
circumstances, the Board will grant Dakota Access the
right of eminent domain over this parcel at the location
shown on the revised Exhibit H for parcel H-JA-002 as
filed in the Board’s electronic filing system on
December 10, 2015, subject to the modification above
and to the conditions approved by the Board in this
order.
William J. Gannon and Kathleen Kennedy
Gannon, H-JA-014 (IA-JA-012); Max E.
Maggard, Trustee of the Max E. Maggard and
Gloria Joyce Maggard Joint Revocable Trust,
H-JA-018 (IA-JA-048) and H-JA-019 (IAJA-051)
Bruce Babcock testified on behalf of William J.
Gannon and Kathleen Kennedy Gannon, and Max E.
Maggard, Trustee of the Max E. Maggard and Gloria
Joyce Maggard Joint Revocable Trust (Gannon et al.),
as well as Herman Rook, Laverne Johnson, the IFOA,
and NILA. (Exh. Gannon-Babcock Direct Testimony.)
Babcock’s testimony addressed the issues considered by
the Board earlier in this order regarding whether the
proposed pipeline meets the requirements for a permit
established in Iowa Code chapter 479B. There was no
testimony presented specifically regarding parcels
H-JA-014, H-JA-018, or H-JA-019.
The issues regarding the requirements of Iowa Code
chapter 479B have been addressed elsewhere in this
order. The Board will grant Dakota Access the right of
eminent domain over parcels H-JA-014, H-JA-018, or

App. 251
H-JA-019 as requested, subject to the conditions
approved by the Board in this order.
Herman C. Rook, H-JA-025 (IA-JA-201)
Herman C. Rook filed prepared direct testimony
regarding parcel H-JA-025. (IFOA Exh. Herman Rook
Direct.) He testified that the parcel is 100 percent flat
bottom land in the Elk Creek basin with extremely
limited draining options. Water is drained from the
north and south into the parcel. To address the
drainage issues on the parcel, Rook testifies that the
pipeline will need to be placed at least eight feet deep.
(Id. at 3.) At this depth, the drainage tiles will continue
to be able to drain the parcel. Rook testified that there
is no evidence Dakota Access considered a pipeline
route along division lines rather than cutting
diagonally across the parcel.
Keith Rook, Herman Rook’s son, filed prepared
direct testimony regarding parcel H-JA-025. (IFOA
Exh. Keith Rook Direct.) Larry E. Rook, another son of
Herman Rook, also filed prepared direct testimony
regarding this parcel. (IFOA Exh. Larry Rook Direct.)
Keith Rook and Larry Rook’s prepared testimony is
essentially the same as that of Herman Rook.
Keith Rook testified at the hearing. (Tr. 2991-94.)
According to Keith Rook, the tile system on the parcel
runs north to south and the proposed pipeline route
cuts across the tile system diagonally.
Most of the issues raised by the Rooks relate to
whether to grant a permit or whether to grant the
power of eminent domain and have been addressed
elsewhere in this order. The Board will grant Dakota

App. 252
Access the right of eminent domain over parcel
H-JA-025 subject to the condition that the pipeline be
placed at least eight feet deep on this parcel, and also
subject to the conditions approved by the Board in this
order.
Lee County
Hugh E. Tweedy, H-LE-028 (IA-LE-171)
Hugh E. Tweedy testified that the landowners to
the east, west, and south of parcel H-LE-028 have
signed voluntary easements and Dakota Access could
have gone around his parcel by using those other
parcels. His parcel is mainly timber with a 2.6 acre
organic field close to the center. Tweedy testified that
the trees located on the east side of his property are
favorite roosting places for several species of bats.
Tweedy testified that several fruit trees are located
along the proposed pipeline route. Tweedy requested
that the pipeline go around his farm. (Tr. 1407-19).
On cross-examination, Tweedy was asked if he was
aware that his property would be horizontally
directionally drilled under the parcel for the entire
distance. (Tr. 1420). Tweedy testified that he still was
not comfortable with having the pipeline on his
property. Dakota Access witness Mahmoud testified
that parcel H-LE-028 would be drilled; however,
Dakota Access is still requesting the right to cut a
30-foot path through the property over the pipeline
route. (Tr. 3379). According to Mahmoud, the path to
be cleared is for safety, in the event of a spill, and for
visual observations. (Tr. 3385). There is also concern
about tree roots wrapping around the pipeline.

App. 253
The Board will require Dakota Access to
horizontally directionally drill parcel H-LE-028 at a
depth of at least 25 feet. The Board is not persuaded
that granting the right of eminent domain to clear a
30-foot wide path across parcel H-LE-028 is necessary.
The need for visual inspection does not outweigh the
environmental concerns over the removal of roosting
areas for the several species of bats that roost in the
trees, particularly when visual inspection may still
take place on foot.
The Board will grant Dakota Access the right of
eminent domain over parcel H-LE-028 as modified,
subject to the conditions approved by the Board in this
order.
Mahaska County
Grandma’s Place, H-MA-013 (IA-MA-196) and
AIM Acres, L.C., H-MA-007 (IA-MA-198)
Pamela Alexander testified with regard to parcels
H-MA-013 and H-MA-007. Alexander’s testimony deals
with issues regarding whether Dakota Access has met
the requirements of Iowa Code chapter 479B for the
proposed hazardous liquid pipeline. Those issues have
been addressed in an earlier section of this order.
The Board will grant Dakota Access the right of
eminent domain over parcels H-MA-013 and H-MA-007
as requested, subject to the conditions approved by the
Board in this order.

App. 254
O’Brien County
Ruth Portz Konz, H-OB-001 (IA-OB-003)
Tom Konz testified about the manner of
negotiations by Dakota Access. (NILA Exh. 8.) This
included a statement by the land agent that Dakota
Access could not be stopped. (Id. at 4.) Even though
Konz was represented by counsel, Dakota Access never
contacted his counsel. (Tr. 3197). Konz requests that
the Board direct Dakota Access to enter into additional
negotiations for an easement over the parcel. Konz
testified that he told the Dakota Access land agents
that they should talk to his attorney about the
easement, but talk to him about compensation.
(Tr. 3208).
Konz is concerned about the construction being
permitted when the ground is wet and addresses issues
with the eminent domain easement. Konz testified that
his tile lines lies above a natural gas pipeline that
crosses the property. The tile lines are three and one
half feet deep to the bottom tile and run north to south
spaced 50 feet apart. (Tr. 3200). Konz is concerned
about replacement of his topsoil if there is a leak. He
testified that the topsoil is deep black dirt.
(Tr. 3201-02.)
The concerns raised by Konz are addressed by the
Board in the section of this order regarding the terms
and conditions the Board is attaching to the permit.
The Board will grant Dakota Access the right of
eminent domain over parcel H-OB-001 as requested,
subject to the conditions approved in this order.

App. 255
Sioux County
Double-D Land & Investments, LLC, H-SI-018
(IA-SI-073)
Double-D Land & Investments, LLC (Double-D),
stated that it is willing to sign an easement for the
pipeline, but did not want a proposed valve location on
its property. (Exh. DDH Direct at 2-3.) Double-D
argues that part of the value of the property is an
immaculately-maintained residential acreage and the
valve would be in view of the acreage. The valve site
would also interfere with farming operations and leave
a small area of cropland between the valve and railroad
tracks. Double-D also contends that Dakota Access did
not negotiate in good faith since Dakota Access only
offered a “take-it-or-leave-it” option.
Dakota Access responds in its reply brief that valve
locations are the result of sophisticated modeling and
engineering that determines where valves are needed
to protect, among other things, HCAs (High
Consequence Areas). (Reply Br. at 49.) According to
those studies, the valve needs to be placed in the near
vicinity of the Double-D parcel. (Id.) Dakota Access is
seeking eminent domain since it could not negotiate a
voluntary easement with Double-D.
The Board finds that the evidence shows that the
intrusion on the land by the proposed valve location
would be significant and the Board finds that such an
intrusion is not warranted in this instance, where the
landowner has identified an alternative valve site and
the evidence does not show that the alternative site
would be inadequate.

App. 256
The Board will not grant Dakota Access the right of
eminent domain to place a valve on parcel H-SI-018.
However, the Board will grant Dakota Access the right
of eminent domain to cross parcel H-SI-018 as
modified, subject to the conditions approved by the
Board in this order.
Story County
Richard G. Begg and Carole Lee Sorenson
Begg Revocable Living Trust, H-ST-001 (IA-ST020)
Eric A. LeSher testified concerning parcel
H-ST-001. The parcel is the residence of LeSher’s
mother-in-law and is rented for farming purposes.
LeSher points out that the proposed pipeline route cuts
diagonally across the parcel. This affects the potential
value of the property. The parcel is located next to land
owned by Iowa State University and there is
development within two miles of the parcel. LeSher
questions why the pipeline could not be located along
a gravel road rather than diagonally across the
property. (Tr. 2285).
LeSher raises concerns about the terms of the
easement and the valuation of the property. He was
also concerned about a perceived lack of communication
from the company. However, on cross-examination
LeSher admitted that he was unaware that his
brother-in-law had told the land agents that,
collectively, the interested parties in the parcel did not
want to negotiate. (Tr. 2289).
The identified concerns and arguments go to issues
the Board has already decided elsewhere in this order

App. 257
(whether the project will promote the public
convenience and necessity, for example) or to
compensation issues that are outside the jurisdiction of
the Board. The evidence offered appears to indicate
that the interested persons in the parcel were not able
to negotiate collectively and so negotiations were not
constructive. The Board will grant Dakota Access the
right of eminent domain over parcel H-ST-001 as
requested, subject to the conditions approved by the
Board in this order.
Walnut Creek Limited Partnership, H-ST-002
(IA-ST-025) and H-ST-007 (IA-ST-027); Lowman
Brothers, Inc., H-ST-006 (IA-ST-026)
David Lowman testified that parcel H-ST-002 has
been in his family for generations and that the propose
pipeline would be constructed through a walnut grove
that has been on the property for 47 years. (IFOA Exh.
Lowman Direct at 7, Tr. 2949-65.) The trees would be
cut down and no trees would be allowed on the
easement after construction. Lowman is also concerned
that pipeline will limit his options to develop the land
for uses other than agriculture. The other issues raised
by Lowman are addressed by the Board in the earlier
sections concerning whether the pipeline meets the
requirements of Iowa Code chapter 479B.
At the hearing, Lowman testified that parcel
H-ST-002 has timber land that will be crossed by the
pipeline and a little cropland. Parcel H-ST-006 is
entirely cropland and parcel H-ST-077, where the
pipeline is proposed to cross, is entirely cropland.
(Tr. 2960). Lowman testified that parcel H-ST-002 is
considered to have potential for development and he is

App. 258
concerned the pipeline will diminish the value of the
land. Lowman testified that the drainage tiles on three
parcels are county-owned drainage tiles. (Tr. 2962).
The Board has determined that Dakota Access has
met the requirements for a permit, which addresses
most of Lowman’s concerns, and the Board finds that
there does not appear to be a reasonable alternative to
the proposed pipeline route over the three parcels. The
Board will grant Dakota Access the right of eminent
domain over parcels H-ST-002, H-St-006, and
H-ST-007 as requested, subject to the conditions
approved by the Board in this order.
Arlene Bates and Leona O. Larson, H-ST-003
(IA-ST-070.500)
Leonard Larson testified for the property owners,
his mother and sister. He opposed the pipeline and the
use of eminent domain. (IFOA Exh. Larson Direct.) At
the hearing, Larson testified that the property around
parcel H-ST-003 has several houses and so the parcel
has potential for development. (Tr. 2947). He also
testified that he does not believe the pipeline will
promote the public convenience and necessity and that
it is unconstitutional to grant the power of eminent
domain to a private company. (Id.) He does not want
the pipeline on his property. (Tr. 2948.)
The Board has addressed the concerns raised by
Larson concerning whether the pipeline meets the
requirements of Iowa Code chapter 479B in earlier
sections of this order. The Board has determined that
Dakota Access has met those requirements. The
development potential of the parcel is not sufficiently

App. 259
well-developed to justify denial of the power of eminent
domain; one other parcel in the area has a housing
development of four or five houses, but there are no
firm plans for this parcel. (Tr. 2946.) The Board will
grant Dakota Access the right of eminent domain over
parcel H-ST-003 as requested, subject to the conditions
approved by the Board in this order.
Wapello County
Hickenbottom Experimental Farms, Inc., HWA-016 (IA-WA-061.300)
Steven Hickenbottom testified regarding parcel
H-WA-016, which he owns with his brother Mark.
(NILA Exh. 6 at 1.) He testified that there is one place
on the parcel that “we had left to put a pond and have
a place where we could put a house.” (Tr. 3132). The
location of the pond and house, if built, would be just to
the east of the pipeline route. Hickenbottom testified
that the location of the pipeline would prevent him
from constructing the pond in that location but it would
not interfere with construction of the house. (Tr. 3133.)
The evidence presented by Hickenbottom was not
specific as to the timing or exact location of the pond
and house. On this record, any plans to put in a pond
are not sufficiently well-developed to justify denying
eminent domain on this parcel. The Board will grant
Dakota Access the right of eminent domain over parcel
H-WA-016 as requested, subject to the conditions
approved in this order.

App. 260
Webster County
Keith D. Puntenney, H-WE-004 (IA-WE-078)
Keith D. Puntenney appeared pro se at the hearing
and participated in cross examination of Dakota Access
witnesses. In addition, Puntenney offered a number of
exhibits in support of his opposition to the pipeline. The
majority of the testimony and exhibits presented by
Puntenney address the issues of whether Dakota
Access has met the requirements of Iowa Code chapter
479B for a hazardous liquid pipeline permit. The Board
has addressed similar concerns in an earlier section of
this order.
At the hearing, Puntenney testified that he had
attached a map to his objection which shows how the
proposed pipeline route could be straightened to go
completely around his property. By moving the route to
the south, the pipeline would cross a parcel where
there is a voluntary easement and then cross parcel
H-WE-008 (IA-WE-079), owned by Beer Implement
Company which is also a parcel where Dakota Access
is requesting the right of eminent domain. Puntenney
testified that the land that would be crossed by his
recommended alternate route is agricultural land.
(Tr. 3487).
Puntenney testified that by moving the pipeline off
of his property he could put three wind turbines in the
area of the proposed pipeline route. He testified that he
and a neighbor had been trying to put together a
proposal for MidAmerican Energy Company for the
wind turbines. (Tr. 3488-89). In his objection dated
January 13, 2015, Puntenney describes the

App. 261
specifications for tiling he had planned for 2015 and
argued that if the pipeline is constructed, major
reconstruction and reconfiguration of the tile system
will be required.
The evidence shows that Puntenney’s plan to install
wind turbines on this parcel is not a firm plan at this
stage; Puntenney and a neighbor “are trying to put
together a proposal to approach MidAmerican to use
our land.” (Tr. 3489.) That is not a sufficiently
developed plan to justify denial of eminent domain on
this parcel, particularly when it has not been shown
that the pipeline would necessarily interfere with the
possible future installation of wind-driven turbine
generators.
The Board will grant Dakota Access the right of
eminent domain over parcel H-WE-004 as requested,
subject to the conditions approved by the Board in this
order.
Carolyn A. Lambert, Life Estate, H-WE-026 (IAWE-101)
Kevin Lambert testified regarding parcel H-WE-026
which is owned by his mother, Carolyn Lambert.
Lambert raised concerns about placing the pipeline
above any tile since he would be reluctant to use a
backhoe for tile located below the pipeline. He is
worried about the ground settling over the trench after
the pipeline is installed. He is worried about hitting the
pipeline because of erosion and heavy tilling.
Lambert presented the same testimony regarding
parcel H-WE-026 that he presented concerning parcel
H-BO-001 in Boone County. As found by the Board

App. 262
with regard to parcel H-BO-001, the Board will grant
Dakota Access the right of eminent domain over parcel
H-WE-026 as requested, subject to the conditions
approved by the Board in this order.
Parcels Owned by or
Governmental Entities

Affiliated

with

Iowa Department of Transportation, H-JA-026
(IA-JA-004.001)
Jasper County Conservation Board, H-JA-016
(IA-JA-015.910)
State of Iowa, Department of Natural
Resources, H-LY-011 (IA-LY-004)
State of Iowa, H-ST-017, (IA-ST-001)
Story County, Iowa, H-ST-030 (IA-ST064.500.900)
Iowa State College of Agriculture and
Mechanic Arts, H-BU-004 (IA-BU-131)
Dakota Access requests that it be granted the power
of eminent domain over these parcels owned by
governmental entities, that is, property that is already
devoted to a public use. It has long been the law in
Iowa that when a party asserts a right to condemn an
interest in land that is already devoted to the public
benefit, the party must identify a statute conferring
that authority. Town of Alvord v. Great Northern Ry.
Co., 179 Iowa 465, 161 N.W. 467, 469 (1917), citing 2
Elliott on Roads and Streets (2d Ed.), § 219. The
general rule is that if the two uses are consistent, such
that neither public use will obstruct or interfere with
the other, authority for the second use to condemn the
first may be implied from a general grant of the power
of eminent domain, but if the two uses cannot coexist

App. 263
without material impairment of the first use, then
authority to condemn an interest for the second use
must be specifically granted by the Legislature. Id; see
also Chicago Great Western Ry. Co. v. Mason City, 155
Iowa 99, 135 N.W. 9, 10 (1912).
Here, Dakota Access has not cited any statute that
specifically allows the Board to grant the power of
eminent domain to a hazardous liquid pipeline
company in order to condemn property that is already
devoted to the public use. Statutes delegating the
power of eminent domain are to be strictly construed
and restricted to their expression and intention. State
v. Johann, 207 N.W.2d 21, 24 (Iowa 1973). Unless and
until specific authority for a pipeline company to
condemn government-owned property is identified, the
Board will not grant Dakota Access the right of
eminent domain with respect to these parcels.
Board of Regents, State of Iowa, H-ST-005 (IAST-013)
Committee for Agricultural Development, HST-018 (IA-ST-002) and H-ST-026 (IA-ST-010)
Iowa State University Achievement
Foundation, H-ST-024 (IA-ST-003) and H-ST025 (IA-ST-006)
In their briefs, each of these public landowners
states that the Board has the statutory authority to
determine whether Dakota Access meets the
requirements of Iowa Code chapter 479B for a pipeline
permit and the landowner defers to the Board’s
judgment on this issue. Each landowner also stipulates
if the Board grants a permit to Dakota Access then the

App. 264
landowner will negotiate a voluntary easement with
Dakota Access.
Based upon the stipulation in the initial briefs, and
the lack of any identified statutory authority to allow
a hazardous liquid pipeline company to condemn
property already devoted to the public benefit, the
Board will not grant Dakota Access the right of
eminent domain over these parcels.
IX.

Conclusion

Having considered all of the evidence and
arguments presented in this record, the Board
concludes as follows:
1.
When all of the costs and benefits are
considered, and expressly conditioned upon and subject
to the terms and conditions the Board has adopted in
Section VI of this order, the Board determines that the
proposed pipeline will promote the public convenience
and necessity as required by Iowa Code § 479B.9 and a
permit will be issued when Dakota Access has complied
with certain filing requirements. Specifically, no permit
will be issued, and construction may not commence,
until the insurance policy, the unconditional and
irrevocable parent corporation guarantees, a statement
of acceptance of the Board’s terms and conditions, a
modified AIMP, revised condemnation easement forms,
and a landowner notification timeline have all been
filed with and accepted by the Board.
2.
Dakota Access has considered the possible
use of alternate routes, as required by Iowa Code
§ 479B.5(6), and, on this record, the proposed route is
a reasonable one.

App. 265
3.
Dakota Access has demonstrated compliance
with the financial responsibility requirements of Iowa
Code § 479B.13.
4.
When the permit is issued, Dakota Access
shall be vested with the right of eminent domain as
described and limited in this order, as required by Iowa
Code § 479B.16.
5.
This is the Board’s final order on the merits
for purposes of Iowa Code §§ 17A.16, 476.12, and
479B.22. Parties to this proceeding may file
applications for rehearing or reconsideration within 20
days of the date of issuance of this order.
ORDERING CLAUSES
IT IS THEREFORE ORDERED:
1.
Marian D. Johnson Exhibit 1 is admitted into
the record in this docket.
2.
Motions and objections not previously
granted or sustained are overruled. Arguments
presented in written filings or made orally at the
hearing that are not addressed specifically in this final
decision and order are rejected, either as not supported
by the evidence or as not being of sufficient
persuasiveness to warrant comment.
3.
Pursuant to Iowa Code chapter 479B, the
petition for hazardous liquid pipeline permit filed by
Dakota Access in this docket is hereby granted. The
permit will be issued when Dakota Access has filed,
and the Board has accepted, the following:

App. 266
a. A revised Agricultural Impact Mitigation Plan
with the additional conditions as described in this
order.
b. A general liability insurance policy in the
amount of at least $25,000,000, to be filed and
reviewed each time it is renewed, but at a minimum
annually, for the life of the pipeline.
c. The unconditional and irrevocable guarantees of
the parent companies of Dakota Access for
remediation of damages from a leak or spill.
d. A timeline showing when, and to whom, the
various construction notices will be given in relation
to a typical parcel and describing the time frames
available for consultation with the landowner and
inspector, as described in this order. The timeline
should also identify all of the information that will
be included with each notification.
e. Modified condemnation easement forms as
described in this order.
f. A statement accepting the terms and conditions
the Board has determined to be just and proper for
this permit, as described in this order.
Construction cannot begin until all of these filings have
been made and accepted by Board order and a permit
has been issued. The permit will be issued based upon
Dakota Access’s representations that all necessary or
required permits and authorizations will be obtained
prior to the construction and operation of the pipeline.
If any necessary or required permit or authorization is
not obtained in a timely manner, the permit will be

App. 267
void. If, in the process of obtaining a permit or other
authorization, the route or any other significant aspect
of the pipeline or the information contained in this
record (and upon which the permit is issued) is
changed, Dakota Access shall file an amended petition
or a request for an amended permit, as appropriate.
Finally, Dakota Access shall file a notice of completion
each time it acquires a permit or authorization
identified in Hearing Exhibit MH-4, as described in
this order. If the company chooses to file a notice, it
should include sufficient information to allow an
interested person to easily obtain a copy, either from
the granting authority or from Dakota Access (so long
as the permit or authorization is not confidential by
law).
4.
Prior to commencing construction, Dakota
Access shall file the final versions of its Storm Water
Pollution Prevention Plan and its Unanticipated
Discoveries Plan.
5.
Dakota Access is to notify the Board, by
means of an appropriate filing in this docket, when the
Facilities Response Plan is filed with PHMSA.
6.
Dakota Access is to file quarterly status
reports concerning this project starting on July 1, 2016,
and continuing until the pipeline is in operation.
7.
Dakota Access is to file a Winter Construction
Plan on or before August 1, 2016.
8.
Dakota Access must continue to offer to
purchase voluntary easements, with the same terms
and conditions already offered to the landowners, for
the best prices that have already been offered by

App. 268
Dakota Access, at least until the county compensation
commission meets to assess the damages for each
taking.
9.
Dakota Access is granted the right of eminent
domain over the parcels listed on Attachment 1 and
Attachment 2 to this order and are incorporated into
this order by reference.
10.
Dakota Access is granted the right of eminent
domain over the following parcels as described in this
order:
Boone County
John A. Burkhart, H-BO-001 (IA-BO-018)
LaVerne Johnson, H-BO-048 (IA-BO-033)
Judith Anne Lamb Revocable Trust, H-BO-032
(IA-BO-134)
Richard A. Lamb Revocable Trust, H-BO-033
(IA-BO-136)
Buena Vista County
Martha A. Murray, H-BU-031 (IA-BU-020)
Brent N. Jesse, Shawn B. Jesse, and Wendi
J.Taylor, H-BU-021 (IA-BU-096) and H-BU-022
(IA-BU-105)
ERN Enterprises, Inc., H-BU-061 (IA-BU-097)
Calhoun County
Prendergast Enterprise, Inc. H-CA-041 (IA-CA-157)
Cherokee County
Marian D. Johnson, H-CH-019 (IA-CH-025) and
H-CH-020 (IA-CH-026)

App. 269
Jasper County
Cornlan Farms, Inc., H-JA-017 (IA-JA-020)
Willam J. Gannon and Kathleen Kennedy Gannon,
H-JA-014 (IA-JA0012)
Max E. Maggard, Trustee of the Max E. Maggard
and Gloria Joyce Maggard Joint Revocable Trust,
H-JA-018 (IA-JA-048) and J-JA-019 (IA-JA-051)
Mahaska County
Grandma’s Place, H-MA-013 (IA-MA-196)
AIM Acres, L.C., H-MA-007 (IA-MA-198)
O’Brien County
Ruth Portz Konz, H-OB-001 (IA-OB-003)
Story County
Richard G. Begg and Carole Lee Sorenson Begg
Revocable Living Trust, H-ST-001 (IA-SAT-020)
Walnut Creek Limited Partnership, H-ST-002
(IA-ST-025) and H-ST-007 (IA-ST-027)
Lowman Brothers, Inc., H-ST-006 (IA-ST-026)
Arlene Bates and Leona O. Larson, H-ST-003
(IA-ST-070)
Wapello County
Hickenbottom Experimental Farms, Inc., H-WA-016
(IA-WA-061)
Webster County
Keith D. Puntenney, H-WE-004 (IA-WE-078)
Carolyn A. Lambert, Life Estate, H-WE-026
(IA-WE-101)

App. 270
11.
Dakota Access is granted the right of eminent
domain over the following parcels as modified by this
order:
Boone County
LaVerne Johnson, H-BO-047 (IA-BO-028)
Buena Vista County
Michael G. Lenhart, Retha A. Lenhart, Patrick G.
Lenhart, and Carol J. Lenhart, H-BU-008
(IA-BU-073)
Cherokee County
Marie J. Smith Revocable Trust, H-CH-012
(IA-CH-081)
William R. Smith and Anne C. Smith, H-CH-015
(IA-CH-080) and H-CH-016 (IA-CH-082)
Jasper County
Sondra K. Feldstein, H-JA-002 (IA-JA-040)
Herman C. Rook, H-JA-025 (IA-JA-201)
Lee County
Hugh E. Tweedy, H-LE-028 (IA-LE-171)
Sioux County
Double-D Land & Investments, LLC, H-SI-018
(IA-SI-073)
12.
Dakota Access is denied the right of eminent
domain over the following parcels as described in this
order.

App. 271
William R. Smith and Anne C. Smith, H-CH-024
(IA-CH-083)
Iowa Department of Transportation, H-JA-026
(IA-JA-004)
Jasper County Conservation Board, H-JA-016
(IA-JA-015)
State of Iowa, Department of Natural Resources,
H-LY-011 (IA-LY-004)
Story County, Iowa, H-ST-030 (IA-ST-064)
State of Iowa, H-ST-017 (IA-ST-001)
Board of Regents, State of Iowa, H-ST-005
(IA-ST-013)
Committee for Agricultural Development, H-ST-018
(IA-ST-002) and H-ST-026 (IA-ST-010)
Iowa State University Achievement Foundation,
H-ST-024 (IA-ST-003) and H-ST-025 (IA-ST-006)
Iowa State College of Agriculture and Mechanic
Arts, H-BU-004 (IA-BU-131)
Iowa Interstate Railroad, LTD., H-JA-028
(IA-JA-100.900)
Union Pacific Railroad Company, H-ST-031
(IA-ST-077.500.900)
13.
Within 180 days after completion of the new
pipeline, Dakota Access must file a map that accurately
shows the location of the pipeline route as constructed.
The map will be a part of the record in this case and
will represent the final route authorized by the permit.
14.
The Board retains jurisdiction of the subject
matter of this docket for purposes of receiving and
considering the additional filings required by this order
and for such other purposes as may be appropriate.

App. 272
UTILITIES BOARD
/s/ Geri D. Huser
/s/ Elizabeth S. Jacobs
ATTEST:
/s/ Trisha M. Quijano
Executive Secretary,
Designee

/s/ Nick Wagner________

Dated at Des Moines, Iowa, this 10th day of March
2016.

App. 273
ATTACHMENT 1
HLP-2014-0001
EMINENT DOMAIN PARCELS
Boone County
-

H-BO-035 (IA-BO-004.000)
" William Robert Petty and Majorie D.
Petty
H-BO-036 (IA-BO-005.000)
" William Robert Petty
H-BO-037 (IA-BO-011.000)
" William Robert Petty and Marjorie D.
Petty
H-BO-038 (IA-BO-012.000)
" William Robert Petty and Marjorie D.
Petty
H-BO-017 (IA-BO-014.000)
" Litchfield Realty Company
H-BO-018 (IA-BO-016.000)
" Litchfield Realty Company
H-BO-002 (IA-BO-020.000)
" Leanne L. Samuelson
H-BO-019 (IA-BO-023.000)
" D. C. Gustafson and Margaret Ann
Gustafson
H-BO-029 (IA-BO-055.509)
" Boone County
H-BO-007 (IA-BO-063.509)
" Beverly Sturtz
H-BO-014 (IA-BO-071.512)
" LJP Farms Limited Partnership, LLLP
H-BO-009 (IA-BO-074.512)

App. 274
-

" Schonesland Corporation
H-BO-003 (IA-BO-076.512)
" Erbe Farms, Inc.
H-BO-004 (IA-BO-077.512)
" Liselro, LTD
H-BO-005 (IA-BO-081.512)
" Triange B Farms, Inc.
H-BO-042 (IA-BO-083.512)
" Barbara A. Weigel
H-BO-025 (IA-BO-085.512)
" T and K Farms, Inc. Phil Eastlund
Farms, Inc.
H-BO-026 (IA-BO-086.512)
" Phil Eastlund Farms, Inc.
H-BO-027 (IA-BO-093.512)
" Edward Ochylski Revocable Trist Edward
Ochylski Trustee
H-BO-030 (IA-BO-097.000)
" Kyle S. Chesnut and Ellen M. Chesnut
H-BO-006 (IA-BO-098.000)
" Richard E. Nelson
H-BO-043 (IA-BO-098.300)
" Barbara A. Weigel
H-BO-044 (IA-BO-101.000)
" Double U, Inc.
H-BO-015 (IA-BO-118.300)
" Paul A. Parish and Michael R. Parrish
Revocable Trust
H-BO-045 (IA-BO-123.000)
" Maxine Harms
H-BO-039 (IA-BO-124.000)
" Maxine Harms

App. 275
-

H-BO-022 (IA-BO-129.000)
" Todd Land Corporation
H-BO-016 (IA-BO-139.000)
" David M. Ballantyne & Jana L.
Ballantyne
H-BO-040 (IA-BO-144.500)
" Swanson Farm, LTD
H-BO-041 (IA-BO-145.500.300)
" Swanson Farm, LTD
H-BO-010 (IA-BO-146.500)
" Dennis R. Cooper
H-BO-023 (IA-BO-148.500)
" Irene D. Ross
H-BO-046 (IA-BO-149.500)
" Gaylord L. Swanson and Mary Ann
Swanson
H-BO-011 (IA-BO-151.000)
" Beth B. Gaul
H-BO-034 (IA-BO-154.000)
" Goeppinger Enterprises, Inc.

Buena Vista
-

H-BU-072 (IA-BU-028.000)
" The Schaller Company, a corporation
H-BU-055 (IA-BU-029.000)
" David L. Pedersen, Deann L. Ramsey and
Donna L. Bird
H-BU-056 (IA-BU-042.300)
" Thomas R. Morrison and Margaret W.
Baron
H-BU-074 (IA-BU-044.000)
" Ballou Holdings LLC and Cynthia L.
Brown Trust

App. 276
-

H-BU-003 (IA-BU-048.000)
" Linda L. Gutel Trust
H-BU-010 (IA-BU-049.000)
" Laverne Dierenfield Trust for the Benefit
of Marilyn M. Lindsay
H-BU-017 (IA-BU-052.000)
" Helen Ruebel Revocable Trust
H-BU-018 (IA-BU-055.000)
" Gary T. Worthan Revocable Trust
H-BU-036 (IA-BU-056.000)
" John Foster
H-BU-049 (IA-BU-060.000)
" J.F. Mckenna Farms, Inc.
H-BU-037 (IA-BU-061.000)
" Susan K. Geisinger and Harold V.
Geisinger II
H-BU-038 (IA-BU-063.000)
"
Susan K. Geisinger and Harold V.
Geisinger II
H-BU-007 (IA-BU-064.000)
" Susan F. Graves Trust
H-BU-039 (IA-BU-065.000)
" Geisinger Land Trust and Martha
Christine Geisnger Revocable Trust
H-BU-012 (IA-BU-067.000)
" Mary E. Nakayama 2003 Trust
H-BU-013 (IA-BU-071.000)
" The Citizens First National Bank of
Storm Lake, Iowa
H-BU-040 (IA-BU-075.000)
" Geisinger Land Trust
H-BU-041 (IA-BU-077.000)
" Geisinger Land Trust

App. 277
-

H-BU-058 (IA-BU-079.000)
" John J. Miller and Mary L. Miller
H-BU-059 (IA-BU-080.000)
" Betty Jean Richardson Revocable Trust
H-BU-019 (IA-BU-083.000)
" Karen K. Nehring
H-BU-020 (IA-BU-085.000)
" Estate of William D. Walters
H-BU-076 (IA-BU-003)
" Jesse Farms, Inc.
H-BU-014 (IA-BU-092.000)
" Duane Magnussen and Cindy Magnussen
H-BU-079 (IA-BU-093.205)
" Ina N. Hansen Trust
H-BU-042 (IA-BU-099.000)
" James Selleck
H-BU-080 (IA-BU-108.000)
" Mary E. Mernin, Life estate
H-BU-023 (IA-BU-110.000)
" Barbara Doyen and the Barbara Doyen
life estate
H-BU-082 (IA-BU-121.000)
" Virgil M. Petty and Wendell M. Petty
H-BU-044 (IA-BU-139.000)
" Marian Kinney, Life Estate
H-BU-045 (IA-BU-140.000)
" Henningsen Family Farm Trust
H-BU-053 (IA-BU-149.000)
" Doyle H. Nissen and Lavonne M. Nissen
H-BU-054 (IA-BU-157.000)
" Cletus and Ruth Ann Stark Trust U/T/A
Dated October 10, 1997

App. 278
Calhoun
-

-

-

H-CA-043 (IA-CA-005.000)
" Murphy Farms, Inc.
H-CA-009 (IA-CA-022.000)
" Ann Frances Sullivann Trust
H-CA-051 (IA-CA-059.000)
" Gary Olsen, Trustee of the Gary Olsen
Trust
H-CA-012 (IA-CA-062.001)
" Gary D. Hammen and Linda L. Hammen
H-CA-018 (IA-CA-064.000)
" John F. Wilson, Robert F. Wilson, Robert
F. Wilson, Jr., and Katherine Anne
Wilson
H-CA-036 (IA-CA-077.001)
" The Estate of Muriel M. Moeller
H-CA-037 (IA-CA-079.000)
" Diane C. Hoymann, Gene L. Moeller, and
Christopher J. Kelley
H-CA-060 (IA-CA-096.000)
" Mary Fouts Metzger
H-CA-053 (IA-CA-108.200)
" Michael D. Folsom and Gail L. Folsom
H-CA-061 (IA-CA-111.000)
" Michael D. Folsom, Life Estate, Gail L.
Folsom, life estate, Michael D. Folsom,
Patricia Frerich, Susan Kinnnear, and
Ann Taylor
H-CA-032 (IA-CA-114.000)
" Darvin Tasler and Margrette Tasler
H-CA-015 (IA-CA-114.305)
" Michael E. Tasler

App. 279
-

-

H-CA-020 (IA-CA-118.000)
" Kelly and Eakins Iowa Revocable Trust
Kathryn Haynes Zerkus Iowa Revocable
Trust
H-CA-038 (IA-CA-119.000)
" Ronald Weiss
H-CA-039 (IA-CA-121.000)
" Joyce M. Weiss
H-CA-063 (IA-CA-122.000)
" Leroy C. Bailey and Elenora M. Bailey
H-CA-054 (IA-CA-131.501)
" Sidney C. Dillon revocable trust
H-CA-040 (IA-CA-135.501)
" Donald Rasmuson
H-CA-004 (IA-CA-137.501)
" Travis C. Rasmuson
H-CA-035 (IA-CA-142.501)
" Sidney C. Dillon Revocable Trust
H-CA-022 (IA-CA-144.501)
" Glenrose Ewing Moeller, life estate
H-CA-005 (IA-CA-145.501)
" Marvel lee McNeil
H-CA-023 (IA-CA-146.501)
" Kim A. Martin
H-CA-024 (IA-CA-148.501)
" Kim A. Martin
H-CA-006 (IA-CA-153.501)
" Douglas M. Berg and Jane R. Berg
H-CA-025 (IA-CA-155.501)
" Mabel C. Hammen
H-CA-042 (IA-CA-159.501)
" Kenneth and Margaret Hiler Trust

App. 280
Cherokee
-

H-CH-001 (IA-CH-008.000)
" Melanie S. Rose and Lisa L. Johnson
H-CH-002 (IA-CH-021.000)
" Randall A. Anderson
H-CH-005 (IA-CH-028.000)
" Marvin F. Zoch and Bonnie Zoch
H-CH-010 (IA-CH-032.000)
" Janet J. Jerome Trust
H-CH-003 (IA-CH-040.501
" Sharon K. Nelson Revocable Trust Sharon
K. Nelson, Life Estate
H-CH-006 (IA-CH-048.000)
" The Sharon K. Nelson Revocable Trust
H-CH-004 (IA-CH-091.000)
" William John Luetkman and Kimberly
Sue Luetkman
H-CH-013 (IA-CH-092.000)
" Gary Anderson and Virginia Anderson
H-CH-025 (IA-CH-102.000)
" Sherrilyn A. Stewart

Jasper
-

H-JA-021 (IA-JA-092.200)
" Ernest F. Bell and Betty L. Bell
H-JA-010 (IA-JA-161.000)
" Arvin G. Voss and Laura B. Voss
H-JA-011 (IA-JA-172.000)
" Keth Van Hemert
H-JA-013 (IA-JA-195.000)
" Carl Eugene Van Zee and Lloyd J. Van
Zee

App. 281
Jefferson
-

H-JE-001 (IA-JE-006.000)
" Eugene R. Person and Jane P. Person
H-JE-002 (IA-JE-009.000)
" Darlene R. Morrison
H-JE-003 (IA-JE-033.000)
" Dorothy Marie Page
H-JE-009 (IA-JE-070.000)
" Carroll Eugene Parker and Joneane L.
Parker
H-JE-008 (IA-JE-090.000)
" Nathan James Porter, Mark Andrew
Porter, Ryan Stephen Porter

Keokuk
-

H-KE-005 (IA-KE-004.000)
" Bank Iowa, Trustee of the M. Louise
Reinwand Testamentary Trust
H-KE-006 (IA-KE-013.000)
" South Ottumwa Savings Bank, Trustee of
the Helen D. Kielkopf Family Trust
H-KE-004 (IA-KE-024.000)
" Ronna Lea Peterson
H-KE-022 (IA-KE-030.000)
" Steven Lee Roquet

Lee
-

H-LE-029 (IA-LE-091.000)
" Ball Acres, Ltd.
H-LE-015 (IA-LE-156.000)
" Idol Rashid, Inc.

App. 282
-

H-LE-016 (IA-LE-162.000)
" Michael J. Dresser

Lyon
-

H-LY-008 (IA-LY-003.000)
" Shirely Styke as Trustee of Shirley Styke
Revocable Trust
H-LY-005 (IA-LY-021.000)
" Corrine Bonnema and Ruth R. Van Tol
H-LY-001 (IA-LY-022.000)
" Mark L. Van Tol
H-LY-006 (IA-LY-029.000)
" Harold Niemeyer and Lorraine Niemeyer
H-LY-007 (IA-LY-035.200)
" Vincent E. Leners and Mary Ellen Leners
Revocable Truster
H-LY-003 (IA-LY-036.000)
" Lynn Colvin

Mahaska
-

H-MA-017 (IA-MA-047.000)
" Dennis R. Blanke and Sharon K. Blanke
H-MA-009 (IA-MA-048.000)
" Dennis R. Blanke and Sharon K. Blanke
H-MA-010 (IA-MA-049.000)
" Wilma Blanke Trust
H-MA-011 (IA-MA-087.000)
" Leslie Everett
H-MA-012 (IA-MA-108.000)
" Glenview Family Farms, L.L.C.
H-MA-020 (IA-MA-146.000)

App. 283

-

" Jaqueline M. Walters and Steven J.
Walters
H-MA-028 (IA-MA-169.000)
" David J. Meinders and Rebecca L.
Meinders
H-MA-005 (IA-MA-190.000)
" Lois Maxine McCracken
H-MA-006 (IA-MA-191.000)
" Lois Maxine McCracken
H-MA-031 (IA-MA-195.000)
" Paul Robert Weiland
H-MA-014 (IA-MA-200.500)
" Gary Ver Ploegh and Karen Ver Ploegh

O’Brien
-

H-OB-004 (IA-OB-011.000)
" Todd Joanning and Scott Joanning

Polk
Sac

H-PO-006 (IA-PO-014.500
" Bertha Ann Swanson and John B. Jones
H-PO-007 (IA-PO-015.500)
" Bertha Ann Swanson
H-PO-009 (IA-PO-021.500)
" Nancy L. Nehring, Steven P. Winegarden
H-PO-004 (IA-PO-033.000)
" Mary E. Goodwin

App. 284
Sioux
-

H-SI-012 (IA-SI-056.000)
" Lois Van Maanen Life Estate
H-SI-005 (IA-SI-057.000)
" Lois Van Maanen Life Estate
H-SI-001 (IA-SI-059.000)
" Daryl E. Van Maanen & Greta Van
Maanen
H-SI-013 (IA-SI-060.000)
" Lois Van Maanen Life Estate
H-SI-014 (IA-SI-081.000)
" Robert D. Hulstein

Story
-

H-ST-027 (IA-ST-010.300)
" Lettah L. Thompson, Trustee of the
Kenneth L. Thompson Disclaimer Trust
H-ST-008 (IA-ST-035.000)
" Sunrise Farm, A General Partnership
H-ST-003
H-ST-029 (IA-ST-046.500)
" Cindale Farms, L.C.
H-ST-009 (IA-ST-051.500.305
" David J. Lee, Doreen K. Lee
H-ST-010 (IA-ST-055.500.300)
" David J. Lee, Doreen K. Lee
H-ST-014 (IA-ST-063.500)
" David A. Kalsem
H-ST-020 (IA-ST-068.500)
" Steven E. Claussen and The Claussen
Family Trust
H-ST-021 (IA-ST-071.500)

App. 285

-

" Steven E. Claussen and The Claussen
Family Trust
H-ST-011 (IA-ST-074.500)
" Faith Baptist Church
H-ST-022 (IA-ST-075.500)
" Marla K. Barnes Revocable Trust

Van Buren
-

H-VA-011 (IA-VA-006.000)
" William Howard Clark, Sr. and Donna
Lee Clark
H-VA-012 (IA-VA-007.300)
" William Howard Clark, Sr. and Donna
Lee Clark
H-VA-004 (IA-VA-017.000)
" The Vern Vorhies Jr. Revocable Trust
H-VA-008 (IA-VA-039.300)
" Fesler Living Trust
H-VA-007 (IA-VA-081.000)
" The Ross Family Trust

Wapello
-

H-WA-009 (IA-WA-029.000)
" Alissa A. Meacham, Trustee of the Alissa
A. Meacham Trust
H-WA-011 (IA-WA-036.000)
" Jane Dillon Life Estate and Nancy Squire
H-WA-003 (IA-WA-039.000)
" Jill Ann Miller Revocable Trust Jill Ann
Miller, Trustee and Todd A. Moore
H-WA-019 (IA-WA-061.000)

App. 286
" Terri Ann Huffman, as executor of the
Estate of Lawrence LaVerne Payne
Webster
-

-

H-WE-020 (IA-WE-014.000)
" The Keith E. Peterson and Doroty J.
Peterson Revocable Inter-Vivos Trust
H-WE-016 (IA-WE-020.000)
" Estate of Judith Linquist
H-WE-017 (IA-WE-021.000)
" Estate of Judith Linquist
H-WE-021 (IA-WE-036.000)
" Judith Anderson, Jean Volpe and Steven
R. Anderson
H-WE-001 (IA-WE-042.000)
" T.R. Watts and Sons, Incorporate
H-WE-023 (IA-WE-048.000)
" Judith Anderson, Jean Volpe Steven R.
Anderson, Charles E. Christianson and
Karen M. Inman
H-WE-002 (IA-WE-053.000)
" 3511 Corporation, an Iowa Corporation
H-WE-003 (IA-WE-053.300)
" Lightner Farms, Inc.
H-WE-019 (IA-WE-073.000)
" Linda M. Bradshaw
H-WE-024 (IA-WE-077.200)
" Linda M. Bradshaw
H-WE-008 (IA-WE-079.000)
" Beer Implement Co., An Iowa Corporation
H-WE-005 (IA-WE-114.000)
" Betty Lou Carlson
H-WE-015 (IA-WE-122.000)

App. 287
" Thomas R. Good, William J. Good Family
Trust and Randall L. Good

App. 288
ATTACHMENT 2
HLP-2014-0001
EMINENT DOMAIN PARCELS
Boone County
-

H-BO-013 (IA-BO-007.000)
" Craig Peterson and Barbara A. Peterson

Buena Vista
-

-

H-BU-028 (IA-BU-014.000)
" Richard C. Garberson
H-BU-029 (IA-BU-018.000)
" Richard C. Garberson
H-BU-030 (IA-BU-019.000)
" Richard C. Garberson
H-BU-033 (IA-BU-024.000)
" Arlene Anderson, Life Estate Anne
Rydstrom Mohr, David Rydstrom, Judith
Rae Englert, Kathryn S. Nelson, Linda
Rydstrom Moenck, Peggy L. Fliss
H-BU-002 (IA-BU-025.001)
" Kent R. Pickrell and the Greg L. Pickrell
separate property trust
H-BU-034 (IA-BU-027.001)
" Joyce M. Frish
H-BU-050 (IA-BU-037.000)
" Joyce Pedersen Frish
H-BU-073 (IA-BU-041.000)
" David L. Magnussen and Janet M.
Magnussen

App. 289
-

H-BU-075 (IA-BU-070.000)
" Terry A. Stull and Margaret Stull
H-BU-060 (IA-BU-090.000)
" Sheila L. Jesse Revocable Trust, Marvin
E. Jesse Revocable Trust
H-BU-078 (IA-BU-093.000)
" Sheila L. Jesse Revocable Trust and
Marvin E. Jesse Revocable Trust

Calhoun
-

-

-

H-CA-044 (IA-CA-006.300)
" Murphy Land, Inc.
H-CA-049 (IA-CA-035.000)
" Murphy Land, Inc.
H-CA-014 (IA-CA-058.000)
" Francis J. Patterson and Mary J.
Patterson, Timothy J. Martin and Angela
A. Martin
H-CA-001 (IA-Ca-060.000)
" Gary D. Hammen, Trustee of the
Hammen Family trust, U/W Drois E.
Hammen
H-CA-002 (IA-CA-088.000)
" Rex S. Hartwig and Craig M. Hartwig
H-CA-052 (IA-CA-092.000)
" Craig M. Hartwig
H-CA-062 (IA-CA-117.000)
" The Shirley Gerjets Family Trust
H-CA-034 (IA-CA-124.000)
" Cherich Farm, LLC
H-CA-016 (IA-CA-127.000)
" Randy Dischler and Michelle Dischler

App. 290
Cherokee
-

H-CH-007 (IA-CH-050.000)
" Lois Mae Nelson
H-CH-011 (IA-CH-060.000)
" Montgomery, Inc.
H-CH-021 (IA-CH-060.200)
" Skadeland Farms, LLLP

Jasper
-

H-JA-004 (IA-JA-004.000)
" Gayle E. Conover

Jefferson
-

H-JE-004 (IA-JE-072.000)
" Allan Baker

Keokuk
-

H-KE-014 (IA-KE-001.000)
" Beverly J. Abel, Stacey Abel, Susan Abel
McCarron and Sarah Abel Bailey
H-KE-016 (IA-KE-003.000)
" Beverly J. Abel, Stacey Abel, Susan Abel
McCarron and Sarah Abel Bailey

Lee
-

H-LE-025 (IA-LE-102.200)
" May W. Crowe
H-LE-026 (IA-LE-103.000)
" May W. Crowe

App. 291
Lyon
-

H-LY-004 (IA-LY-015.000)
" Bonnema Harvest Farms Limited
Partnership, A South Dakota Limited
Partnership

Mahaska
-

H-MA-008 (IA-MA-208.000)
" M. Louise Reinwand Testamentary Trust

O’Brien
Polk
-

H-PO-002 (IA-PO-027.500)
" Daniel Higginbottom and Jayne
Higginbottom, Trustees of the Darlene
Higginbottom Irrevocable Trust

Sac
Sioux
Story
-

H-ST-030 (IA-ST-064.500.900)
" Story County, Iowa

Van Buren
Wapello

App. 292
Webster
-

H-WE-014 (IA-WE-119.000)
" John P Helde, Trustee and Successors in
Interest of Helde Family Revocable Trust

